U.S. Department of Housing
and Urban Development
Office of Inspector General




Semiannual Report to Congress
October 1, 2009, through March 31, 2010
Profile of Performance
                                Audit profile of performance
                 for the period October 1, 2009, through March 31, 2010
    Results                                                                                  This reporting period
    Recommendations that funds be put to better use                                                $588,128,115
    Recommended questioned costs                                                                    $45,269,113
    Collections from audits                                                                         $18,555,934
    Administrative sanctions                                                                              1


                             Investigation profile of performance
                 for the period October 1, 2009, through March 31, 2010
    Results                                                                                  This reporting period
    Funds put to better use                                                                         $36,504,550
    Recoveries/receivables1                                                                        $392,531,068
    Arrests2                                                                                             612
    Indictments/informations                                                                             480
    Convictions/pleas/pretrial diversions                                                                509
    Civil actions                                                                                         50
    Administrative sanctions3                                                                            203
    Suspensions                                                                                           49
    Debarments                                                                                            46
    Personnel actions4                                                                                    30
    Search warrants                                                                                       42
    Subpoenas issued                                                                                     790


                                Hotline profile of performance
                 for the period October 1, 2009, through March 31, 2010
    Results                                                                                  This reporting period
    Funds put to better use                                                                           $363,780
    Recoveries/receivables                                                                            $75,082


1
  The total recoveries include $135,947,782 in conventional mortgages.
2
  Included in the arrests is our focus on the nationwide Fugitive Felon Initiative.
3
  Administrative sanctions include limited denials of participation, relocations, removal from program participation,
restraining orders, and systemic implication reports submitted.
4
  Personnel actions include reprimands; suspensions; demotions; or terminations of the employees of Federal, State, or local
governments or of Federal contractors and grantees as the result of OIG activities.
                                                                                                                  iii
Inspector General Message
                                   I am pleased to present our Semiannual Report to Congress, which
                               summarizes the activities and accomplishments of the U.S. Department
                               of Housing and Urban Development, Office of Inspector General (HUD
                               OIG), for the first half of fiscal year 2010. HUD OIG employees—auditors,
                               agents, attorneys, analysts, and support staff—continue their critical efforts
                               to improve economy and efficiency in programs administered by HUD.

                                    This has been an exceedingly busy and productive period for our office
                               and our key divisions, working collaboratively in a cross-disciplinary
                               fashion and achieving significant results on behalf of HUD beneficiaries
                               and American taxpayers. As an active partner in the newly formed
                               Financial Fraud Enforcement Task Force, our office has been at the forefront
                               of getting the message out to our communities about improving efforts
                               across the Government, with our State and local partners, in investigating
                               and prosecuting significant financial crimes, ensuring just and effective
                               punishment for those who would perpetrate such crimes, and providing
                               critical training in areas of our expertise.

    During the last 6 months, we have focused on our widely enhanced Civil Fraud Initiative, in which we
have dedicated a cadre of forensic auditors to focus on recovering the ill-gotten gains of those who commit
civil fraud against HUD programs.

    During this reporting period, we had $588 million in funds put to better use, questioned costs of $45
million, and $392 million in recoveries and receivables. Using all means available to remove bad actors
from HUD activities, we have closed more than 500 criminal cases and 50 civil actions and facilitated more
than 200 administrative sanctions.

    The effective implementation of the American Recovery and Reinvestment Act of 2009 (ARRA) and
protecting these funds are discussed in the nearly 50 audits of communities, which address their capacity
to administer additional funds received under ARRA. Recommendations for improvements in protecting
these funds are continually provided to the Department.

   One of our highlighted audits is the audit of HUD’s controls over the low-income rental subsidy
program, the Housing Choice Voucher program. Our audit uncovered payments for deceased tenants
and tenants with invalid Social Security numbers and made recommendations that will correct HUD’s
monitoring deficiencies.

     Further, a key investigation exemplifies our commitment to pursuing fraud against the Federal Housing
Administration’s (FHA) mortgage insurance program. The principals of GreatStone Mortgage received
stiff prison sentences when it was proved that they altered appraisals and other loan documents used by
unqualified borrowers to obtain FHA-insured mortgages. More than 900 fictitious loans were created that
were securitized by the Government National Mortgage Association (Ginnie Mae) and sold to investors.
HUD and Ginnie Mae realized losses of $77.9 million after the mortgages defaulted.

    Our investigators have also been focused on public corruption. We were able to successfully build a
case against the assistant executive director of the Alamosa Housing Authority in Colorado, in which we
showed that he and coconspirators embezzled more than $1.8 million from the Authority and engaged in
money laundering and tax evasion.



                                                                                      Inspector General Message
iv
          These examples show the exceptional work done by our staff that has resulted in a significant positive
       impact on fraud and against the misuse of taxpayer dollars. I am grateful to all of our employees nationwide
       who worked so tirelessly during this period.

            The enhancement of OIG operations comes at an especially important time for the oversight community.
       Every day, HUD OIG increases its dedication and commitment to becoming a more efficient and effective
       organization, becoming better at recovering taxpayer funds, and working with our partners to bring those
       to justice who seek to harm our vital programs. We look forward to continuing to fulfill our responsibilities
       in oversight of all of the programs administered by HUD, and we appreciate the dedicated funding that
       Congress has furnished to our office to carry out our important work.

          As we address a very large and expanding mission to protect the much-needed programs of HUD,
       I would once again like to express my appreciation to Congress and the Department for their sustained
       commitment to supporting the important work of our office.




           Kenneth M. Donohue
           Inspector General




     Inspector General Message
                                                                                                                         v
                                   Audit reports issued by program


                                                                             Single-family housing, 11%
                                                                             Multifamily housing, 10%
                                                                             Public and Indian housing, 25%
                                                                             Community planning and 	
                                                                             development, 43%
                                                                             Other programs, 11%




                         Audit monetary benefits identified by program


                                                                             Single-family housing, 2%
                                                                             Multifamily housing, 2%
                                                                             Public and Indian housing, 9%
                                                                             Community planning and 	
                                                                             development, 5%
                                                                             Other programs*, 82%




* Other programs include CFO and CIO related audits.


                    Audit monetary benefits identified in millions of dollars


                                                                                             $521.9
         $700
         $600
         $500
         $400
         $300
         $200                                                 $53.8           $29.9
                           $15.8             $12.0
         $100
           $0
                   Single-family      Multifamily        Public and     Community         Other
                      housing          housing         Indian housing   planning and    programs
                                                                        development




                                                                                                          Audit Charts
vi
                        Investigative cases opened by program area (total: 642)



                                                             Single-family housing, 39% (251)
                                                             Public and Indian housing, 37% (236)
                                                             Multifamily housing, 8% (49)
                                                             Community planning and 	
                                                             development, 11% (72)
                                                             Other, 5% (34)




                  Investigative recoveries by program area (total: $392,531,068)


                                                             Single-family housing, 94%
                                                             ($370,940,227)
                                                             Public and Indian housing, 2%
                                                             ($6,831,610)
                                                             Multifamily housing, 1% ($2,090,908)
                                                             Community planning and 	
                                                             development, 3% ($12,629,681)
                                                             Other, 0% ($38,642)




                        Investigative cases closed by program area (total: 1032)



                                                             Single-family housing, 23% (231)
                                                             Public and Indian housing, 51% (528)
                                                             Multifamily housing, 10% (105)
                                                             Community planning and 	
                                                             development, 13% (136)
                                                             Other, 3% (32)




     Investigation Charts
                                                                                                      vii
Acronyms List
AIGA		        Assistant Inspector General for Audit
AIGI		        Assistant Inspector General for Investigation
ARIGA	        Assistant Regional Inspector General for Audit
ARRA		        American Recovery and Reinvestment Act of 2009
ASAC		        Assistant Special Agent in Charge
CDBG		        Community Development Block Grant
CMP		         Civil Money Penalties
CFR		         Code of Federal Regulations
CPD		         Office of Community Planning and Development
DRGR		        Disaster Recovery Grant Reporting system
FEMA		        Federal Emergency Management Agency
FERA		        front-end risk assessments
FFI		         Fugitive Felon Initiative
FFMIA		       Federal Financial Management Improvement Act of 1996
FHA		         Federal Housing Administration
FICO		        Fair Isaac Credit Organization
FISMA		       Federal Information Security Management Act
FOC		         Financial Operations Center
FTE		         full-time-equivalent
FY		          fiscal year
Ginnie Mae	   Government National Mortgage Association
HECM		        home equity conversion mortgage
HERA		        Housing and Economic Recovery Act of 2008
HOME		        HOME Investment Partnerships Program
HOPWA	        Housing Opportunities for Persons with AIDS
HUD		         U.S. Department of Housing and Urban Development
IDIS		        Integrated Disbursement and Information System
IG		          Inspector General
IRS		         Internal Revenue Service
IT		          information technology
MAP		         multifamily accelerated program
NAHASDA	      Native American Housing Assistance and Self-Determination Act of 1996
NAHRO	        National Association of Housing and Redevelopment Officials
NSP		         Neighborhood Stabilization Program
OA		          Office of Audit



                                                                                      Acronyms List
viii
         OAM		         Office of Asset Management
         OAHP		        Office of Affordable Housing Preservation
         OI		          Office of Investigation
         OIG		         Office of Inspector General
         OMB		         Office of Management and Budget
         PFCRA		       Program Fraud Civil Remedies Act
         PHA		         public housing agency
         PIH		         Office of Public and Indian Housing
         RIGA		        Regional Inspector General for Audit
         SA		          Special Agent
         SAC		         Special Agent in Charge
         SBA		         Small Business Administration
         SFA		         Senior Forensic Auditor
         SSA		         Senior Special Agent
         SSA		         Social Security Administration
         SSN		         Social Security number
         U.S.C.		      United States Code
         USPS		        United States Postal Service




       Acronyms List
                                                                                                            ix
Table of Contents
Executive Highlights 											                                                                 	 1
Chapter 1 - HUD’s Single Family Housing Programs        		                                         7	
	     Audits        												                                                                   8	
	     Investigations                             						                                           13 	
	     Inspections and Evaluations 									                                                       23
Chapter 2 - HUD’s Public and Indian Housing Programs 						                                       25	
	     Audits       										                                                           	         26	
	     Investigations 									                            		                                      32
Chapter 3 - HUD’s Multifamily Housing Programs 		                                                 47	
	     Audits       											                                                                    48	
	     Investigations 											                                                                  52 	
	     Inspections and Evaluations									                                                        58
Chapter 4 - HUD’s Community Planning and Development Programs 				                                59	
	     Audits       											                                                                    60	
	     Investigations                                   					                                      65
Chapter 5 - American Recovery and Reinvestment Act of 2009 					                                  71	
	     Introduction and Background								                                                         72 	
	     Audits			                                                                                   73 	
	     Investigations											                                                                   86 	
	     Inspections and Evaluations									                                                        87
Chapter 6 - Disaster Relief Oversight 								                                                    89	
	     Audits 										                                                                           90 	
	     Investigations             								                                               	         93 	
	     Inspections and Evaluations 									                                                      102
Chapter 7 - Other Significant Audits and Investigations/OIG Hotline 				                         103	
	     Audits       											                                                                   104	
	     Investigations											                                                                  106	
	     OIG Hotline      										                                                                107
Chapter 8 - Outreach Efforts                  							                                            109
Chapter 9 - Review of Policy Directives 								                                                 127	
	     Enacted Legislation					              					                                                128	
	     Notices and Policy Issuances       							                                                 128
Chapter 10 - Audit Resolution  									                                                         129	
	     Audit Reports Issued Before the Start of the Period With No Management Decision   	        130	
	     Significantly Revised Management Decisions		                 				                          134	
	     Significant Management Decision With Which OIG Disagrees       				                        135 	
	     Federal Financial Management Improvement Act of 1996 					                                 135
Appendix 1 - Audit Reports Issued 									                                                      137
Appendix 2 - Tables 											                                                                  145
Appendix 3 - Index 											                                                                   167
HUD OIG Operations Telephone Listing 								                                                    171




                                                                                        Table of Contents
x
      Reporting Requirements
      The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by
      the Inspector General Act of 1988, are listed below:
      Source/Requirement              							                                                 		         Pages
      Section 4(a)(2)-review of existing and proposed legislation and regulations.			                          128
      Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to	        1-108, 128	
      the administration of programs and operations of the Department.
      Section 5(a)(2)-description of recommendations for corrective action with respect to		                 7-108	
      significant problems, abuses, and deficiencies.
      Section 5(a)(3)-identification of each significant recommendation described in          Appendix 2, Table B
      previous semiannual report on which corrective action has not been completed.		
      Section 5(a)(4)-summary of matters referred to prosecutive authorities and the                     	   7-108
      prosecutions and convictions that have resulted.
      Section 5(a)(5)-summary of reports made on instances in which information or            No Instances	
      assistance was unreasonably refused or not provided, as required by Section 6(b)(2) of 				
      the Act.
      Section 5(a)(6)-listing of each audit report completed during the reporting period and    Appendix 1
      for each report, where applicable, the total dollar value of questioned and unsupported 			
      costs and the dollar value of recommendations that funds be put to better use.
      Section 5(a)(7)-summary of each particularly significant report and the total dollar value             7-108 	
      of questioned and unsupported costs.
      Section 5(a)(8)-statistical tables showing the total number of audit reports and the    Appendix 2, Table C 	
      total dollar value of questioned and unsupported costs. 					
      Section 5(a)(9)-statistical tables showing the total number of audit reports Appendix 2, Table D
      and the dollar value of recommendations that funds be put to better use by 					
      management.
      Section 5(a)(10)-summary of each audit report issued before the commencement   Appendix 2, Table A 	
      of the reporting period for which no management decision had been made by the 		              		
      end of the period.
      Section 5(a)(11)-a description and explanation of the reasons for any 			                                132
      significant revised management decisions made during the reporting period.
      Section 5(a)(12)-information concerning any significant management decision with which the                 135	
      Inspector General is in disagreement.
      Section 5(a)(13)-the information described under section 05(b) of the Federal Financial                 135	
      Management Improvement Act of 1996.




    Reporting Requirements
Executive
Highlights
2
      Strategic Initiative 1
        HUD Strategic Goal: Increase Homeownership Opportunities

        OIG Strategy: Contribute to the reduction of fraud in single-family insurance programs
        •	 Audits uncovering single-family and loan origination abuse
        •	 Audits of the U.S. Department of Housing and Urban Development’s (HUD) internal policies to
             determine whether controls are adequate
        •	   Strategy for civil fraud initiatives
        •	   National strategy for single-family mortgage fraud task forces
        •	   Investigations focusing on home equity conversion mortgages (HECM)
        •	   Outreach to industry and consumer groups and the Department

        Highlights: Results or impact of significant OIG work
        •	 Audits of eight Federal Housing Administration (FHA) single-family mortgage                 page 9
             lenders found that lenders did not follow HUD requirements when underwriting
             loans and performing quality control procedures.
        •	   HUD’s Philadelphia Homeownership Center did not always ensure that required               page 9
             background investigations were completed for its contracted employees.
        •	   Florida mortgage fraud schemes cause HUD and the Government National Mortgage            page 14
             Association (Ginnie Mae) losses in excess of $77 million.
        •	   Reverse mortgage fraud scheme is unraveling in Atlanta, GA.                              page 17
        •	   Lend America is assessed more than $500,000 in civil penalties.                          page 19
        •	   A Chicago, IL, man was indicted for the alleged fraudulent resale of HUD real estate-    page 22
             owned (REO) properties.
        •	   Mortgage fraud is described for more than 230 concerned citizens attending a “town      page 113
             hall” meeting in Bakersfield, CA.

        Emerging Issues: Areas of OIG interest

        •	 Initiated “Operation Watchdog” and served subpoenas on the corporate offices of 15 mortgage
             companies across the country demanding documents and data related to failed loans, which
             resulted in claims paid out by the FHA mortgage insurance fund
        •	   Investigations focusing on HECM for Purchase program and on refinanced HECMs
        •	   FHA’s ability and capacity to oversee its expanding market share
        •	   Effect on FHA programs from vulnerability and manipulation of Fair Isaac Credit Organization
             (FICO) scores
        •	   Using civil remedies to recover losses resulting from mortgage fraud
        •	   FHA’s refinancing of riskier loans than it has historically had in its portfolio
        •	   Strategy for housing counseling
        •	   Loan limit increases opening new metropolitan areas with unknown risks




    Executive Highlights
Strategic Initiative 2                                                                                          3


HUD Strategic Goal: Promote Decent Affordable Housing

OIG Strategy: Contribute to the reduction of erroneous payments in rental assistance programs
•	 American Recovery and Reinvestment Act of 2009 (ARRA) – to focus on grantee capacity to
     administer ARRA funds
•	 Reduce erroneous payments
•	 Contribute to improving the performance of entities managing rental assistance programs
•	 Investigative initiatives involving corruption in the management of troubled public housing
     authorities and multifamily developments
•	 Public and Department-wide outreach initiatives
•	 Rental assistance fraud initiatives targeting public housing agencies in receivership or on the HUD
     troubled list
Highlights: Results or impact of significant OIG work
•	 Audits of six Section 8 Housing Choice Voucher and leased housing activities found           page 27
     that the housing agencies were not following HUD’s requirements for administering
     the program.
•	   The State of Connecticut Department of Social Services’ Section 8 housing units did not    page 27
     always meet HUD’s housing quality standards.
•	   An audit of the Philadelphia Housing Authority’s controls over the housing assistance      page 28
     payments showed that the housing authority did not always calculate housing
     assistance payments accurately.
•	   HUD was not effective in recovering the New London Housing Authority from                  page 29
     troubled status and did not take the required regulatory or statutory action.
•	   HUD improperly paid an estimated $7 million in housing assistance for deceased             page 30
     tenants.
•	   Former Alamosa Housing Authority officials were ordered to pay HUD more than $1.2          page 33
     million.
•	   A former Newark, NJ, U.S. Attorney’s Office legal assistant allegedly obtained more        page 41
     than $100,000 in housing assistance through fraud.
•	   HUD’s performance-based contract administration contract was not cost effective.           page 49
•	   A former HUD multifamily contractor was sentenced to home detention for                    page 53
     committing a conspiracy to commit mail fraud.
•	   HUD needs to ensure that the Housing Authority of New Orleans strengthens its              page 75
     capacity to adequately administer recovery funding.
•	   The New York City Housing Authority had the capacity to administer capital funds           page 76
     provided under ARRA.
•	   Tenant fraud was explained for more than 450 National Association of Housing and          page 118
     Redevelopment Officials members meeting in San Marcos, TX.
•	   OIG oversight of ARRA funding was illustrated for 120 community planning and              page 119
     development grantees meeting in Chicago, IL.

Emerging Issues: Areas of OIG interest
•	 Rental assistance fraud initiatives targeting public housing agencies in receivership or on the HUD
     troubled list
•	 Eligibility of grantee expenditures
•	 Eligibility of grantee ARRA expenditures
•	 HUD’s oversight of performance-based contract administrators


                                                                                         Executive Highlights
4
      Strategic Initiative 3
        HUD Strategic Goal: Strengthen Communities
        OIG Strategy:
        •	 Promote integrity, efficiency, and effectiveness of programs
        •	 Contribute to the reduction of fraud, waste, and abuse
        •	 ARRA - focus on capacity audits for Neighborhood Stabilization Program (NSP) and Community
             Development Block Grant (CDBG) grantees
        •	 Audits of the CDBG, Supportive Housing, and HOME Investment Partnerships programs
        •	 Audits of disaster activities
        •	 Investigative initiative to fight corruption in the administration of State or local community
             programs
        •	 Disaster relief fraud in HUD CDBG-funded programs
        •	 Public dissemination of HUD OIG activities and outreach activities
        •	 U.S. Department of Justice Financial Fraud Enforcement Task Force and mortgage fraud working
           groups
        •	 Vulnerability of fraud in REO sales due to increased REO inventory

        Highlights: Results or impact of significant OIG work
        •	 A payroll supervisor was sentenced to prison for stealing CDBG and Supportive                    page 66
             Housing funds.
        •	   OIG conducted capacity reviews of 24 entities to determine whether they had the                page 80
             capacity to manage the NSP and ARRA funds they will be receiving.
        •	   Miami-Dade County, FL needs to strengthen controls over its NSP.                               page 81
        •	   The City of Atlanta, GA, needs to improve certain aspects of its NSP to meet the               page 81
             program’s 18-month obligation deadline.
        •	   HUD’s Office of Healthy Homes and Lead Hazard Control awarded grants to                        page 84
             ineligible applicants.
        •	   A St. Vincent de Paul case worker was indicted for allegedly committing theft of               page 86
             ARRA funds.
        •	   The State of Iowa misspent CDBG disaster assistance funds and failed to check for              page 90
             duplicate benefits.
        •	   OIG audited the Lower Manhattan Development Corporation’s use of CDBG                          page 91
             Disaster RecoveryAssistance funds.
        •	   A Mississippi couple who stole more than $150,000 in CDBG Disaster Recovery                    page 93
             Assistance and Federal Emergency Management Agency funds get jail time.
        •	   HUD OIG, NeighborWorks® America, and others hold a public education event to               page 112
             illustrate loan modification fraud schemes.

        Emerging Issues: Areas of OIG interest

        •	 Audits and investigations of ARRA funding and NSP
        •	 Investigations of loan modification and foreclosure rescue frauds against consumers




    Executive Highlights
Strategic Initiative 4                                                                                        5


HUD Strategic Goal: Embrace High Standards of Ethics, Management, and
Accountability

OIG Strategy:
•	 Be a relevant and problem-solving advisor to the Department
•	 Contribute to improving HUD’s execution of and accountability for fiscal responsibilities
•	 Referring audits and investigations to the Departmental Enforcement Center and other
     management officials to ensure the accountability of individuals and firms committing fraud
•	 Suspension and debarment referrals to the Departmental Enforcement Center to ensure the
   accountability of individuals and firms committing fraud
•	 Audits of HUD’s financial statements
•	 Audits of HUD’s information systems and security management

Highlights: Results or impact of significant OIG work
•	 Mortgage industry personnel in Newark, NJ, and Denver, CO, were suspended or       pages 14 & 19
     debarred from procurement and nonprocurement transactions with the Federal
     Government.
•	   Personnel from New Jersey housing authorities were suspended or debarred after   pages 35 & 43
     admitting to stealing government funds.
•	   A Kansas City, KS, housing director is suspended from transacting government           page 53
     business after she pleads guilty to making false statements.
•	   OIG reviewed HUD’s process for monitoring recipient reporting for ARRA.                page 74
•	   OIG completed audits for HUD, FHA, and Ginnie Mae financial statements for 	   pages 104 & 105
     fiscal year 2009.
•	   OIG reviewed Ginnie Mae’s controls over its information technology resources.         page 105

Emerging Issues: Areas of OIG interest
•	 Issuer accountability in loan portfolio defaults in the Ginnie Mae Mortgage-Backed Securities
     program
•	   Continued modernization and enhancement of HUDs information systems
•	   Impact of nonconveyance claims (short sales and loan modifications) on the FHA fund
•	   Quality control review of independent public accountants for Ginnie Mae issuers
•	   Audits of Ginnie Mae issuer reviews




                                                                                       Executive Highlights
   Chapter 1
  Single-Family
Housing Programs
8
          The Federal Housing Administration’s (FHA) single-family programs provide mortgage insurance
      to mortgage lenders that, in turn, provide financing to enable individuals and families to purchase,
      rehabilitate, or construct homes. In addition to the audits and investigations described in this chapter,
      the U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), has
      conducted numerous outreach efforts (see chapter 8, page 110).


      Audit
                         Strategic Initiative 1: Contribute to the reduction of fraud
                                     in single-family insurance programs
       Key program results                                        Questioned costs          Funds put to better use
               Audit                    9 audits                      $5.9 million               $9.9 million
                Our                      Page 9             •	 Homeownership center’s processing of Federal Housing
               focus           			                             Administration loan applications
                                Page 9                      •	 Mortgagees, loan correspondents, and direct endorsement
                               	                               lenders




                   Chart 1.1: Percentage of OIG single-family housing audit reports
                                    during this reporting period




                                                                                             Region 1 - 0%
                                                                                             Region 2 - 34%
                                                                                             Region 3 - 33%
                                                                                             Region 4 - 11%
                                                                                             Region 5 - 11%
                                                                                             Region 6 - 0%
                                                                                             Regions 7/8/9 - 0%
                                                                                             Region 10 - 11%
                                                                                             Region 11 - (N/A)*




      * This does not include disaster relief audits. See chapter 6 for these reviews.




    Chapter 1 - Single-Family Housing Programs
                                                                                                                  9
Homeownership Center’s Processing of Federal Housing
Administration Loan Applications

HUD OIG audited HUD’s Philadelphia, PA, Homeownership Center to determine whether the Center
processed Federal Housing Administration (FHA) loan applications in accordance with applicable policies
and procedures and ensured that required background investigations were completed for its contracted
employees that performed functions associated with FHA loans.

The Center generally processed FHA loans in accordance with applicable policies and procedures. However,
it did not always ensure that required background investigations were completed for its contracted
employees that were responsible for processing FHA loan applications and monitoring the quality of
lenders’ underwriting. Of the Center’s 29 contracted employees responsible for performing functions
associated with FHA loans, 16 had not been through minimum background investigations required by
contract clauses and HUD’s policies on personnel security/suitability. HUD spent more than $5.4 million
on services from contracted employees who may not have been eligible to access its computer systems and
other information sources containing sensitive, personally identifiable information.

OIG recommended that HUD direct the Center to (1) initiate and follow up on the required minimum
background investigations for its contracted employees that had not been investigated to justify funds spent
on the related contracts and (2) develop and implement controls to ensure that its contracted employees
comply with contract terms and applicable HUD security policies. (Audit Report: 2010-PH-0001)


Mortgagees, Loan Correspondents, and Direct Endorsement
Lenders

    Audits to uncover loan origination abuses by single-family lenders continued to be a priority during
this semiannual period. Lenders are targeted for audit through the use of data mining techniques, along
with prioritizing audit requests from outside sources. During this period, HUD OIG reviewed eight FHA
single-family mortgage lenders. While the objectives varied by auditee, the majority of the reviews were
to determine whether the auditees originated FHA-insured loans in accordance with HUD requirements.
The following section illustrates some of the audits conducted in the single-family mortgage lender area.

                                                  ppp

    HUD OIG audited Somerset Investors Corporation, dba Somerset Mortgage Bankers, an FHA-approved
direct endorsement lender located in Melville, NY, and found that Somerset did not always originate
refinanced loans in accordance with HUD/FHA requirements. Specifically, 8 of 11 loans reviewed exhibited
underwriting deficiencies significant enough to warrant indemnification as did 6 loans subject to Somerset’s
quality control review. Consequently, 14 mortgage loans with an outstanding principal balance of more than
$4.6 million were improperly approved, which presented an unnecessary risk to the FHA insurance fund.

   Somerset’s written quality control plan complied with HUD/FHA requirements; however, the quality
control reviews conducted did not comply with HUD’s and its own quality control requirements regarding
sample size and reporting. Consequently, there was less assurance that Somerset’s quality control process
would identify and address underwriting problems in a timely manner and thus protect Somerset and FHA
from unacceptable risk.




                                                                     Chapter 1 - Single-Family Housing Programs
10
          OIG recommended that HUD require Somerset to (1) indemnify HUD for potential estimated losses of
       nearly $2.8 million for 14 loans with significant underwriting deficiencies, (2) strengthen controls over its
       underwriting procedures to provide assurance that HUD/FHA requirements are met, and (3) implement
       procedures to ensure that quality control reviews comply with HUD/FHA requirements. (Audit Report:
       2010-NY-1009)

                                                           ppp

           HUD OIG audited FHA-insured loan processes at two DHI Mortgage Company, LTD, branches in
       Scottsdale, AZ, and found that DHI Mortgage did not follow HUD requirements for originating, approving,
       or closing FHA-insured loans. Specifically, all 20 of the loans reviewed contained underwriting deficiencies,
       and 12 had significant deficiencies that impacted the insurability of the loan. The significant underwriting
       deficiencies included improper calculation of income, inadequate documentation of income, inadequate
       determination of credit and/or debt, and inadequate compensating factors when the debt-to-income ratio
       exceeded HUD’s benchmark ratio. OIG also reviewed all of the loans in the audit period that were either
       “new construction” or “new condo” to determine whether improper restrictive covenants were recorded
       against the FHA-insured properties and identified eight loans that had prohibited restrictive addenda to
       the purchase contracts.

           OIG recommended that HUD require DHI Mortgage to (1) indemnify HUD for more than $2.5 million
       for loans that did not meet FHA insurance requirements and (2) reimburse HUD more than $265,000 for
       the amount of claims and associated fees paid on loans that did not meet FHA insurance requirements.
       (Audit Report: 2010-LA-1009)

                                                           ppp

            HUD OIG audited Jersey Mortgage Company, a nonsupervised lender located in Cranford, NJ, and
       found that Jersey Mortgage did not always approve FHA-insured loans in accordance with the requirements
       of HUD/FHA. Specifically, it approved 13 loans in which there were significant underwriting deficiencies
       such as (1) inadequate verification of borrower’s credit, (2) inadequate compensating factors for loans with
       high debt-to-income ratios, (3) inadequate verification of funds to close loans, and (4) improper verification of
       employment and income information. As a result, loans were approved for potentially ineligible borrowers,
       which caused HUD/FHA to incur an unnecessary insurance risk. Jersey Mortgage also did not ensure that
       its quality control plan was implemented in accordance with HUD/FHA’s requirements. Consequently, the
       effectiveness of its quality control plan, which was designed to ensure accuracy, validity, and completeness
       in its loan underwriting process, was lessened.

           OIG recommended that HUD require Jersey Mortgage to (1) indemnify HUD against future losses
       of nearly $1.3 million on 12 loans with significant underwriting deficiencies, (2) reimburse HUD more
       than $96,000 for the amount of claims and associated fees paid on one loan with significant underwriting
       deficiencies, and (3) implement quality control procedures to ensure compliance with the requirements to
       review early defaults and rejected loans. OIG also recommended that HUD’s Homeownership Center’s
       Quality Assurance Division follow up with Jersey Mortgage within 6 months to ensure that quality control
       review procedures have been properly implemented. (Audit Report: 2010-NY-1002)

                                                           ppp

       HUD OIG audited Residential Home Funding Corporation, Gaithersburg, MD, a nonsupervised lender
       approved to originate FHA single-family mortgage loans, and found that Residential Home Funding did
       not always comply with HUD requirements in its origination of FHA loans. For five loans reviewed, it did
       not properly verify or support the borrowers’ income. As a result, the FHA insurance fund was exposed to
       an unnecessarily increased risk.


     Chapter 1 - Single-Family Housing Programs
                                                                                                                   11
OIG recommended that HUD require Residential Home Funding to indemnify more than $1.6 million for
five loans, which it issued contrary to HUD’s loan origination requirements, and refer the lender’s principals
and underwriting staff to HUD’s Mortgagee Review Board for administrative sanctions as appropriate.
(Audit Report: 2010-PH-1004)

                                                    ppp

    HUD OIG audited Ark Mortgage, Incorporated, a nonsupervised direct endorsement lender located
in North Brunswick, NJ, and found that Ark Mortgage officials did not always comply with HUD/
FHA requirements in originating 11 of 12 loans reviewed. Specifically, (1) four loans exhibited significant
underwriting deficiencies such as inadequate verification of funds to close, insufficient cash reserve for
certain property, and inadequate verification of income and liabilities; (2) two loans, including one loan with
a significant underwriting deficiency, were not closed as they were underwritten; and (3) the six remaining
loans had technical deficiencies. As a result, loans were approved for potentially ineligible borrowers,
causing HUD/FHA to incur an unnecessary insurance risk. Further, Ark Mortgage officials did not ensure
that the lender’s quality control plan had been implemented in accordance with HUD/FHA requirements.

    OIG recommended that HUD require Ark Mortgage to (1) indemnify HUD against future losses of more
than $672,000 on four loans with significant underwriting deficiencies, (2) buy down one loan so that the
value of insurance equals 75 percent of the value of the property if HUD is not provided with the additional
documents to support that the property was owner occupied, and (3) implement its quality control plan to
fully comply with HUD’s requirements. OIG also recommended that HUD follow up with Ark Mortgage
officials within 6 months to ensure that quality control reviews have been properly implemented. (Audit
Report: 2010-NY-1004)

                                                    ppp

     HUD OIG audited Mortgage Counseling Services, Inc., College Park, GA, an FHA-approved
nonsupervised lender, and found that Mortgage Counseling Services did not follow HUD requirements
when underwriting 8 of 16 FHA loans reviewed. HUD insured the eight loans, which unnecessarily
placed the FHA insurance fund at risk for nearly $434,000. Mortgage Counseling Services did not conduct
its quality control reviews in a timely manner. In addition, the lender did not report a significant quality
control violation to HUD. As a result, it did not ensure the accuracy, validity, and completeness of its loan
originations. Also, Mortgage Counseling Services did not fully comply with HUD requirements in closing
two loans and collected an uncustomary and unreasonable appraisal fee after loans closed. As a result,
HUD could not be assured that loans were properly closed, and the risk to the FHA insurance fund could
be increased.

    OIG recommended that HUD require Mortgage Counseling Services to (1) indemnify HUD for the
potential loss of nearly $434,000 on the eight loans with material deficiencies, (2) reimburse HUD for
overinsuring one loan, and (3) ensure that Mortgage Counseling Services conducts quality control reviews
in a timely manner as required. OIG also recommended that HUD take appropriate action against Mortgage
Counseling Services for its noncompliance in closing two loans. (Audit Report: 2010-AT-1001)

                                                    ppp

    HUD OIG audited Infinity Home Mortgage Company, Inc., in Cherry Hill, NJ, a nonsupervised lender
approved to originate FHA single-family mortgage loans, and found that Infinity Home Mortgage generally
complied with HUD requirements, procedures, and instructions in the origination of FHA loans. However,
it had not implemented a quality control plan in accordance with HUD requirements. It did not review all
loans that defaulted within the first six payments as required by HUD or follow HUD requirements related



                                                                      Chapter 1 - Single-Family Housing Programs
12
       to the minimum percentage, frequency, and timeliness of quality control reviews. In addition, Infinity Home
       Mortgage was not able to support all of the quality control reviews that it stated it performed.

           OIG recommended that HUD direct Infinity Home Mortgage to implement its quality control functions
       as required and follow up in 6 months to ensure the lender’s compliance. (Audit Report: 2010-PH-1005)

                                                         ppp

            HUD OIG audited Leader Financial Services in Parma, OH, a Government National Mortgage Association
       (Ginnie Mae) issuer servicing FHA-insured loans, and found that Leader complied with HUD’s requirements
       in the purchase and transfer of Fidelity Home Mortgage Corporation’s loan-servicing portfolio. However,
       it failed to perform an adequate due diligence review. The loans contained a number of unacceptable
       compliance-related underwriting deficiencies, such as excessive borrower qualifying ratios without valid
       compensating factors, inaccurate borrower asset and income determinations, and/or credit deficiencies. As
       a result, Leader subjected itself to unnecessary risks.

          OIG recommended that HUD determine the appropriate actions for the two underwriters that improperly
       underwrote 69 percent of the loans cited and implement adequate procedures and controls to safeguard the
       FHA insurance fund. (Audit Report: 2010-CH-1004)

                                                         ppp




     Chapter 1 - Single-Family Housing Programs
                                                                                                                           13
Investigations
    Some investigations discussed in this report were generated from leads provided by HUD single-family
housing program staff and conducted jointly with Federal, State, and local law enforcement agencies. The
results of various significant investigations are described below.


                     Strategic Initiative 1: Contribute to the reduction of fraud
                                 in single-family insurance programs
        Key program                    Cases                      $          Convictions/pleas/      Admin/civil
          results                      closed                 recovered           pretrials            actions

       Investigations                   231                 $370,940,227*            127                    94
              Our                     Page 14            •	 Loan origination fraud
             focus                    Page 18            •	 Identity fraud and false Social Security numbers
                                      Page 19            •	 Civil and administrative actions
                                      Page 20            •	 Other single-family fraud

*
    The total recoveries include $135,947,782 in conventional mortgages.


      Chart 1.2: Percentage of OIG single-family housing closed investigation cases
                             during this reporting period



                                                                                           Region 1 - 4%
                                                                                           Region 2 - 5%
                                                                                           Region 3 - 9%
                                                                                           Region 13 - 12%
                                                                                           Region 4 - 9%
                                                                                           Region 14 - 6%
                                                                                           Region 5 - 6%
                                                                                           Region 15 - 10%
                                                                                           Region 6 - 5%
                                                                                           Regions 7/8 - 18%
                                                                                           Region 9 - 8%
                                                                                           Region 10 - 7%
                                                                                           Region 11 - 1%




                                                                              Chapter 1 - Single-Family Housing Programs
14
       Loan Origination Fraud

           Jorge Socorro, a former manager for Foundation Funding, doing business as GreatStone Mortgage
       (GreatStone), was charged in U.S. District Court, Tampa, FL, with allegedly making false statements and
       committing a conspiracy and fraud against HUD. In addition, the former GreatStone owner and underwriter
       Corey and Sandi Brower were collectively sentenced to 105 months incarceration and 72 months probation
       and ordered to jointly pay HUD and various financial institutions $77.9 million in restitution for their
       earlier guilty pleas to making false statements and committing a conspiracy and fraud against HUD. From
       August 1999 to May 2001, Socorro and others allegedly and Corey and Sandi Brower admittedly altered
       appraisals and other loan documents used by unqualified borrowers to obtain FHA-insured mortgages
       that were eventually packaged and securitized by Ginnie Mae. In addition, Socorro and others allegedly
       and Corey and Sandi Brower admittedly created 930 bogus loans that were securitized by Ginnie Mae and
       sold to investors. HUD and Ginnie Mae realized losses of $77.9 million after 3,164 mortgages defaulted.

                                                           ppp

            John Varner, the former president for Mortgage One Corporation, was sentenced in U.S. District Court,
       Riverside, CA, to 156 months incarceration and 5 years probation and ordered to pay a number of victims
       not yet identified more than $29.7 million in restitution for his earlier conviction of committing a conspiracy,
       filing false Federal income tax returns, and aiding and abetting. Varner and others caused the submission of
       fraudulent loan applications used by unqualified borrowers who obtained FHA-insured mortgages. HUD
       realized losses exceeding $29.7 million after more than 900 mortgages defaulted.

                                                           ppp

           Consuela Cisneros and Blanca Torres, former employees for Energy Homes, were each indicted in the
       86th District Court, Kaufman, TX, for allegedly engaging in organized criminal activities. In addition,
       Kally Marriott, the former president of Energy Homes, was sentenced to 5 years supervised release and
       ordered to perform 300 hours of community service for her earlier guilty plea to engaging in an organized
       criminal activity. From July 2006 to September 2008, Cisneros and Torres allegedly and Marriott and others
       admittedly forged signatures or provided fraudulent documents used by unqualified borrowers to obtain
       FHA-insured mortgages. HUD realized losses of $4.3 million after 74 mortgages defaulted.

                                                           ppp

            Amer Mir, a loan officer for United Home Mortgage Company, and Frederick Ugwu were each convicted
       in U.S. District Court, Newark, NJ, of committing money laundering and a conspiracy to commit wire fraud.
       In addition, Mir, Ugwu, and Michael McGrath, Jr., the former president of U.S. Mortgage Corporation and its
       subsidiary, CU Nations Mortgage, LLC, who previously pled guilty to committing a conspiracy to commit
       money laundering and mail and wire fraud, were each suspended from procurement and nonprocurement
       transactions with HUD and throughout the Executive Branch of the Federal Government. From 2002 to
       2006, Mir and Ugwu conspired with others and provided fraudulent information used by unqualified
       borrowers to obtain FHA-insured and conventional mortgages, and from January 2004 to February 2009,
       McGrath and others fraudulently sold credit union mortgage loans to Fannie Mae and used $139 million in
       illicit proceeds to fund personal and business investments. HUD realized losses of $2.7 million after about
       100 mortgages defaulted.

                                                           ppp




     Chapter 1 - Single-Family Housing Programs
                                                                                                                              15
    Martha Amaya was sentenced in U.S. District Court, Los Angeles, CA, to 30 months incarceration and
3 years supervised release and ordered to pay HUD more than $1.9 million in restitution for her earlier
guilty plea to committing wire fraud. Amaya and others created or provided fraudulent documents used
by unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses in excess of $1.9 million
after 25 mortgages defaulted.

                                                              ppp

    Maria Contreras, a loan officer for Atlantic Pacific Mortgage Company, doing business as America’s First
Mortgage, was charged in U.S. District Court, Fort Myers, FL, with allegedly committing loan and credit
application fraud. In addition, America’s First Mortgage owner and loan officer Juan Gonzalez and Mark
Willberg each pled guilty to committing loan application fraud or making false statements. From June 2006
to December 2007, Contreras allegedly and Gonzalez and Willberg admittedly created and submitted false
information or documents used by unqualified borrowers to obtain FHA-insured mortgages. HUD realized
losses of more than $1.5 million after nine mortgages defaulted.




Copyright 2009. Naples Daily News. Naples, FL. Reprinted with permission.

                                                              ppp

    Real estate investor Maria Alonso pled guilty in U.S. District Court, Riverside, CA, to committing a
conspiracy. Alonso provided fraudulent documents and downpayment funds used by unqualified borrowers
to obtain FHA-insured mortgages. HUD realized losses of more than $1.2 million after 38 mortgages
defaulted.

                                                              ppp

                                                                   Lynn Ingle and Anthony Nagle, former loan officers
                                                               for The Mortgage Group, and David and Angie Metts,
                                                               the owners of Home and Note Solutions, each pled guilty
                                                               in U.S. District Court, Fort Worth, TX, to committing
                                                               a conspiracy or making false statements to HUD. In
                                                               addition, former Mortgage Group loan officer Dena
                                                               Musgraves was sentenced to 18 months incarceration
                                                               and 2 years supervised release and ordered to pay
                                                               HUD $214,837 in restitution for her earlier guilty plea to
                                                               committing a conspiracy to make false entries to HUD.
                                                               The above defendants conspired and created or provided

Copyright 2010. Fort Worth Star Telegram. Fort Worth, TX.
Reprinted with permission.


                                                                                 Chapter 1 - Single-Family Housing Programs
16
       fraudulent documents used by unqualified borrowers to obtain FHA-insured mortgages. HUD realized
       losses of $964,814 after 21 mortgages defaulted.

                                                           ppp

           Michael O’Keefe, Jr., the president and owner of Citywide Mortgage Company,
       remitted $200,000 to HUD and was sentenced in U.S. District Court, New Orleans, LA,
       to 18 months incarceration and 12 months supervised probation and ordered to pay
       HUD an additional $486,566 in restitution for his earlier guilty plea to making a false
       statement to HUD. O’Keefe and others recruited straw buyers, inflated appraisals,
       and provided fraudulent documents used by unqualified borrowers to obtain FHA-
       insured mortgages. HUD realized losses of $686,566 after 11 mortgages defaulted.

                                                  ppp

           Juan Garcia and Yenisley Acosta, a former loan officer and employee of All Star
       Mortgage, were collectively sentenced in U.S. District Court, Miami, FL, to 105 months
       incarceration and 6 years supervised release and ordered to pay HUD $672,142 in
       restitution for their earlier guilty pleas to committing wire fraud or a conspiracy to
       commit wire fraud. Garcia, Acosta, and others provided fraudulent information used
       by straw borrowers to obtain FHA-insured and other mortgages, supplied the straw
       borrowers with closing funds and compensation, and paid some of the fraudulent
       mortgages to prevent early defaults. HUD realized losses of $672,142 after three
       mortgages defaulted.

                                                  ppp

           Real estate closing attorney Daniel Fox was sentenced in U.S. District Court,
       Newark, NJ, to 6 months incarceration and 24 months supervised release and
       ordered to pay HUD $603,074 in restitution for his earlier guilty plea to making false
       statements to HUD. From October 2000 to November 2008, Fox and others created
       and provided fraudulent documents used by unqualified borrowers to obtain FHA-
       insured mortgages. HUD realized losses of $603,074 after 11 mortgages defaulted.

                                                  ppp
                                                                                                        (2009) The Times-
                                                                                                     Picayune Publishing
           Wayne Puff, the former owner of the now-defunct N.J. Affordable Homes
                                                                                                   Co. All rights reserved.
       (Affordable Homes); former Affordable Homes employees Lucesita Santiago and John             Used with permission
       Kurzel; real estate appraisers Michael Meehan and William Page; closing attorneys           of the Times-Picayune.
       Mitchell Fishman and Anthony Natale; paralegal Sydney Raposo; and real estate
       appraisal coordinator John Morris were collectively sentenced in U.S. District Court,
       Newark, NJ, to 391 months incarceration, 6 months home confinement, 288 months
       supervised release, and 36 months probation and ordered to pay HUD $124,000 and
       a number of victims more than $99.7 million in restitution for their earlier guilty pleas
       to making false statements to HUD, submitting fraudulent claims, or committing a
       conspiracy to commit mail or wire fraud. The above defendants and others provided
       false information to lure investors or provided fraudulent appraisals and other loan
       documents used by unqualified borrowers to obtain FHA-insured and conventional
       mortgages. HUD realized losses of $327,839 after three mortgages defaulted.

                                               ppp


     Chapter 1 - Single-Family Housing Programs
                                                                                                                  17
   Calvin Wheeler, a former loan officer for HomeLoans USA, was charged in U.S. District Court, Atlanta,
GA, with allegedly submitting false statements to HUD and committing bank and wire fraud. From April
2004 to March 2005, Wheeler allegedly submitted fraudulent loan applications for unqualified borrowers
who obtained FHA-insured mortgages. HUD realized losses of $277,200 after seven mortgages defaulted.

                                                   ppp

   Jessica Caplan and Cheri Decker were collectively sentenced in Adams County District Court, Brighton,
CO, to 90 days incarceration and 20 years probation, ordered to perform 400 hours of community service,
and fined $10,000 for their earlier conviction of or guilty plea to committing forgery or theft by receiving.
Caplan and Decker provided fraudulent information or documents used by them or other unqualified
borrowers to obtain FHA-insured and conventional mortgages. HUD realized losses of $153,814 after three
mortgages defaulted.

                                                   ppp

    Thelonius Clark, the owner of Quantum Builders, LLC, was indicted in U.S. District Court, Atlanta,
GA, for allegedly committing bank fraud. In August 2005, Clark purchased an investment property and
allegedly flipped the property at an inflated value to a borrower who obtained and later defaulted on an
FHA-insured mortgage. HUD realized a loss of $118,628 after the mortgage defaulted.

                                                   ppp

    Rebecca Loeffler, also known as Rebecca Bischoff, pled guilty in U.S. District Court, Kansas City, MO,
to making a false statement. Loeffler provided fraudulent information to obtain an FHA-insured mortgage.
HUD realized a loss of $115,051 after her mortgage defaulted.

                                                   ppp

    Gia Harris, Kelsey Hull, and Jonathan Kimpson were each arrested, charged, or indicted in U.S.
District Court, Atlanta, GA, for allegedly committing identity theft or wire fraud or attempting to commit
or committing a conspiracy to defraud a financial institution. From October 2007 to February 2010, the
above defendants and others allegedly conspired and submitted false information or documents used by
elderly borrowers to obtain about 45 fraudulent FHA-insured reverse mortgages through the HUD Home
Equity Conversion Mortgage program. In addition, the above defendants and others allegedly diverted the
unlawfully acquired equity proceeds into accounts they controlled. HUD losses have not yet been determined.

                                                   ppp

    Jairo Nunes was arrested and charged in U.S. District Court, Newark, NJ, with allegedly committing
wire fraud, and real estate agents Genilza Nunes and Lillian Veras were each arrested and charged with
allegedly committing theft by deception and money laundering. Jairo, Genilza Nunes, and Veras allegedly
conspired, created, and provided fraudulent income, identity, and other documents used by unqualified
borrowers to obtain FHA-insured and conventional mortgages. HUD losses have not yet been determined.

                                                   ppp

    General contractor David Vickers was arrested after his indictment in U.S. District Court, Jacksonville,
FL, for allegedly committing a conspiracy to commit wire and mail fraud. Vickers allegedly provided
downpayment funds used by unqualified borrowers to obtain FHA-insured and conventional mortgages.
HUD losses have not yet been determined.

                                                   ppp
                                                                     Chapter 1 - Single-Family Housing Programs
18
          Mark Barnett, a loan officer for Golden First Mortgage, was indicted in U.S. District Court, Manhattan,
       NY, for allegedly committing a conspiracy to commit wire and bank fraud. Barnett allegedly assisted straw
       buyers who provided fraudulent documents to obtain FHA-insured mortgages. HUD losses have not yet
       been determined.

                                                          ppp

           Vandelette Ware, a former real estate agent for Realty Executives, was sentenced in U.S. District Court,
       Norfolk, VA, to 4 months home detention and 5 years probation and ordered to pay Wells Fargo Bank
       $255,983 in restitution for her earlier guilty plea to committing wire fraud. In May 2008, Ware submitted
       false documents and obtained an FHA-insured mortgage. HUD losses have not yet been determined.

       Identity Fraud and False Social Security Numbers

           Louis Luevano, also known as Ray Luevano, a former real estate broker for Harvest Realty, was sentenced
       in Adams County District Court, Brighton, CO, to 6 years incarceration and 5 years parole for his earlier
       conviction of offering a false instrument for recording and committing theft, a conspiracy to commit theft, a
       conspiracy in an attempt to influence a public servant, forgery, and computer crimes. Luevano and others
       provided false Social Security numbers (SSN) and fraudulent documents used by unqualified borrowers to
       obtain FHA-insured mortgages. HUD realized losses of $378,045 after five mortgages defaulted.

                                                          ppp

           Kenya Hedges, also known as Kenya Ramos, a former loan officer for Alliance Mortgage Capital, was
       sentenced in Jefferson County District Court, Golden, CO, to 6 months probation for her earlier guilty plea
       to committing compounding. Hedges and others provided fraudulent SSNs and other documents used
       by unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses of $281,156 after two
       mortgages defaulted.

                                                          ppp

           Eight FHA-insured borrowers were each charged in Harris County District Court, Houston, TX, with
       allegedly making false statements to obtain credit. The above defendants allegedly used false SSNs to obtain
       FHA-insured mortgages. HUD realized losses of $210,905 after four mortgages defaulted.

                                                          ppp

           Former real estate agent Xochilt Alamillo, former Prestige Capital Funding loan officer Macarena
       Villalobos Javalera, Alfredo Gomez-Rosales, and Alma Peralta-Lopez were collectively sentenced in
       Adams County District Court, Brighton, CO, to 75 months probation and ordered to perform 30 hours
       of community service for their earlier guilty pleas to offering false instruments for recording, committing
       perjury, or possessing forgery devices. Javalera used a fraudulent SSN to obtain her FHA-insured mortgage,
       and Alamillo and Javalera assisted Gomez-Rosales, Peralta-Lopez, and other undocumented immigrants,
       who used fraudulent SSNs or documents to obtain their FHA-insured mortgages. HUD realized losses of
       $145,792 after two mortgages defaulted.

                                                          ppp

           Maria Franks, a former Michigan State Housing Development Authority Section 8 tenant, was charged
       in the 61st District Court, Grand Rapids, MI, with allegedly committing identity theft and larceny by false



     Chapter 1 - Single-Family Housing Programs
                                                                                                                    19
pretenses. Franks allegedly used the identity of another to obtain and later default on an FHA-insured
mortgage. HUD losses have not yet been determined.

                                                    ppp

    Pablo Lopez-Mazariegos was sentenced in U.S. District Court, Grand Rapids, MI, to 10 months
incarceration and 24 months supervised release and ordered to pay the Michigan Unemployment Insurance
Agency $19,194 in restitution for his earlier guilty plea to committing a false representation of an SSN. Lopez-
Mazariegos used an SSN belonging to another to gain employment and obtain an FHA-insured mortgage.
HUD losses have not yet been determined.

Civil and Administrative Actions

    Linda Carnagie, a former loan officer for Highland Mortgage Financial Group who was previously
convicted in U.S. District Court, Denver, CO, of making false statements and committing a conspiracy, wire
fraud, and money laundering, was debarred from procurement and nonprocurement transactions with HUD
and throughout the Executive Branch of the Federal Government for 5 years. Carnagie and others submitted
or caused the submission of fraudulent documents used by unqualified borrowers to obtain FHA-insured
mortgages. HUD realized losses of about $1.25 million after 25 mortgages defaulted.

                                                    ppp

    Ideal Mortgage Bankers, doing business as Lend America, was assessed $512,400 in civil penalties and
issued a preliminary order of injunction (preliminary injunction) by the U.S. District Court, Central Islip,
NY, for allegedly committing violations of HUD and FHA lender regulations. The preliminary injunction
enjoins Lend America and its agents and employees from using the mails or wire transmissions or causing
the use of the mails or wire transmissions to fraudulently obtain mortgage insurance from FHA; originating,
underwriting, or endorsing any mortgage for FHA insurance or submitting to HUD any loans for FHA
insurance coverage (with exceptions); submitting claims for FHA insurance coverage on loans in default;
destroying, moving, altering, disposing of, or failing to maintain business, financial, accounting, real estate,
and legal records; or advertising, marketing, or soliciting business to originate or make federally related or
federally insured home mortgage loans, including loans defined in the Real Estate Settlement Procedures Act.
In addition, former Lend America employee Michael Ashley was issued a civil injunction that requires him
to sever his relationship with Ideal Mortgage Bankers and prevents him from underwriting or submitting
FHA-insured loans, participating in any Federal mortgage loan program, or submitting FHA-insurance
claims for mortgage loans in default. Ideal Mortgage is also prohibited from issuing Ginnie Mae securities.

                                                    ppp

    Mortgage loan officer Kenneth DiPrenda and real estate closing attorney Linda Serrano, both previously
debarred after their earlier guilty pleas in U.S. District Court, Newark, NJ, to committing a conspiracy to
submit false statements to FHA, entered into Program Fraud Civil Remedies Act settlements and agreed
to collectively pay HUD $41,484. DiPrenda, Serrano, and others provided fraudulent documents used by
unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses in excess of $349,000 after
12 mortgages defaulted.

                                                    ppp

   Maria Gallucci, a licensed loan originator and a realtor for Herman Group Real Estate who previously
pled guilty to committing forgery, was ordered to pay HUD $81,701 in a civil judgment filed in Adams County
District Court, Brighton, CO. Gallucci forged the signature of her former spouse on documents associated
with her jointly owned FHA-insured mortgage. HUD realized a loss of $81,701 after her mortgage defaulted.

                                                                       Chapter 1 - Single-Family Housing Programs
20
       Other Single-Family Fraud

           Gordon Miller, a registered agent for Canyon View Escrow who was previously charged in U.S. District
       Court, Salt Lake City, UT, with allegedly committing equity skimming and mail and wire fraud, was arrested
       on an outstanding warrant for allegedly violating his pretrial release. From July 2002 to January 2005, Miller
       and others allegedly identified properties surrendered to bankruptcy courts in a number of States, posed
       as bankruptcy court or financial institution representatives and secured quit claim deeds from the property
       owners, and rented about 300 properties and collected rents but failed to remit mortgage loan payments
       and used the rents collected for personal expenditures. HUD realized losses of about $1.6 million after 45
       mortgages defaulted.

                                                           ppp

           Andre Johnson, doing business at Hat General Contractors, Inc., a HUD Rehabilitation Loan program
       contractor, and former HUD Rehabilitation Loan program inspector Brian Lillie were collectively sentenced
       in U.S. District Court, Chicago, IL, to 12 months incarceration, 24 months supervised release, and 3 years
       probation and ordered to perform 500 hours of community service and pay Wells Fargo Bank $91,891 in
       restitution for their earlier guilty pleas to making false statements to HUD or committing mail fraud. Johnson
       and Lillie submitted fraudulent work completion documents and obtained $91,891 in rehabilitation loan
       escrow funds for repairs not completed.

                                                           ppp

           Ramon Reyes, Jr., a HUD Good Neighbor Next Door
       program participant and City of Irving police officer, pled guilty
       in U.S. District Court, Dallas, TX, to making a false statement
       to HUD. Reyes obtained a HUD-owned property and received
       an approximate $57,000 discount but failed to reside in the
       property as required.

                                    ppp

           Marian Riley, a HUD Good Neighbor Next Door program
       participant and former U.S. Department of Homeland Security
       employee, was sentenced in U.S. District Court, Houston,
       TX, and ordered to pay HUD $30,676 in restitution for her
       earlier guilty plea to submitting false statements to HUD.
       Riley obtained a HUD-owned property and received a $30,500                  Copyright 2010. Fort Worth Star Telegram.
       discount but failed to reside in the property as required.                 Fort Worth, TX. Reprinted with permission.

                                    ppp

           Jason Martinez, a real estate agent and mortgage broker for Merit Mortgage Financial, LLC, pled guilty
       in U.S. District Court, Tampa, FL, to committing theft of government funds and a conspiracy to commit
       mail and wire fraud. From February 2005 to May 2007, Martinez assisted straw buyers with the fraudulent
       purchase of five HUD real estate-owned properties, including a property purchased by his spouse through
       the HUD Officer/Teacher Next Door program. HUD losses are estimated at $15,500.

                                                           ppp




     Chapter 1 - Single-Family Housing Programs
                                                                                                                         21
    Richard and Angela Swoveland were each indicted in Marion County Court, Indianapolis, IN, for
allegedly committing theft and forgery. From December 2009 to February 2010, Richard and Angela
Swoveland allegedly entered five HUD real estate-owned properties without authorization, falsely claimed
ownership of the properties, and fraudulently collected about $6,250 in security deposits and monthly rents.

                                                   ppp

    Victor Cedeno and Richard Nanan, former loss
mitigation negotiators for Taylor Bean & Whitaker,
and former Bank of America employee Genesis Valdez
were each indicted in U.S. District Court, Orlando,
FL, for allegedly committing a conspiracy, forgery,
wire fraud, and money laundering. From January
2008 to September 2009, Cedeno and Nanan allegedly
negotiated and approved “short sales” for FHA-insured
and conventional mortgages at 90 percent of the unpaid
principal balance, fraudulently reported that the “short
sales” were completed at 80 percent of the unpaid
principal balance, and conspired with Valdez to steal
the remaining 10 percent through bogus bank accounts
created at Sun Trust Bank and the Navy Federal Credit
Union. HUD losses have not yet been determined.

                        ppp
                                                                    Copyright 2009. The Orlando Sentinel. Orlando, FL.
                                                                                            Reprinted with permission.
    FHA-insured borrower Taeana Stokes was convicted
in U.S. District Court, Springfield, IL, of committing
bankruptcy fraud. Stokes failed to report her four
prior bankruptcies on her current bankruptcy petition
and submitted forged documents in an effort to obtain
additional credit and delay FHA foreclosure proceedings.
HUD losses have not yet been determined.

                         ppp

    Lawrence Luckett, the chief executive officer for Home Mortgage, Inc., a HUD-approved lender, pled
guilty in U.S. District Court, Chicago, IL, to committing bank fraud. Luckett obtained $317,500 from GMAC
Bank to fund a fictitious mortgage loan on a property with a current FHA-insured mortgage.

                                                   ppp

    John Hemphill, doing business as United States Mortgage Release Corporation, was arrested and charged
in U.S. District Court, Chicago, IL, with allegedly committing mail fraud and impersonating an officer, agent,
or employee acting under the authority of the United States. Hemphill allegedly filed fictitious deeds and
transferred the ownership of properties belonging to others, including a HUD real estate-owned property,
and posed as a Federal receiver to prospective buyers.

                                                   ppp




                                                                      Chapter 1 - Single-Family Housing Programs
22
           Charles Murphy was indicted in U.S. District Court, Chicago, IL, for allegedly committing mail and wire
       fraud. From 2002 to 2004, Murphy and others allegedly assisted with the fraudulent resale of 19 HUD real
       estate-owned properties which were acquired at discounted prices by a nonprofit organization approved
       for the HUD Direct Sales program.




       Copyright 2009. The Chicago Sun Times. Chicago, IL. Reprinted with permission.


                                                                     ppp

           Former HUD OIG auditor Kevin Gray pled guilty in Franklin County Court of Common Pleas, Columbus,
       OH, to receiving stolen property. Gray purchased and flipped a HUD real estate-owned property at an
       inflated value and shared the proceeds with others.

                                                                     ppp




     Chapter 1 - Single-Family Housing Programs
                                                                                                               23
Inspections and Evaluations
Evaluation of Debt Servicing and Collections, Financial Operations
Center, Albany, NY

    HUD OIG evaluated the efforts of HUD’s Financial Operations Center (FOC) in managing FHA debts
due HUD as a result of single-family indemnification agreements and civil money penalties (CMP). The
objectives of the evaluation were to (1) determine whether FOC debt servicing and collections complied
with applicable Federal laws and regulations and (2) to provide an update on the status and assess the
collectability of the September 30, 2008, indemnification debt balance of more than $45.9 million.

    FOC staff complied with the Federal statutory and regulatory guidelines covering the collection of
indemnification and CMP debt. The FOC serviced debt in a timely manner, and debt management decisions
were reasonable and prudent. FOC collection rates compared favorably with rates of the U.S. Department
of Veterans Affairs and private collection agencies. Regarding the indemnification debt balance of $45.9
million, much of it is seriously delinquent and old, and the likelihood of collection is doubtful. As of
September 30, 2009, the debt balance stood at almost $40.9 million.

    OIG made no recommendations. However, one other matter concerning the tracking of indemnification
debt cases by the originating HUD office was observed. OIG plans to conduct a separate evaluation to
determine whether the debt history of lenders is considered when deliberating on future administrative
actions. (I&E Report: IED-09-007)

                                                ppp




                                                                  Chapter 1 - Single-Family Housing Programs
   Chapter 2
 Public and Indian
Housing Programs
26
           The U.S. Department of Housing and Urban Development (HUD) provides grants and subsidies to 4,100
       public housing agencies (PHA) nationwide. Many PHAs administer both public housing and Section 8
       programs. HUD also provides assistance directly to PHAs’ resident organizations to encourage increased
       resident management entities and resident skills programs. Programs administered by PHAs are designed
       to enable low-income families, the elderly, and persons with disabilities to obtain and reside in housing
       that is safe, decent, sanitary, and in good repair. In addition to the audits and investigations described in
       this chapter, the U.S. Department of Housing and Urban Development, Office of Inspector General (HUD
       OIG), has conducted numerous outreach efforts (see chapter 8, page 116).


       Audit
                    Strategic Initiative 2: Contribute to the reduction of erroneous
                                      payments in rental assistance
        Key program results                                   Questioned costs                  Funds put to better use
               Audit                 21 audits*                  $15.3 million                        $35.7 million
                Our                   Page 27           •	 Section 8 Housing Choice Voucher and leased housing
               focus          			                          program activities at public housing agencies
                               Page 29                  •	 Public housing program activities
                                      Page 30           •	 Controls over deceased tenants and invalid Social Security
                              			                          numbers
                               Page 30                  •	 Indian block grants

       *The total public and Indian housing audits, questioned costs, and funds put to better use amounts include any American
       Recovery and Reinvestment Act of 2009 (nine audits) audits conducted in the public and Indian housing area. The writeups
       for these audits are shown separately in chapter 5 of this semiannual report.


                Chart 2.1: Percentage of OIG public and Indian housing audit reports
                                   during this reporting period



                                                                                                    Region 1 - 14%
                                                                                                    Region 2 - 9%
                                                                                                    Region 3 - 9%
                                                                                                    Region 4 - 5%
                                                                                                    Region 5 - 10%
                                                                                                    Region 6 - 19%
                                                                                                    Regions 7/8/9 - 10%
                                                                                                    Region 10 - 19%
                                                                                                    Region 11 - 5%




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                     27
    During this reporting period, the Office of Inspector General (OIG) reviewed HUD’s controls over the
Section 8 Housing Choice Voucher and leased housing programs, public housing activities, deceased tenants’
Social Security numbers, and HUD’s administration of the Indian Block Grant program.

Section 8 Housing Choice Voucher and Leased Housing Program
Activities at Public Housing Agencies
    Audits of the Section 8 Housing Choice Voucher program were a priority during this semiannual
reporting period. PHAs were selected for audit based on risk analysis and/or hotline complaints. While
OIG’s objectives varied by auditee, the majority of reviews were to determine whether the units met housing
quality standards, the PHA managed the program according to HUD requirements, and the eligibility of
the tenants was correctly determined. The following section illustrates the audits conducted in the Section
8 Housing Choice Voucher program area.

                                                    ppp

    HUD OIG audited the State of Connecticut Department of Social Services’ administration of its housing
quality standards program for its Section 8 Housing Choice Voucher program and found that the agency
did not adequately ensure that its Section 8 housing units met HUD’s housing quality standards. Of the 67
program units inspected, 53 failed inspection, and 34 were materially noncompliant with housing quality
standards. In addition, the agency did not always (1) perform its inspections in a timely manner, (2) properly
abate the housing assistance payments when repairs were not made as required, or (3) notify the owners of
inspection results in a timely manner. The agency also did not have an adequate housing quality standards
quality control process.

    OIG recommended that HUD require the agency to (1) strengthen controls to ensure that it follows
HUD’s procedures for conducting inspections and performing Section 8 quality control inspections to ensure
that units meet HUD’s standards to prevent $22 million in program funds from being spent annually on
units that materially fail to meet HUD’s housing quality standards and (2) reimburse its program from non-
Federal funds more than $62,000 for units that remained in noncompliance with housing quality standards
and were not properly abated. (Audit Report: 2010-BO-1001)

                                                    ppp

    HUD OIG audited the Grand Rapids, MI, Housing Commission’s Section 8 Project-Based Voucher
program and found that the Commission lacked documentation to support its selection and approval of
program projects and provided housing assistance for units without appropriate housing assistance payments
contracts. As a result, it (1) could not support that its eight projects were eligible for more than $2.8 million
in program assistance and program administrative fees totaling more than $210,000 were appropriate and
(2) overpaid more than $84,000 in program funds.

   The Commission provided improper housing assistance. It failed to ensure that six of its program
participants met program eligibility requirements. As a result, it overpaid nearly $30,000 in program funds
and received more than $3,000 in administrative fees contrary to HUD’s and its requirements.

   The Commission made improper adjustments to housing assistance payments for 78 households.
Duplicate adjustments were made for 61 households, adjustments were incorrectly calculated for 19
households, and 2 of the households’ adjustments lacked supporting documents. As a result, the Commission
overpaid nearly $10,000 and underpaid more than $10,000 in housing assistance.




                                                                    Chapter 2 - Public and Indian Housing Programs
28
          The Commission provided improper housing assistance for vacant units. It failed to follow its
       administrative plan in providing vacancy payments for 24 households, resulting in more than $5,500 in
       overpayments and more than $1,300 in underpayments.

           OIG recommended that HUD require the Commission to (1) reimburse its program from non-Federal
       funds for the improper use of more than $102,000 in program funds, (2) provide documentation or reimburse
       its program more than $3 million from non-Federal funds for the unsupported payments cited, and (3)
       implement adequate procedures and controls to address the findings cited to prevent more than $140,000
       in program funds and administrative fees from being used improperly over the next year. (Audit Report:
       2010-CH-1003)

                                                          ppp

           HUD OIG audited the administration of the Philadelphia Housing Authority in Philadelphia, PA,
       regarding its housing assistance payments for leased housing under its Moving to Work Demonstration
       program and found that the Authority generally maintained adequate documentation to support its housing
       assistance and utility allowance payments but did not always accurately calculate them. OIG found housing
       assistance and utility allowance calculation errors in 30 of 41 files reviewed, resulting in overpayments and
       underpayments.

            OIG recommended that HUD require the Authority to (1) correct the errors in the tenant files identified,
       (2) reimburse its leased housing program for the remaining ineligible overpayments, (3) reimburse
       applicable tenants for the remaining underpayments of housing assistance and utility allowances, (4)
       provide documentation or reimburse the program from non-Federal funds for unsupported payments, and
       (5) implement improved procedures and controls to prevent it from overpaying an estimated $2.3 million
       in program funds over the next year. (Audit Report: 2010-PH-1002)

                                                          ppp

          HUD OIG audited the Section 8 Housing Choice Voucher program of the Lake Metropolitan Housing
       Authority in Painesville, OH, in response to a congressional request.

           The Authority’s program administration regarding housing unit conditions was inadequate. Of the 53
       housing units inspected that did not receive a quality control inspection by the Authority, 51 did not meet
       HUD’s housing quality standards, and 38 had exigent health and safety violations that existed at the time of
       the Authority’s previous inspections. As a result, more than $42,000 in program funds was spent on units
       that were not decent, safe, and sanitary. The Authority also received nearly $5,000 in inappropriate program
       administrative fees. Of the 27 housing units that received a quality control inspection by the Authority,
       26 did not meet HUD’s housing quality standards, and 15 had exigent health and safety violations that
       existed at the time of the Authority’s previous inspections. As a result, more than $39,000 in program funds
       was spent on units that were not decent, safe, and sanitary. The Authority also received nearly $4,000 in
       inappropriate program administrative fees.

           OIG recommended that HUD require the Authority to reimburse its program from non-Federal funds for
       the improper use of more than $81,000 in program funds and implement adequate procedures and controls
       to address the finding cited to ensure that more than $903,000 in program funds is spent on housing units
       that meet HUD’s requirements. (Audit Report: 2010-CH-1001)

                                                          ppp




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                    29
Public Housing Program Activities
    HUD OIG audited the Scranton Housing Authority in Scranton, PA, to determine whether the Authority
followed applicable procurement regulations and used HUD funds properly.

    The Authority did not purchase goods, services, and property in accordance with applicable HUD
requirements, the terms of its annual consolidated contributions contract, and its own procurement
policy. It awarded contracts without competition, paid for services without having a contract, and lacked
documentation to support expenditures totaling $923,000. In addition, it could not support the source and
use of $480,000 in funds invested with a broker and $801,000 transferred into and out of its non-Federal
cash and investment accounts.

    OIG recommended that HUD require the Authority to (1) provide supporting documentation or reimburse
HUD or the applicable program from non-Federal sources for any amounts that it cannot support; (2)
develop and implement controls to ensure that it complies with applicable procurement, cash management,
and investment regulations and the terms of its annual consolidated contributions contract; and (3) train
applicable staff. OIG also recommended that the Authority create and maintain a detailed investment
register and periodically reconcile its investments to it. (Audit Report: 2010-PH-1801)

                                                    ppp

   HUD OIG audited HUD’s efforts to recover the City of New London Housing Authority in New London,
CT, to evaluate HUD’s effectiveness in identifying and helping to correct deficiencies at the Authority.

     HUD had detected significant deficiencies but had not been effective in recovering the Authority from
its longstanding troubled status. Although HUD provided extensive technical and monetary assistance
and entered into a number of binding memorandums of agreement requiring improvement, the Authority’s
condition continued to decline, it could not meet its debt obligations, and it remained troubled.

    HUD failed to take action in a timely manner when the Authority failed to make substantial progress
in correcting its deficiencies. As a result, the Authority’s financial condition declined, creditors were not
paid, liens were placed on its housing projects, and its rent receipts may be placed in receivership unless
more than $1.7 million in unpaid utility bills is paid. In addition, the Authority improperly used more than
$524,000 in Federal funds for State programs, $105,000 for unsupported payments in lieu of taxes, $99,000 in
Federal capital funds for State security patrols, and $97,000 for unsupported and unreasonable renovations
and painting.

     OIG recommended that HUD ensure that the Authority (1) establishes and implements a financial/
business plan to pay its creditors, avoid having a local receivership lien placed against its rents, and remove
liens; (2) enters into an agreement to repay more than $900,000 in water and sewer bills; (3) properly accounts
for its revolving account, stops using Federal funds for State programs, and repays its Federal programs; (4)
repays or supports unreasonable and unsupported contract maintenance costs; and (5) repays or supports
Federal funds paid for State security patrols.

    OIG further recommended that HUD (1) implement a formal process for reporting troubled housing
agencies for a determination of the corrective actions required by HUD regulations and Federal statutes
and (2) pursue all administrative and/or civil monetary penalties for the regulatory agreement violations
cited. (Audit Report: 2010-BO-0001)




                                                                   Chapter 2 - Public and Indian Housing Programs
30
       Controls Over Deceased Tenants and Invalid Social Security
       Numbers
           HUD OIG audited HUD’s controls over Housing Choice Voucher program payments for deceased
       tenants and invalid Social Security numbers to determine whether (1) HUD monitored agencies’ actions
       in response to its memorandum informing them that they had paid rental assistance for deceased tenants
       and the extent, accuracy, and impact of payments on behalf of deceased tenants and (2) agencies paid rental
       assistance for tenants with invalid Social Security numbers.

           HUD did not monitor the agencies’ actions in response to its memorandum, to include whether the
       agencies received reimbursement for ineligible rental assistance payments made for deceased tenants and
       corrected information submitted to HUD. HUD did not retain documentation supporting its memorandum
       and, therefore, could not monitor agencies’ responses to the memorandum. Further, because the deceased
       tenants report did not record the date of death for all deceased tenants, reconciling information and
       documenting improvement were difficult. OIG estimated that agencies paid approximately $7 million in
       questionable payments on behalf of deceased tenants in single-member households. Also, agencies did not
       update family composition in a timely manner, which resulted in incorrect information being maintained
       in HUD’s system. However, they did check for invalid Social Security numbers before making housing
       assistance payments, and OIG did not find any reportable conditions.

          OIG recommended that HUD (1) improve its monitoring so that it can measure corrections to agency-
       reported data maintained in HUD’s system and agency progress in limiting payments made on behalf of
       deceased tenants and (2) require agencies to support or repay its programs for questionable payments made
       on behalf of deceased tenants. (Audit Report: 2010-FW-0001)

       Indian Block Grants
          HUD OIG audited the Housing Authority of the Sac and Fox Nation of Oklahoma in Shawnee, OK, to
       determine whether the Authority expended its Indian Housing Block Grant program funds in accordance
       with HUD rules and regulations.

           The Authority did not perform the required environmental reviews or independent cost estimates or
       acquire appropriate bonding documents for procurement contracts. It also did not (1) maintain its low-rent
       housing inventory in a decent, safe, and sanitary manner or enforce its unit condition policies and procedures
       for mutual help housing; (2) follow up on previously failed inspections; or (3) expend grant funds within
       the year requested. In addition, the Authority did not receive all of its funding back from the Sac and Fox
       Nation of Oklahoma after the Nation reestablished the Authority.

            OIG recommended that HUD require the Authority to (1) support or reimburse nearly $810,000 and put
       to better use nearly $270,000 for the contracts without appropriate environmental reviews and an ineligible
       hotel expenditure; (2) correct both the deficiencies identified during the inspections and the inaccurate record
       keeping of funding requested for specific grant years; (3) implement policies and procedures to ensure that
       it maintains units, follows up on inspections, and turns around units within established timeframes; and
       (4) continue to work with its accounting firm to determine the correct amount of funding the Nation needs
       to return to the Authority. (Audit Report: 2010-FW-1002)

                                                           ppp




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                   31
   HUD OIG audited the Fort Belknap Indian Community in Harlem, MT, to determine whether it
administered its Federal funds in a manner consistent with program guidance; regulations; and the terms
and conditions of the Federal award for its (1) HUD-accepted Indian housing plan, (2) Indian Housing Block
Grant (block grant) program, (3) submission of audited financial statements, (4) tenant accounts receivable,
and (5) monthly equity payment accounts.

    Fort Belknap did not administer its Federal funds in a manner consistent with program guidance,
regulations, and the terms and conditions of the Federal award. It did not ensure that it (1) only completed
renovation work in its HUD-accepted Indian housing plan, (2) only used block grant funds for allowable
costs, (3) submitted its audited financial statements when required, (4) pursued collection of its past-due
tenant accounts receivable, and (5) properly established and maintained its monthly equity payment accounts.

    OIG recommended that HUD provide training to Fort Belknap on the proper administration of block
grant funds and ensure that it (1) recovers nearly $183,000 in funds expended for nonaccepted renovation
work from the homeowners receiving that assistance or from other non-Federal sources, (2) repays nearly
$32,000 in unallowable costs from non-Federal sources, (3) receives training regarding HUD’s financial
reporting requirements, (4) recovers more than $1 million in tenant accounts receivable, and (5) maintains
a separate monthly equity payment account for every mutual help program home buyer and identifies
and returns $300,000 in misspent payments to the correct home buyers. OIG also recommended that HUD
refer Fort Belknap to its Departmental Enforcement Center for appropriate administrative sanctions and
civil actions and enforce the remedies in 24 CFR (Code of Federal Regulations) 1000.532 and 1000.538 for
substantial noncompliance. These remedies range from adjusting the amount of block grant funds Fort
Belknap will receive to providing a replacement tribally designated housing entity as the recipient. (Audit
Report: 2010-DE-1002)

                                                   ppp

    HUD OIG reviewed HUD’s evaluation of the Kaibab Band of Paiute Indians of Pipe Spring, AZ’s
application for an Indian Community Development Block Grant (Indian block grant) under HUD’s 2008
notice of funding availability to evaluate the merits of Kaibab’s allegation that HUD treated Kaibab’s
application prejudicially without providing for a fair review.

    OIG found no evidence that HUD treated Kaibab’s 2008 Indian block grant economic development
grant application with prejudice or failed to provide a fair review. However, the review processes were
not standardized in a way that easily precluded any perception of unfairness. Specifically, HUD assigned
applications to grants management specialists without ensuring impartial treatment in appearance and in fact.
Application reviewers did not receive training or guidance regarding the evaluation of such proposals and
were not required to clearly and thoroughly document the reasons for their determination that an application
failed to meet HUD requirements. In addition, the Indian block grant project-specific threshold criteria
and related guidance were nonspecific regarding key requirements for economic development proposals,
and Indian block grant projects were generally perceived to entail greater risk of failure to succeed in the
long run. As a result, all economic development proposals faced similar barriers to approval and funding.

    OIG recommended that HUD (1) establish a consistent process for assignment of grant applications to
reviewers, (2) develop standards to ensure that written review comments are clear and complete, and (3)
develop a consistent evaluation approach for certain nonspecific project eligibility criteria. (Audit Report:
2010-LA-0803)

                                                   ppp




                                                                  Chapter 2 - Public and Indian Housing Programs
32
       Investigations
          Some investigations discussed in this report were generated from leads provided by HUD public
       and Indian housing program staff and conducted jointly with Federal, State, and local law enforcement
       agencies. The results of various significant investigations are described below.


                   Strategic Initiative 2: Contribute to the reduction of erroneous
                                     payments in rental assistance
            Key program                Cases                  $            Convictions/pleas/       Admin/civil
              results                  closed             recovered             pretrials             actions

           Investigations               528               $6,831,610                 297                    194
                 Our                  Page 33         •	 Public Housing Authority theft/embezzlement
                focus                 Page 38         •	 Rental assistance fraud
                                      Page 41         •	 FedRent Initiative
                                      Page 42         •	 Fugitive Felon Initiative
                                      Page 43         •	 Civil and administrative actions
                                      Page 44         •	 Other fraud/crimes




                    Chart 2.2: Percentage of OIG public and Indian housing closed
                           investigation cases during this reporting period



                                                                                           Region 1 - 6%
                                                                                           Region 2 - 5%
                                                                                           Region 3 - 8%
                                                                                           Region 13 - 9%
                                                                                           Region 4 - 9%
                                                                                           Region 14 - 6%
                                                                                           Region 5 - 7%
                                                                                           Region 15 - 7%
                                                                                           Region 6 - 8%
                                                                                           Regions 7/8 - 14%
                                                                                           Region 9 - 4%
                                                                                           Region 10 - 14%
                                                                                           Region 11 - 3%




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                               33
Public Housing Authority Theft/Embezzlement
    Terri Lucero, the assistant executive director for the Alamosa Housing Authority (Alamosa), was indicted
in U.S. District Court, Denver, CO, for allegedly filing false Federal income tax returns; Alamosa executive
director Doris Abeyta and Jeffrey Guntle each pled guilty to committing embezzlement, theft from a program
receiving Federal funds, or money laundering; and the former Alamosa executive director Patricia Martinez
and maintenance employee Presiliano Romero were collectively sentenced to 93 months incarceration and
6 years supervised release and ordered to pay HUD more than $1.2 million in restitution for their earlier
guilty pleas to committing theft from a program receiving Federal funds or money laundering. Lucero
allegedly failed to report income on her 2003 and 2004 Federal income tax returns, and from April 1998 to
November 2007, the remaining defendants and others embezzled more than $1.8 million in Alamosa funds
when they generated or negotiated unauthorized housing authority checks.




Copyright 2009. The Valley Courier. Alamosa, CO. Reprinted with permission.


                                                              ppp



                                                                              Chapter 2 - Public and Indian Housing Programs
34
           Juanita Montalvo-Cruz, a former Deland Housing Authority (Deland) Section
       8 case manager, was sentenced in U.S. District Court, Orlando, FL, to 36 months
       incarceration and 24 months probation, ordered to perform 50 hours of community
       service and pay HUD $320,244 in restitution, and fined $30,000 for her earlier
       guilty plea to committing embezzlement and aggravated identity theft. From
       November 2003 to September 2008, Cruz created a fictitious landlord and used
       former tenant identities to fraudulently obtain $292,446 in housing assistance
       payments. In addition, from May 2002 to November 2004, Cruz diverted and
       personally used $27,798 in Deland housing assistance funds.

                                             ppp

           Charlesetta Jackson, a former Kansas City Housing Authority (Kansas City)
       program specialist, and former Kansas City Section 8 tenant Danielle Collins were
       each indicted or charged in U.S. District Court, Kansas City, KS, with allegedly
       committing bribery, a conspiracy to commit bribery, mail and wire fraud, or
       aiding and abetting. Jackson allegedly accepted bribes from Collins and assisted
       unqualified housing applicants who obtained $236,480 in housing assistance they
       were not entitled to receive.

                                             ppp

           Rita Gestring, the former executive director for the Steele Housing Authority
       (Steele), was sentenced in U.S. District Court, Cape Girardeau, MO, to 1 year
       and 1 day incarceration and 3 years supervised release and ordered to pay Steele
       $119,184 in restitution for her earlier guilty plea to committing embezzlement
       and forgery. Gestring stole about $224,000 in cash and forged checks from the       Copyright 2009. The Daytona
                                                                                           Beach News Journal. Daytona
       housing authority.                                                                     Beach, FL. Reprinted with
                                                                                                            permission.
                                            ppp

           LaDarana Mees, a finance officer for the Standing Rock Housing Authority, was arrested after her
       indictment in U.S. District Court, Rapid City, SD, for allegedly committing theft from a program receiving
       Federal funds and money laundering. Mees allegedly issued $188,217 in fraudulent housing authority
       payments to the owner of a defunct hardware store who then rerouted $175,297 to a business operated by
       Mees.

                                                         ppp

           Margarita Villegas, the former executive director for the South Bronx Community Management
       Corporation (South Bronx Community), pled guilty in U.S. District Court, Manhattan, NY, to committing
       embezzlement. From May 2005 to March 2009, Villegas and others used the South Bronx Community credit
       card without authorization and obtained about $180,000 in personal use items.

                                                         ppp

           Anthony Bandoh, a Syracuse Housing Authority (Syracuse) bookkeeper, was arrested and charged
       in Onondaga County Court, Syracuse, NY, with allegedly committing grand larceny. From 1986 to 2002,
       Bandoh allegedly diverted and personally used $176,000 in Syracuse funds.

                                                         ppp



     Chapter 2 - Public and Indian Housing Programs
                                                                                                                    35
                                           Laura Morales, the former Bexar County Housing Authority
                                        (Bexar County) executive director, pled guilty in U.S. District Court,
                                        San Antonio, TX, to committing theft from a program receiving
                                        Federal funds. Morales fraudulently inflated her annual leave hours
                                        and stole more than $131,000 in Bexar County funds.

                                                                        ppp

                                            Donna Little Dog, the former Blackfeet Housing Authority
                                        (Blackfeet) payroll coordinator, and former Blackfeet employee Cletus
                                        Running Wolf, Jr., each pled guilty in U.S. District Court, Great Falls,
                                        MT, to committing theft from a program receiving Federal funds or
                                        aiding and abetting theft from an Indian tribal organization. From
                                        2005 to 2009, Little Dog issued $104,343 in unauthorized payroll
                                        checks to Running Wolf.

                                                                        ppp

                                            Ronnie Faison, the former deputy director for the Englewood
                                        Housing Authority (Englewood), and former Englewood bookkeeper
                                        Sergio Gonzalez were collectively sentenced in U.S. District Court,
                                        Newark, NJ, to 4 months home confinement and 60 months probation,
                                        ordered to pay HUD $103,177 in restitution, and fined $15,200 for their
                                        earlier guilty pleas to committing theft of government funds. From
                                        February 2004 to August 2007, Faison and Gonzalez used $103,177 in
                                        Englewood funds for their personal gain. Faison and Gonzalez were
                                        also suspended from procurement and nonprocurement transactions
                                        with HUD and throughout the Executive Branch of the Federal
Copyright 2009. San Antonio Express     Government.
News. San Antonio, TX. Reprinted with
permission.                                                             ppp

   Marianne Henry was sentenced in U.S. District Court, New Orleans, LA, to 3 years probation and
ordered to pay HUD $42,645 in restitution for her earlier guilty plea to committing a conspiracy to steal
government funds. From December 2006 to March 2008, Henry and previously convicted Norman Taylor, a
former security manager for the Housing Authority of New Orleans (New Orleans), conspired and prepared,
endorsed, and negotiated $85,000 in fabricated New Orleans payroll checks.

                                                    ppp

    Rhonda Smith, the former Beaufort Housing Authority (Beaufort) executive director, was arrested and
charged in Carteret County District Court, Beaufort, NC, with allegedly committing embezzlement and
corporate malfeasance. In 2008 and 2009, Smith allegedly embezzled about $80,000 in Beaufort funds when
she used Beaufort bank accounts and credit cards for personal expenses.

                                                    ppp

    Dwayne Muhammad, the former chief operating officer for the Housing Authority of New Orleans (New
Orleans) Housing Choice Voucher program, was sentenced in U.S. District Court, New Orleans, LA, to 8
months incarceration, 8 months home confinement, and 3 years probation and ordered to pay New Orleans
$45,318 in restitution for his earlier guilty plea to committing theft of government funds. From January 2007



                                                                   Chapter 2 - Public and Indian Housing Programs
36
       to August 2009, Muhammad fraudulently used information belonging to another and personally obtained
       $45,318 in housing assistance he was not entitled to receive.

                                                         ppp

           Angelene Gaskins, a former Pinellas County Housing Authority (Pinellas County) housing manager, was
       sentenced in U.S. District Court, Tampa, FL, to 6 months home detention and 5 years probation and ordered
       to pay HUD $44,791 in restitution for her earlier guilty plea to committing theft from a program receiving
       Federal funds. From August 2004 to February 2006, Gaskins embezzled $44,791 in Pinellas County funds
       when she altered, forged, and deposited tenant payments into her personal bank account.

                                                         ppp

           Katisha Simmons, a former St. Louis County Housing Authority (St. Louis County) Section 8 caseworker,
       was indicted in U.S. District Court, St. Louis, MO, for allegedly committing misapplication of government
       funds. Simmons allegedly manipulated the St. Louis County accounting system and caused the issuance
       of $30,864 in unauthorized housing assistance payments to another person.

                                                         ppp

           Elizabeth Graves, a former property manager for Tibbs and Christamore Court Apartments, housing
       developments subsidized by both the Indianapolis Housing and Indiana Housing and Community
       Development Authorities, pled guilty in Marion County Superior Court, Indianapolis, IN, to committing
       theft and a corrupt business influence. From 2006 to 2010, Graves obtained and personally used $22,000
       in tenant rents.

                                                         ppp

           Jerome Wallace, a former community services specialist for the HUD-funded Honolulu Department
       of Community Services Family Self-Sufficiency program and a Hawaii Public Housing Authority housing
       recipient, was charged in the 1st Circuit Court, Honolulu, HI, with allegedly committing theft. From 1999
       to 2007, Wallace allegedly failed to report his employment or income on housing certifications and obtained
       $20,000 in housing assistance he was not entitled to receive.

                                                         ppp

           Lesvia Barrera, the former executive director for the Eagle Pass Housing Authority, and Juan Sifuentes
       were each convicted in U.S. District Court, Eagle Pass, TX, of committing a conspiracy to defraud the
       government. During October 2001 and August 2003, Barrera, with assistance from Sifuentes, submitted
       $17,800 in false claims to HUD.

                                                         ppp

           David Ford, the former executive director of the Ripley Housing Authority, was arrested and charged in
       Tennessee General Sessions Court, Ripley, TN, with allegedly committing forgery. On March 1, 2010, Ford
       allegedly deposited a $12,000 housing authority check into his personal bank account without authorization.

                                                         ppp




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                                    37
    Barbara Hollowell, the former executive director of the Benton Harbor Housing Commission (Benton
Harbor), pled guilty in U.S. District Court, Grand Rapids, MI, to committing theft of government funds and
Social Security Administration (SSA) fraud. Hollowell used a Benton Harbor credit card to obtain about
$12,000 in personal use items and failed to report employment income on SSA retirement certifications.




Copyright 2009. The Herald Palladium. St. Joseph, MI. Reprinted with permission.


                                                               ppp

    Rosa Reyes and Catherine Diaz, former Nassau County Office of Housing and Intergovernmental
Affairs employees, were each arrested and charged in Nassau County Criminal Court, Mineola, NY, with
allegedly committing grand larceny and official misconduct, receiving bribes, offering false instruments for
recording, and falsifying business records. Between June 2003 and February 2008, Reyes and Diaz allegedly
solicited and accepted bribes from Section 8 applicants in return for preferential placement on the housing
waiting list. In addition, from May 2004 to September 2007, Diaz, the treasurer for the Association of Long
Island Housing Agencies (Long Island Housing), allegedly used $11,035 in Long Island Housing funds for
personal expenses.

                                                               ppp

   Jane Martin, a former Turtle Mountain Housing Authority (Turtle Mountain) development specialist,
was indicted in U.S. District Court, Fargo, ND, for allegedly committing theft of government funds. Martin
and others allegedly created a fictitious construction project and fraudulently obtained $7,500 in Turtle
Mountain funds.

                                                               ppp




                                                                                   Chapter 2 - Public and Indian Housing Programs
38
           Debra Waterman, the former executive director for the Superior Housing
       Authority (Superior), was sentenced in Douglas County Circuit Court, Superior,
       WI, to 90 days incarceration and 1 year probation and ordered to pay Superior
       $10,000 in restitution for her earlier guilty plea to committing theft. Waterman
       used the Superior credit card to obtain $10,000 in personal use items.

                                             ppp

           Hector Claveria, a former commissioner for the Hoboken Housing Authority,
       was indicted in Hudson County Superior Court, Newark, NJ, for allegedly
       committing official misconduct and bribery and accepting receipt of an unlawful
       benefit. Claveria allegedly accepted cash payments from a housing applicant in
       return for his efforts to circumvent the housing waiting list. HUD losses have not
       yet been determined.

       Rental Assistance Fraud
           Five former Miami-Dade Housing Agency (Miami-Dade) housing recipients
       were arrested on probable cause or charged in the Florida Circuit Court, Miami, FL,
       with allegedly committing grand theft. In addition, former Miami-Dade housing
       recipients Robinson and Phillip Dukes, Carolyn Nesmith, and Melinda Hughes
       were collectively sentenced to 20 years probation and 15 years supervised release
       and ordered to pay HUD $123,614 in restitution for their earlier guilty pleas to
       committing grand theft. Between 1993 and 2007, the above defendants allegedly
       and Robinson and Phillip Dukes, Nesmith, and Hughes admittedly failed to
       report income or accurate household composition on housing certifications and
       collectively obtained $253,984 in housing assistance they were not entitled to
       receive.
                                                                                               Copyright 2009. Superior
                                                                                                 Telegram. Superior, WI.
                                                          ppp                                 Reprinted with permission.

           Six former Indianapolis Housing Agency Section 8 tenants were each charged in Marion County Court,
       Indianapolis, IN, with allegedly committing theft and welfare fraud. From 2005 to 2009, the above defendants
       allegedly failed to report income, unauthorized residents, duplicate housing assistance, or their criminal
       histories on housing certifications and collectively obtained more than $200,000 in housing assistance they
       were not entitled to receive.

                                                          ppp

           Gwendolyn Fisk, Yousha Wheeler, Ernestina Martinez, and Mary Murillo, former Hawthorne Housing
       Authority (Hawthorne) Section 8 tenants and a landlord, were each charged in Los Angeles County Superior
       Court, Los Angeles, CA, with allegedly committing grand theft and perjury and offering or attempting to
       offer a false instrument for recording. In addition, former Hawthorne Section 8 tenant Cathy McClain was
       sentenced to 270 days incarceration and 3 years probation and ordered to perform 30 days of community
       service and pay Hawthorne $15,358 in restitution for her earlier guilty plea to committing grand theft.
       Between August 2003 and January 2010, the above defendants allegedly and McClain admittedly failed to
       report income, accurate household composition, or their familial relationship with their Section 8 landlord
       on housing or other certifications and together obtained $129,019 in housing and $16,514 in other assistance
       they were not entitled to receive.

                                                          ppp


     Chapter 2 - Public and Indian Housing Programs
                                                                                                                    39
    Patricia Stroud and Herman Angel, former New York City Housing Preservation and Development
(Housing Preservation) housing recipients, were collectively sentenced in U.S. District Court, Manhattan,
NY, to 3 years supervised probation and 12 months supervised release, fined $7,500, and ordered to pay
HUD or Housing Preservation $122,064 in restitution for their earlier guilty pleas to making false statements
to HUD or committing theft of government funds. From October 2004 to May 2009, Stroud and Angel failed
to report income on housing certifications and together obtained $122,064 in housing assistance they were
not entitled to receive

                                                    ppp

    Taikei Turner, Angela Carpenter, Rosland Stewart, and Louise Williams, current or former Las Vegas
Housing Authority Section 8 tenants and a landlord, were each charged in Las Vegas or Clark County Justice
Courts, Las Vegas, NV, with allegedly committing theft or theft by misrepresentation and a conspiracy.
From November 2003 to July 2009, Turner and Carpenter allegedly failed to report income or an accurate
household composition, and Stewart and Williams allegedly conspired and failed to report an unauthorized
resident. Collectively, the above defendants obtained $113,392 in housing assistance they were not entitled
to receive.

                                                    ppp

    Six New York City Housing Authority (New York City) housing recipients or applicants were each
charged in U.S. District, New York Supreme, or the Bronx Criminal Courts, Manhattan or the Bronx, NY,
with allegedly making false statements; committing theft of government funds, grand larceny, or forgery;
possession of a forged instrument; offering a false instrument for filing; or filing false business records. In
addition, New York City housing recipients Sandra Jimenez and Luzveminga Leon and unauthorized housing
recipient Willmer Santiago were collectively sentenced to 3 years probation and 72 months supervised
release and ordered to perform 100 hours of community service and pay HUD or New York City $55,971 in
restitution for their earlier guilty pleas to committing theft of government funds. Jimenez, Leon, and Santiago
admittedly and the remaining defendants allegedly failed to report income, assets, unauthorized residents,
or their nonresidency and the subleasing of their subsidized units on housing certifications. Collectively,
the above defendants obtained more than $112,456 in housing assistance they were not entitled to receive.

                                                    ppp

    Aesha Johnson, a Cuyahoga Metropolitan Housing Authority (Cuyahoga Metropolitan) Section 8
landlord and tenant, was charged in Cuyahoga County Court of Common Pleas, Cleveland, OH, with
allegedly committing theft and tampering with records. In addition, former Cuyahoga Metropolitan housing
recipients or landlords Preston Sales, Rhonda Johnson, and Kevin Landrum were collectively sentenced
to 66 months incarceration and 10 years community control and ordered to pay Cuyahoga Metropolitan
$43,691 in restitution for their earlier guilty pleas to attempting to tamper with records; possessing criminal
tools and weapons under disability; or committing theft, bribery, or trafficking offenses. From July 2003
to September 2009, Aesha Johnson allegedly and Sales and Rhonda Johnson admittedly failed to report
income, assets, or accurate household composition on housing certifications, and Landrum paid bribes to
pass inspections or increase his housing assistance payments. Collectively, the above defendants obtained
more than $107,598 in housing and utility assistance they were not entitled to receive.

                                                    ppp

   Sonny Vo and Denise Nguyen, a former Norwood Housing Authority Section 8 landlord and tenant, each
pled guilty in U.S. District Court, Boston, MA, to committing mail fraud. From August 2001 to September




                                                                   Chapter 2 - Public and Indian Housing Programs
40
       2008, Vo and Nguyen failed to report their joint residency on housing certifications and together obtained
       $104,496 in housing assistance they were not entitled to receive.

                                                           ppp

           Rochonda Brown and Melissa McClelland, current or former Mississippi Regional Housing Authority
       V (Mississippi Regional) Section 8 tenants, were each charged in U.S. District Court, Jackson, MS, with
       allegedly making false statements or claims and committing theft of government funds or mail fraud. In
       addition, former Mississippi Regional Section 8 tenants Brenda Tillman, Deborah McNair, and Mary Bell each
       pled guilty to committing theft of government funds, and former Mississippi Regional Section 8 tenant Eva
       Reynolds was sentenced to 3 years supervised probation and ordered to pay Mississippi Regional $26,120
       in restitution for her earlier guilty plea to committing theft of government funds. Brown and McClelland
       allegedly and the remaining defendants admittedly failed to report income on housing certifications and
       collectively obtained $101,873 in housing assistance they were not entitled to receive.

                                                           ppp

           Zina Worley, a former Boston Housing Authority (Boston) Section 8 tenant, pled guilty in Boston
       Municipal Court, Boston, MA, to making a false claim and committing larceny over $250 by false pretense.
       In addition, former Boston Section 8 tenant Gladys Hill was sentenced to 2 years probation and ordered to
       pay Boston $25,000 in restitution for her earlier guilty plea to making a false claim and committing larceny
       over $250. From March 1998 to January 2007, Worley and Hill failed to report income on housing certifications
       and together obtained $95,381 in housing assistance they were not entitled to receive.

                                                           ppp

          Benjamin and Zisi Ruttner, Village of Kaser Section 8 tenants, were each arrested and charged in New
       York State Justice Court, Haverstraw, NY, with allegedly committing grand larceny and welfare fraud.
       Benjamin and Zisi Ruttner allegedly failed to report income on housing and other certifications and together
       obtained $89,430 in housing and $67,649 in other assistance they were not entitled to receive.

                                                           ppp

           Sonja Taylor and Coletta Washington, current or former Sacramento Housing and Redevelopment Agency
       (Sacramento) Section 8 tenants, were each charged in Sacramento County Superior Court, Sacramento, CA,
       with allegedly committing grand theft, welfare fraud, and perjury. In addition, former Sacramento Section
       8 tenant Frances Gallegos was sentenced to 90 days incarceration and 3 years probation and ordered to pay
       an undetermined amount of restitution for his earlier nolo contendere plea to committing grand theft. The
       above defendants allegedly failed to report income, their criminal histories, or an unauthorized resident on
       housing certifications and collectively obtained $85,992 in housing assistance they were not entitled to receive.

                                                           ppp

           Sheri Hirsh, a former Douglas County Housing Authority (Douglas County) Housing Choice Voucher
       program participant, was indicted in U.S. District Court, Omaha, NE, for allegedly making false statements;
       former Douglas County Section 8 tenant Shena Holmes entered into a pretrial diversion, admitted to making
       false statements, and agreed to pay Douglas County $12,584 in restitution; and former Douglas County
       housing recipients Cynthia Ellis, Bernita Anderson, and Deonna Wright-Reese were collectively sentenced
       to 12 years probation and ordered to pay Douglas County $31,163 in restitution for their earlier guilty pleas




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                   41
to making false statements to HUD. From 2003 to 2008, Hirsh allegedly and the remaining defendants
admittedly failed to report income on housing certifications and collectively obtained $78,623 in housing
assistance they were not entitled to receive.

FedRent Initiative
    HUD’s latest study estimated the combined gross improper rental housing assistance payments to be
$1.022 billion in Fiscal Year 2008. In an effort to combat administrative overpayments and tenant fraud, HUD
and HUD OIG commenced “Operation FedRent,” a joint effort to address rental assistance fraud involving
Federal employees. Operation FedRent compares HUD tenant data to current and retired Federal employee
information maintained by the U.S. Office of Personnel Management. After the data comparison, an income
eligibility determination is made, and the Social Security numbers for family members 6 years of age and
older are verified. If a discrepancy exists, an investigation is opened, and appropriate administrative or
legal actions are initiated to collect any overpaid housing assistance. Results of Operation FedRent during
this semiannual reporting period are described below.

                                                   ppp

    Denise Davis, a former Newark Housing Authority Section 8 tenant and legal assistant for the New
Jersey U.S. Attorney’s Office, was indicted in U.S. District Court, Newark, NJ, for allegedly making false
statements to HUD and committing theft of HUD funds. From April 1985 to May 2006, Davis allegedly
failed to report income on housing certifications and obtained about $105,000 in housing assistance she was
not entitled to receive.

                                                   ppp

    Natosha Houston, a former Arlington Housing Authority Section 8 tenant and U.S. Department of
Homeland Security employee, was charged in U.S. District Court, Fort Worth, TX, with allegedly making false
statements to HUD. From 1999 to 2005, Houston allegedly failed to report income on housing certifications
and obtained $53,804 in housing assistance she was not entitled to receive.

                                                   ppp

    Shawnda Burnett, a former Housing Authority of the City of Los Angeles Section 8 tenant and current
Equal Employment Opportunity Commission employee, pled guilty in U.S. District Court, Los Angeles, CA,
to making a false statement. From 1998 to May 2008, Burnett failed to report income on housing certifications
and obtained about $37,374 in housing assistance she was not entitled to receive.

                                                   ppp

    Candace Morrow, a former Pilgrim Village Housing Authority Housing Choice Voucher program
participant and Internal Revenue Service (IRS) employee, pled guilty in U.S. District Court, Buffalo, NY,
to committing theft of government funds. From 2005 to 2010, Morrow failed to report income on housing
certifications and obtained $32,358 in housing assistance she was not entitled to receive.

                                                   ppp

   Nellie Howard, a former Cook County Housing Authority Section 8 tenant and U.S. Postal Service
(USPS) employee, paid HUD $27,000 and was sentenced in U.S. District Court, Chicago, IL, to 2 years




                                                                  Chapter 2 - Public and Indian Housing Programs
42
       probation and ordered to perform 200 hours of community service for her earlier guilty plea to committing
       theft of government funds. From 2004 to 2007, Howard failed to report income on housing certifications
       and obtained $27,000 in housing assistance she was not entitled to receive.

                                                          ppp

           Adrienne Harper-Green, also known as Adrienne Harper, a former Dupage Housing Authority Section 8
       tenant and current USPS employee, was indicted in U.S. District Court, Chicago, IL, for allegedly committing
       theft and mail fraud. From 2003 to 2005, Harper-Green allegedly failed to report income on housing
       certifications and obtained about $13,000 in housing assistance she was not entitled to receive.

                                                          ppp

           Cherie Nelson, a former Fresno City and County Housing Authorities Section 8 tenant and U.S.
       Department of Veterans Affairs employee, was sentenced in U.S. District Court, Fresno, CA, to 12 months
       probation and ordered to pay HUD $7,621 in restitution for her earlier guilty plea to making false statements
       to HUD. From June 2002 to August 2006, Nelson failed to report income on housing certifications and
       obtained $7,621 in housing assistance she was not entitled to receive.

                                                          ppp

           Adriane Smith, a former Prince Georges County Housing Authority Section 8 tenant and current U.S.
       Department of Agriculture employee, was charged in Prince Georges County District Court, Upper Marlboro,
       MD, with allegedly committing theft over $500. From September 2006 to March 2009, Smith allegedly failed
       to report income on housing certifications and obtained more than $5,327 in housing assistance she was not
       entitled to receive.

                                                          ppp

           Penny Justice, a former Ogden Housing Authority (Ogden) public housing tenant and IRS employee,
       was sentenced in Utah State Court, Ogden, UT, to 30 days incarceration and 18 months supervised probation
       and ordered to pay Ogden $2,912 and attend theft reform training for her earlier guilty plea to obtaining
       housing benefits through fraud. From July 2008 to February 2009, Justice failed to report income on housing
       certifications and obtained $2,912 in housing assistance she was not entitled to receive.

       Fugitive Felon Initiative
           OIG supports a Fugitive Felon Initiative (FFI) by matching HUD housing assistance information with
       crime data from the National Crime Information Center, U.S. Marshals Service (Marshals), and other
       participating law enforcement data banks. In addition, OIG special agents actively participate in the
       Marshals’ “Operation FALCON,” a joint Federal, State, city, and county law enforcement effort to locate
       and apprehend fugitive felons wanted for violent crimes. Conducted in most major cities throughout the
       United States and its territories, Operation FALCON places a strong emphasis on apprehending fugitive
       felons involved in gangs, homicides, sexual assaults, or crimes against the elderly and children. Since the
       inception of OIG’s FFI, hundreds of cases have been opened and closed, resulting in more than 8,718 in
       arrests. OIG strongly supports Operation FALCON in an effort to make HUD public and assisted housing
       safe for families. Below is an example of that effort.

                                                          ppp




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                        43
    Henry Kent, a Seattle Housing Authority Section
8 tenant since 2004, was arrested in Seattle, WA,
on an outstanding Canadian warrant for allegedly
absconding or escaping from postprison supervision
for noncapital murder.

Civil and Administrative Actions
    Helen Lowe, a former San Francisco Housing
Authority (San Francisco) Section 8 landlord previously
convicted in U.S. District Court, San Francisco, CA,
of making false statements, entered into a Program
Fraud Civil Remedies Act (PFCRA) settlement and
agreed to pay HUD $20,000. In addition, previously
convicted San Francisco Section 8 tenant Lauton Joshua
was ordered to pay HUD $226,498 in civil penalties
and assessments as a result of a PFCRA action. From
August 1998 to December 2006, Lowe and Joshua failed
to report income, assets, or their familial relationship on
housing certifications and together obtained $126,934
in housing assistance they were not entitled to receive.         Copyright 2010. The Winnipeg Sun. Winnipeg, Canada.
                                                                                           Reprinted with permission.

                                                      ppp

    Tracey White-Jenkins, the former Irvington Housing Authority (Irvington) Section 8 director who
previously pled guilty in U.S. District Court, Newark, NJ, to committing theft of government funds and
submitting a false Federal income tax return, was suspended from procurement and nonprocurement
transactions with HUD and throughout the Executive Branch of the Federal Government. White-Jenkins
fraudulently obtained, deposited, and personally used $98,878 in Irvington housing assistance payments.

                                                      ppp

    LaRaye O’Brien, a former Boise City/Ada County (Boise/Ada) Housing Authority Section 8 landlord,
was charged in a civil complaint filed in Idaho District Court, Boise, ID, with allegedly providing false
housing certifications. In addition, former Boise/Ada Section 8 tenants Jeremiah and Jennifer O’Brien entered
into civil settlements and agreed to repay Boise/Ada $48,980. From August 2003 to April 2009, the above
defendants allegedly failed to report their familial relationship on housing certifications and collectively
obtained $48,980 in housing assistance they were not entitled to receive.

                                                      ppp

    Ralph Payne, Jr., a former Orange County Housing and Community Development Section 8 landlord
who previously pled guilty in U.S. District Court, Orlando, FL, to committing a conspiracy to defraud
HUD, entered into a PFCRA settlement and agreed to pay HUD $10,000. From 2001 to 2005, Payne failed
to report his joint residency with his Section 8 tenant and obtained $37,477 in housing assistance payments
he was not entitled to receive.

                                                      ppp




                                                                  Chapter 2 - Public and Indian Housing Programs
44
           Lorelei Kristoff, a former Fort Walton Beach Housing Authority (Fort Walton) Section 8 landlord who
       previously pled guilty in U.S. District Court, Pensacola, FL, to making a false statement and committing
       theft of government property, entered into a PFCRA settlement and agreed to pay HUD $5,000. From July
       2002 to April 2004, Kristoff overcharged Fort Walton Section 8 tenants and falsified housing contracts.

                                                           ppp

           Christian and Natalie Maute, former New Jersey Department of Community Affairs (Community Affairs)
       Section 8 landlords in Newark, NJ, were each debarred from procurement and nonprocurement transactions
       with HUD and throughout the Executive Branch of the Federal Government for 3 years. Christian and
       Natalie Maute entered into lease contracts with Section 8 tenants and allegedly required the tenants to pay
       a monthly rental amount that exceeded the monthly rental amount set by Community Affairs.

                                                           ppp

           Victor Ortiz, a former City of Paterson housing inspector previously sentenced in U.S. District Court,
       Newark, NJ, for his earlier guilty plea to receiving corrupt payments, interfering with commerce by threats
       or violence, and aiding and abetting, was debarred from procurement and nonprocurement transactions
       with HUD and throughout the Executive Branch of the Federal Government for 20 months. Ortiz and others
       solicited and accepted bribes in exchange for steering Section 8 tenants to specific properties. HUD losses
       have not yet been determined.

                                                           ppp

           Scott Epstein, a former West Palm Beach Housing Authority (West Palm Beach) Section 8 landlord, entered
       into a deferred prosecution filed in the 15th Judicial Circuit Court, Wellington, FL, and agreed to refrain
       from participating in Section 8 housing programs for 12 months. Epstein allegedly allowed the residency
       of unauthorized tenants in his West Palm Beach subsidized housing units.

       Other Fraud/Crimes
           Niasha King, a St. John the Baptist Parish Housing Authority public housing tenant, and Orlando
       Brown and Lester Gardner, Jr., were each charged in U.S. District Court, New Orleans, LA, with allegedly
       committing arson, wire fraud, a conspiracy to commit wire fraud, wire fraud through the use of fire, and
       aiding and abetting. The above defendants allegedly conspired and set fire to King’s and other subsidized
       housing units. HUD losses are estimated at $573,480.

                                                           ppp

           Alex Trujillo-Ojeda, an unauthorized Puerto Rico Public Housing Administration (Puerto Rico) tenant,
       was arrested after his indictment in U.S. District Court, San Juan, PR, for allegedly committing a conspiracy
       to interfere with commerce by threats or violence; a conspiracy to possess firearms in furtherance of drug
       trafficking crimes; a conspiracy to distribute narcotic controlled substances; aiding and abetting in the
       interference of commerce by threats or violence; and aiding and abetting in the distribution of heroin, cocaine,
       cocaine base, and marijuana. In addition, Puerto Rico housing recipient Jean Casanova-Garcia pled guilty
       to committing a conspiracy to interfere with commerce by threats or violence. From July 2006 to January
       2009, Trujillo-Ojeda and others allegedly and Casanova-Garcia admittedly extorted about $118,000 from
       North Constructors Group, Inc., a Puerto Rico rehabilitation contractor. In addition, Trujillo-Ojeda and
       others allegedly distributed narcotic controlled substances within public housing units.

                                                           ppp


     Chapter 2 - Public and Indian Housing Programs
                                                                                                                     45
    Roosevelt Nicholson was sentenced in U.S. District Court, St. Louis, MO, to 21 months incarceration and
ordered to pay the St. Louis and St. Clair County Housing Authorities and others $52,840 in restitution for
his earlier guilty plea to committing a conspiracy to manufacture counterfeit securities. Nicholson conspired
with others and produced $35,608 in counterfeit checks drawn on the St. Louis and St. Clair County Housing
Authorities and counterfeit checks that involved other businesses.

                                                    ppp

    Adrian Hawkins, a former Lexington-Fayette Urban County Housing Authority (Lexington-Fayette)
Section 8 tenant, and Josh Burgess were each arrested and charged in Fayette County District Court,
Lexington, KY, with allegedly possessing forged instruments. From December 2009 to January 2010, Burgess
and Hawkins allegedly created or forged and negotiated about $6,500 in fraudulent Lexington-Fayette checks.

                                                    ppp

    Jeffrey Font-Ruiz, a former San Juan Department of Housing and Community Development (Housing
and Community Development) landlord, was sentenced in U.S. District Court, San Juan, PR, to 41 months
incarceration for his earlier conviction of committing a conspiracy to solicit monies concerning a program
receiving Federal funds. From 2004 to 2006, Font-Ruiz and others solicited and received payments from
Housing and Community Development applicants in return for housing vouchers or improved placement
on the housing waiting list. HUD losses have not yet been determined.

                                                    ppp

    Charlie Hampton, a former Housing Authority of New Orleans (New Orleans) contractor, was sentenced
in Louisiana State Court, New Orleans, LA, to 6 months incarceration (suspended) and 1 year inactive
probation and fined $2,000 for his earlier guilty plea to violating the Louisiana Pollutant Discharge Elimination
System. Hampton falsified documents and fraudulently certified that asbestos had been properly removed
from demolished New Orleans buildings.

                                                    ppp

    Thirty-nine New York City Housing Authority (New York City) authorized and unauthorized housing
recipients were arrested and indicted in U.S. District Court, Bronx, NY, for allegedly possessing controlled
substances with the intent to distribute. The above defendants allegedly sold illegal drugs from New York
City subsidized housing units.

                                                    ppp

    Christopher Summers pled guilty in U.S. District Court, Kansas City, KS, to committing wire fraud,
producing and possessing counterfeit securities, and defrauding the government. From May 2007 to May
2009, Summers and others conducted a counterfeit check scheme from a public housing unit that involved
the Kansas City and Independence Housing Authorities and a number of businesses.

                                                    ppp

    Charles Jones, a former Vicksburg Housing Authority maintenance supervisor, pled guilty in Mississippi
State Court, Jackson, MS, to possession of a controlled substance. Jones accepted delivery of one kilo of
cocaine at the Vicksburg Housing Authority.

                                                    ppp



                                                                    Chapter 2 - Public and Indian Housing Programs
46
           Manuel Rodriguez, a former Fresno Housing Authority (Fresno) Section 8 landlord, was sentenced in
       Fresno County Superior Court, Fresno, CA, to 72 months incarceration for his earlier nolo contendere plea
       to committing grand theft, forgery, and perjury. In July 2007, Rodriguez allegedly set fire to his Fresno-
       subsidized housing unit in an attempt to commit insurance fraud.

                                                          ppp

           Luz Rodriguez, Yolanda Ramos, Wesley Peña, and Angel Rodriguez, unauthorized Puerto Rico Public
       Housing Administration (Puerto Rico) tenants, were each arrested and charged in Puerto Rico State Court,
       San Juan, PR, with allegedly occupying public housing units illegally. The above defendants allegedly
       entered and occupied Puerto Rico public housing units without authorization.

                                                          ppp

          Gary Pearson, a Chicago Housing Authority Section 8 landlord, was indicted in U.S. District Court,
       Chicago, IL, for allegedly concealing information on bankruptcy petitions. Pearson allegedly failed to report
       housing assistance payments or his prior bankruptcy filings on his 2005 and 2008 bankruptcy petitions.

                                                          ppp

           Frederick Freeman, a former Ogden Housing Authority public housing tenant, was sentenced in U.S.
       District Court, Ogden, UT, to 30 months incarceration and 36 months supervised probation and ordered to
       forfeit 302 rounds of ammunition for his earlier guilty plea to possessing ammunition after conviction of a
       felony. When questioned by Federal agents, Freeman disclosed that he was a convicted felon and provided
       302 rounds of ammunition from his public housing unit.

                                                          ppp

           James Bailey was sentenced in Dorchester District Court, Boston, MA, to 2 years probation and ordered
       to perform 100 hours of community service and pay a number of victims $8,300 in restitution for his earlier
       guilty plea to committing larceny over $250. From July to October 2007, Bailey sold nonexistent Boston
       Housing Authority Section 8 vouchers to a number of victims.

                                                          ppp




     Chapter 2 - Public and Indian Housing Programs
   Chapter 3
   Multifamily
Housing Programs
48
           In addition to multifamily housing developments with U.S. Department of Housing and Urban
       Development (HUD)-held or HUD-insured mortgages, the Department owns multifamily projects acquired
       through defaulted mortgages, subsidizes rents for low-income households, finances the construction or
       rehabilitation of rental housing, and provides support services for the elderly and handicapped.



       Audit
                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                       payments in rental assistance
        Key program results                                        Questioned costs        Funds put to better use
                Audit                    8 audits                      $1.1 million             $10.9 million
                 Our                     Page 49             •	 Review of HUD’s monitoring of performance-based
                focus           			                             contract administrators
                                 Page 49                     •	 Owner and management agent operations




                      Chart 3.1: Percentage of OIG multifamily housing audit reports
                                       during this reporting period




                                                                                              Region 1 - 0%
                                                                                              Region 2 - 25%
                                                                                              Region 3 - 25%
                                                                                              Region 4 - 0%
                                                                                              Region 5 - 0%
                                                                                              Region 6 - 0%
                                                                                              Regions 7/8/9 - 12%
                                                                                              Region 10 - 38%
                                                                                              Region 11 - 0%*




       * This does not include disaster relief audits. See chapter 6 for these reviews.




     Chapter 3 - Multifamily Housing Programs
                                                                                                                     49
Review of HUD’s Monitoring of Performance-Based Contract
Administrators
   HUD OIG audited HUD’s annual contributions contracts for performance-based Section 8 contract
administration to determine whether the contracts were cost effective.

   HUD did not always ensure accountability for results and include appropriate, cost-effective controls
over its contracts. Consequently, it did not obtain the best value for the $291 million spent in 2008 on contract
administration services. In particular, HUD spent $107 million of this amount on incentive fees. While OIG
could not quantify how much of this amount was excessive, HUD continued to pay incentives for tasks that
were included in the contract administrators’ basic fees. In addition, at least $7.6 million may be wasted
each year because HUD continues to extend contracts beyond the original contract term of 5 years.

    OIG recommended that HUD perform a detailed analysis to determine the most cost-effective method
of performing the contract administration tasks. After selecting the best method, HUD should ensure
accountability for results and include appropriate, cost-effective controls in its contracts. (Audit Report:
2010-LA-0001)

Owner and Management Agent Operations
     HUD OIG audited Kier Property Management and Real Estate, LLC, in Denver, CO, to determine
whether Kier properly accounted for property and management agent costs and properly accomplished
its occupancy functions.

    Kier recorded more than $2 million in notes payable in the properties’ books for notes that did not
properly restrict repayment of the principal to surplus cash. It also used property funds for nearly $65,000
in ineligible setup fees and did not always correctly compute subsidies or determine tenant eligibility.

    OIG recommended that HUD require Kier to work with the owner to ensure that the notes restrict
principal payments to surplus cash and repay nearly $65,000 in setup fees from non-Federal funds. OIG also
recommended that HUD require Kier to (1) work with HUD to recover identified overpayments of Section
8 housing assistance subsidies, (2) correct the rent miscalculations identified, and (3) develop procedures
to consistently communicate changes to the policies and procedures to ensure accurate and consistent rent
calculations and related occupancy procedures. (Audit Report: 2010-DE-1001)

                                                    ppp

   HUD OIG audited the trust fund account of the Lutheran Gardens Corporation in Compton, CA, to
determine whether the Corporation withdrew and expended trust funds in accordance with its agreement
with HUD.

   The Corporation expended the trust funds according to the eligible uses described in the agreement.
However, it did not comply with the agreement when depositing and withdrawing trust funds. With more
than $918,000 in trust funds still subject to the agreement as of June 17, 2009, HUD and the Corporation
were at risk of not complying with the regulatory requirements to ensure that the trust funds were used to
promote the expansion of the supply of low- and moderate-income housing.

  OIG recommended that HUD ensure that the Corporation (1) establishes the required trust account with
HUD named as the trustee and provides signature cards for a HUD representative to sign; (2) deposits the




                                                                          Chapter 3 - Multifamily Housing Programs
50
       balance of the trust funds subject to the agreement held in a Wells Fargo Bank account, along with more than
       $87,000 in replacement reserves due the trust; and (3) submits trust fund authorization forms to HUD for
       signature and approval before withdrawing trust funds from the trust account. (Audit Report: 2010-LA-1802)

                                                         ppp

           HUD OIG audited HUD’s regulatory agreement with the Yorkville Cooperative in Yorkville, VA, to
       determine whether HUD entered into the appropriate regulatory agreement with the Cooperative for its
       Section 221(d)(3) program.

           HUD and the Cooperative did not enter into an appropriate regulatory agreement for participants
       of the Section 221(d)(3) program. The regulatory agreement executed in 1979 was intended for entities
       participating in the multifamily insurance program, but it did not include specific regulatory requirements
       needed for entities participating in the program as cooperatives. The agreement failed to include necessary
       requirements pertaining to the general operating reserve account.

           OIG recommended that HUD enter into an amended regulatory agreement with the Cooperative that
       includes a rider pertaining to the general operating reserve to ensure that the nearly $990,000 in reserve
       funds will only be used for eligible expenses. (Audit Report: 2010-PH-0801)

                                                         ppp

          HUD OIG audited the Yorkville Cooperative in Fairfax, VA, to determine whether the Cooperative
       administered its Section 221(d)(3) property and housing assistance contract according to its regulatory
       agreement and HUD requirements.

           The Cooperative did not administer its Section 221(d)(3) property and housing assistance contract in
       accordance with its regulatory agreement and HUD requirements. Specifically, it used operating funds
       to pay for ineligible expenses (legal fees and resident promotions) and made erroneous calculations and
       unsupported housing assistance payments on behalf of its board members. It also billed HUD for housing
       assistance payments it may not have been eligible to receive.

          OIG recommended that HUD require the Cooperative to (1) reimburse its operating account from non-
       Federal funds nearly $244,000 for ineligible expenses; (2) develop and implement adequate procedures and
       controls to ensure that disbursements made from its operating account are for expenses that are reasonable,
       necessary, and in accordance with program requirements; (3) reimburse HUD from non-Federal funds
       more than $14,000 for the overpayment of housing assistance and provide support or reimburse HUD
       nearly $67,000 from non-Federal funds for unsupported housing assistance payments; and (4) develop and
       implement procedures to ensure that housing assistance payments are correctly calculated and supported
       with the required documentation. (Audit Report: 2010-PH-1003)

                                                         ppp

           HUD OIG audited the SFDS Development Corporation in New York, NY, management agent for HUD-
       subsidized Section 202 elderly housing direct loan properties, to assess the merits of a hotline complaint
       and the agent’s compliance with HUD financial, procurement, and administrative regulations applicable
       to the Section 202 elderly housing program.

          The agent did not comply with HUD regulations. Specifically, the agent (1) charged ineligible and
       unsupported expenses to the projects, (2) failed to make required deposits to or seek HUD approval for
       withdrawals from the replacement for reserve account, (3) did not always conduct unit inspections or procure



     Chapter 3 - Multifamily Housing Programs
                                                                                                                   51
services in a prudent manner, and (4) failed to file financial statements in a timely manner. As a result, the
projects were deprived of more than $177,000, and HUD lacked assurance that nearly $499,000 was disbursed
for eligible expenses, units were properly maintained, and services were obtained at the most economical
price. In addition, HUD was not made aware of the financial condition of the projects in a timely manner.

   OIG recommended that HUD instruct the owner/agent to (1) repay ineligible costs charged to the
projects; (2) provide documentation for unsupported costs and if support cannot be provided, repay the
amount with non-Federal funds; and (3) strengthen controls over financial, procurement, and administrative
functions. (Audit Report: 2010-NY-1006)

                                                   ppp

    HUD OIG audited the San Diego Square project in San Diego, CA, in response to a hotline complaint
regarding a sublease transaction with San Diego Kind Corporation. The objective was to determine whether
the complaint was valid.

    The sublease transaction occurred more than 20 years ago, and many of the project records could not
be located or were no longer available. Therefore, OIG could not make a final determination as to whether
the hotline complaint was valid. As a result, it is incumbent upon HUD to resolve this matter by making a
final determination on whether the subleased area was built and insured under the Section 202 loan.

    OIG recommended that HUD make a final determination and provide official written notification to the
San Diego Kind Corporation as to whether the subleased area of the San Diego Square project is considered
part of the Section 202-insured project and rental revenue it received in the past and will receive in the
future for use of space in the project must be recognized as project income. (Audit Report: 2010-LA-0801)

                                                   ppp

    HUD OIG audited the management agent operations of the South Bronx Community Management
Co., Inc., in Bronx, NY, regarding the administration of a HUD Section 202 direct loan for the elderly and
handicapped housing project Maria Isabel to determine whether the agent complied with HUD requirements.

    The agent generally complied with HUD financial and unit maintenance requirements in its administration
of the project. However, various issues were identified, which warrant HUD’s attention to provide greater
assurance that the project is managed in the most economical and efficient manner. Specifically, (1) tenant
accounts receivable and vendor accounts payable were not properly reported, (2) prudent procurement
practices were not always followed, (3) advances were made by and partially repaid to the agent without
HUD approval, and (4) action to mitigate cash-flow problems was not addressed in a timely manner but
has since been taken. As a result, HUD was not made aware of the financial condition of the project, and
the project experienced serious cash-flow problems.

    OIG recommended that HUD instruct the agent and property owners to (1) determine the collectability
of delinquent tenant accounts receivable and request HUD approval to write off those accounts determined
to be uncollectible, (2) strengthen procedures to ensure accurate reporting of accounts payable, (3) establish
procedures to request approval for receiving and paying agent advances, (4) strengthen procedures to
provide greater compliance with HUD’s and its own procurement procedures, and (5) strengthen controls
to ensure that late fees are minimized and actions to mitigate cash-flow problems are addressed in a timely
manner. (Audit Report: 2010-NY-1003)

                                                   ppp




                                                                        Chapter 3 - Multifamily Housing Programs
52
       Investigations
           Some investigations discussed in this report were generated from leads provided by HUD multifamily
       housing program staff and conducted jointly with Federal, State, and local law enforcement agencies. The
       results of various significant investigations are described below.


                   Strategic Initiative 2: Contribute to the reduction of erroneous
                                     payments in rental assistance
            Key program               Cases                 $           Convictions/pleas/     Admin/civil
              results                 closed            recovered            pretrials           actions

           Investigations               105             $2,090,908               36                    35
                 Our                 Page 53        •	 Theft/embezzlement
                focus                Page 54        •	 Rental assistance fraud
                                     Page 57        •	 Other fraud/crimes




          Chart 3.2: Percentage of OIG multifamily housing closed investigation cases
                                during this reporting period



                                                                                      Region 1 - 12%
                                                                                      Region 2 - 8%
                                                                                      Region 3 - 12%
                                                                                      Region 13 - 18%
                                                                                      Region 4 - 7%
                                                                                      Region 14 - 4%
                                                                                      Region 5 - 4%
                                                                                      Region 15 - 2%
                                                                                      Region 6 - 3%
                                                                                      Regions 7/8 - 22%
                                                                                      Region 9 - 1%
                                                                                      Region 10 - 6%
                                                                                      Region 11 - 1%




     Chapter 3 - Multifamily Housing Programs
                                                                                                                 53
Theft/Embezzlement
    Brenda Phillips, the former manager for Quail Ridge Apartments, a HUD-subsidized multifamily
housing development, pled guilty in U.S. District Court, Wichita, KS, to making a false statement. Phillips
provided false tenant information on HUD certifications and fraudulently obtained $160,234 in housing
assistance payments.

                                                  ppp

    Meredith Sullivan, a former manager for Sycamore Grove Apartments, a HUD-subsidized multifamily
housing development, pled guilty in U.S. District Court, Kansas City, MO, to making false statements.
Sullivan provided false tenant information on HUD certifications and provided housing applicants with
preferential placement on the housing waiting list in exchange for actual or anticipated sexual relations.
HUD losses are estimated at $138,611.

                                                  ppp

    Khristi Anderson, the former executive director for Pin Oak Acres Apartments, a HUD-subsidized
multifamily housing development, pled guilty in U.S. District Court, Kansas City, KS, to making false
statements. From October 2003 to September 2006, Anderson embezzled about $114,312 in security deposits
and tenant rents. Anderson was also suspended from procurement and nonprocurement transactions with
HUD and throughout the Executive Branch of the Federal Government.

                                                  ppp

    Nina Donehue, a former board member for the Northridge Cooperative Homes (Northridge), a HUD-
subsidized multifamily housing development, was sentenced in U.S. District Court, San Francisco, CA, to
1 year home confinement and 5 years probation and ordered to pay Northridge $34,983 in restitution and
vacate her subsidized housing unit for her earlier conviction of committing embezzlement from a program
receiving Federal funds. From January to February 2006, Donehue embezzled and personally used $34,983
in Northridge funds.

                                                  ppp

    Susan Green, the former assistant manager for Lexington Green and Clayton Court Apartments,
HUD-subsidized multifamily housing developments, pled guilty in U.S. District Court, Wilmington, DE,
to committing embezzlement. From July 2007 to September 2009, Green embezzled and personally used
$14,343 in tenant rents and other housing funds.

                                                  ppp

    Becky Dziubak, a former property manager for Prairie Meadows Apartments (Prairie Meadows), a HUD-
subsidized multifamily housing development, was sentenced in Hennepin County Court, Minneapolis, MN,
to 20 days incarceration and 36 months probation and ordered to pay Prairie Meadows $6,276 in restitution
for her earlier guilty plea to committing theft. From July 2004 to January 2007, Dziubak embezzled and
personally used $6,200 in tenant rents.

                                                    ppp




                                                                      Chapter 3 - Multifamily Housing Programs
54
           Betty Jefferson, the former president of the St. Stephen Manor, Inc. (St.
       Stephen), a HUD-subsidized multifamily housing development, and former St.
       Stephen manager Angela Coleman each pled guilty in U.S. District Court, New
       Orleans, LA, to committing a conspiracy to commit mail fraud, aggravated
       identity theft, money laundering, and Federal income tax evasion. From 1999 to
       2006, Jefferson, Coleman, and others embezzled and personally used $931,224 in
       Federal and State funds, including $9,230 in HUD housing assistance payments.

                                            ppp

           Wynee Joyner, the vice president of National Housing Group, Inc., a HUD
       contractor that oversaw the management and maintenance of HUD-owned
       multifamily housing developments, was sentenced in U.S. District Court,
       Manhattan, NY, to 2 months home detention and 24 months supervised release
       and ordered to pay an amount of restitution not yet determined for her earlier
       guilty plea to committing a conspiracy to commit mail fraud. Joyner falsified
       vendor payments and submitted false claims to HUD in an effort to circumvent
       contract terms and obtain HUD reimbursements before paying third-party
       vendors.

                                            ppp

           Nina Parker-Davis, an occupancy specialist for Pilgrim Baptist Village, a
       HUD-subsidized multifamily housing development, was sentenced in U.S.
       District Court, Newark, NJ, to 24 months probation for her earlier guilty plea
       to accepting bribes. From June to November 2003, Parker-Davis accepted cash
       payments from prospective tenants in exchange for immediate placement into
       subsidized housing units. HUD losses have not yet been determined.

       Rental Assistance Fraud
           Five current or former Section 8 tenants at AK Houses, Jamie’s Place III,
       Hamilton Heights, or Harlem Gateway Houses, HUD-subsidized multifamily
       housing developments, were each arrested, charged, or indicted in U.S. District
       or Manhattan Criminal Courts, Manhattan, NY, for allegedly committing
       theft of government funds, grand larceny, or filing false business records. In     (2010) The Times-Picayune
       addition, housing recipients Kelly Roberson and Nanette Rivers each pled guilty      Publishing Co. All rights
       to making false statements to HUD or committing theft of government funds,                reserved. Used with
                                                                                                    permission of the
       and housing recipients Rafael and Carmen Goris remitted $31,313 to HUD and                   Times-Picayune.
       were collectively sentenced to 36 months supervised release, ordered to perform
       350 hours of community service, and fined $30,000 for their earlier guilty pleas
       to committing theft of government funds. Roberson, Rivers, and Rafael and
       Carmen Goris admittedly and the remaining defendants allegedly failed to report
       income, assets, or accurate household composition on housing certifications and
       collectively obtained more than $258,388 in housing assistance they were not
       entitled to receive.

                                                         ppp




     Chapter 3 - Multifamily Housing Programs
                                                                                                                  55
    Lisa Ramos, Gilberto Torres, and Francina N’Diaye, Section 8 tenants at Maria Estella Apartments (Maria
Estella) or Academy Gardens, HUD-subsidized multifamily housing developments, were each arrested
and charged in U.S. District Court, Bronx, NY, with allegedly making false statements or committing
embezzlement or theft of government funds. In addition, former Maria Estella Section 8 tenant Didna
Telemaco was sentenced to 2 years supervised probation and ordered to pay HUD $26,274 in restitution
for her earlier guilty plea to making false statements to HUD. Ramos, Torres, and N’Diaye allegedly and
Telemaco admittedly failed to report income on housing certifications and collectively obtained $141,774
in housing assistance they were not entitled to receive.

                                                   ppp

    Bamidele Awopetu, Natasha Edmonds, Benedict Snyder, and Eric Melton, Section 8 tenants at Park
Hill or Concord Apartments, HUD-subsidized multifamily housing developments, were each arrested and
charged in U.S. District or Staten Island Criminal Courts, Staten Island, NY, with allegedly making false
statements, committing embezzlement of public money or grand larceny, or falsifying business records.
The above defendants allegedly failed to report income on housing certifications and collectively obtained
$138,744 in housing assistance they were not entitled to receive.

                                                   ppp

    Bethel Wooten, a former Section 8 tenant at Academy Square Apartments, a HUD-subsidized multifamily
housing development, was indicted in Cook County Circuit Court, Chicago, IL, for allegedly committing
forgery and theft by deception. From 2000 to November 2009, Wooten allegedly failed to report income on
housing certifications and obtained more than $100,000 in housing assistance she was not entitled to receive.

                                                   ppp

    Sylvester Okonoboh, a former Section 8 tenant at Norway Housing, a HUD-subsidized multifamily
housing development, was arrested after his indictment in U.S. District Court, Boston, MA, for allegedly
committing theft of public funds. In addition, Mandela Homes Section 8 tenant Rotimi Abu was sentenced
to 2 years probation and ordered to perform 100 hours of community service and pay HUD $7,369 in restitu-
tion for his earlier guilty plea to making false statements and committing theft of public money. Between
January 2001 and April 2009, Okonoboh allegedly and Abu admittedly failed to report income or assets on
housing certifications and together obtained $87,223 in housing assistance they were not entitled to receive.

                                                   ppp

    Sharon Gist and Adriane Drye, Section 8 tenants at Fulton Park, a HUD-subsidized multifamily hous-
ing development, were each arrested and charged in Kings County Court, Brooklyn, NY, with allegedly
committing grand larceny, offering a false instrument for filing, and possession of a forged instrument. In
addition, former Marcus Garvey Village Section 8 tenant Nicole Baker, also known as Nicole Stanley, was
sentenced in U.S. District Court to 1 year supervised probation and ordered to pay HUD $45,202 in resti-
tution for her earlier guilty plea to making false statements to HUD. Gist and Drye allegedly and Baker
admittedly failed to report income on housing certifications and collectively obtained $78,124 in housing
assistance they were not entitled to receive.

                                                   ppp




                                                                       Chapter 3 - Multifamily Housing Programs
56
           Tanya and Sonia Johnson and Crystal Bailey, former Section 8 tenants at Central Gardens I Apartments
       (Central Gardens), a HUD-subsidized multifamily housing development, were each charged in Prince
       Georges County District Court, Upper Marlboro, MD, with allegedly committing theft and housing
       assistance fraud. In addition, former Central Gardens Section 8 tenant Donna Landers-Coleman pled guilty
       to committing theft. Tanya and Sonia Johnson and Bailey allegedly and Landers-Coleman admittedly failed
       to report income, accurate household composition, or an unauthorized resident and his criminal history on
       housing certifications and collectively obtained $75,264 in housing assistance they were not entitled to receive.

                                                           ppp

          Joseph Nader, a former Cuyahoga Metropolitan Housing Authority landlord and Section 8 tenant at
       Lakeshore Towers, a HUD-subsidized multifamily housing development, was charged in Cuyahoga County
       Court of Common Pleas, Cleveland, OH, with allegedly committing theft and tampering with records. From
       October 1999 to September 2009, Nader allegedly failed to report income or assets on housing certifications
       and obtained $68,353 in housing assistance he was not entitled to receive.

                                                           ppp

           Benita Holmes and Felicia Jenkins, a property manager and former Section 8 tenant at Rowan Towers,
       a HUD-subsidized multifamily housing development, and registered sex offender Darryl Andrews were
       each charged in Trenton Municipal Court, Trenton, NJ, with allegedly committing theft by deception and
       liability for the conduct of another. From April 2002 to August 2008, Jenkins allegedly failed to report her
       incarceration or the unauthorized residency of Andrews in her subsidized unit, and Holmes allegedly allowed
       Andrews to reside in Jenkins’ subsidized unit during her incarceration. HUD losses are estimated at $60,562.

                                                           ppp

           Catalina Ortiz and Lisa Hayes, former Section 8 tenants at Windham Heights or Park West Apartments,
       HUD-subsidized multifamily housing developments, were each arrested and charged in U.S. District or
       Rockville Superior Courts, Willimantic or Rockville, CT, with allegedly making false statements and
       committing theft of government funds, larceny, or forgery. Between September 2003 and August 2009, Ortiz
       and Hayes allegedly failed to report income on housing certifications and together obtained about $60,500
       in housing assistance they were not entitled to receive.

                                                           ppp

           Five former housing recipients at Woodlake Apartments, a HUD-subsidized multifamily housing
       development, were each charged in Woodbury Municipal Court, Woodbury, NJ, with allegedly making false
       statements or committing theft by deception. The above defendants allegedly failed to report income or
       the subleasing of their subsidized housing units on housing certifications and collectively obtained $59,208
       in housing assistance they were not entitled to receive.

       Other Fraud/Crimes
           Robert Corp, a former loan officer, originator, and underwriter and vice president of Continental
       Securities, LLC, entered into a civil settlement filed in U.S. District Court, Buffalo, NY, and agreed to pay
       the U.S. Government $693,547. Corp allegedly made a number of misrepresentations on loan documents
       he submitted to HUD when he originated and underwrote a $7 million HUD-insured mortgage for Brylin
       Hospital. Brylin Hospital defaulted on the HUD-insured mortgage, and HUD paid an adjusted claim of
       more than $6.1 million to the lender.

                                                           ppp

     Chapter 3 - Multifamily Housing Programs
                                                                                                                     57
   Sandra Sattler, a supervisor for Carabetta Management Company, a management agent for Parkside and
Oakland Gardens Apartments, HUD-subsidized multifamily housing developments, was sentenced in U.S.
District Court, New Haven, CT, to 6 months probation, ordered to perform 15 hours of community service,
and fined $2,500 for her earlier guilty plea to failing to provide lead-based paint disclosures. In 2003, Sattler
and others forged tenant signatures and provided fraudulent lead-based paint disclosure forms to HUD.

                                                    ppp




                                                                          Chapter 3 - Multifamily Housing Programs
58
       Inspections & Evaluations
       Inspection of the Assignment and Assumption of Mark-to-Market
       Loans, Lakeshore Village Apartments, Cleveland, OH

           HUD OIG completed an inspection of post-Mark-to-Market restructuring of mortgage debt for
       Lakeshore Village Apartments to determine the validity of an informal complaint received from HUD’s
       Multifamily Office of Asset Management (OAM). OAM staff was concerned that, in approving the
       assignment and assumption of the restructured debt instruments, HUD’s Office of Affordable Housing
       Preservation (OAHP) did not sufficiently verify information provided from purchasers and sellers and (1)
       allowed the nonprofit purchaser to retain approximately $400,000 that should have been remitted to HUD,
       (2) failed to provide timely information to OAM during the decision-making process, and (3) ignored
       questions raised by OAM staff about the amount of proceeds due to HUD at loan closing.

           The inspection did not substantiate any of the allegations in the informal complaint, but better
       communication between the two offices is needed to adequately resolve questions that arise during the
       loan approval process. Other matters were noted that warrant attention by the Office of Housing involving
       (1) certified source and use of funds statements, (2) voting rights on the Assumption/Subordination Loan
       Committee, and (3) safe harboring certifications.

           OIG recommended that the Office of Housing ensure that (1) OAM and OAHP continue their preloan
       committee meetings and provide a comprehensive record of the concerns raised and the decisions arrived
       at during the assignment and assumption approval process, (2) the assignment and assumption approval
       process not be completed until a certified source and use of funds statement is received by OAHP, (3)
       existing HUD guidelines are amended as soon as possible to clarify OAHP’s and OAM’s responsibilities
       during the assignment and assumption approval process, and (4) nonprofit purchasers who intend to
       qualify for safe harboring status include a certification of their independence from any for-profit entity by
       declaring, “the information contained in these documents is true and correct under the penalty of perjury.”
       (I&E Report: IED-09-005)

                                                          ppp




     Chapter 3 - Multifamily Housing Programs
    Chapter 4
Community Planning
 and Development
    Programs
60
           The Office of Community Planning and Development (CPD) seeks to develop viable communities by
       promoting integrated approaches that provide decent housing, suitable living environments, and expanded
       economic opportunities for low- and moderate-income persons. The primary means toward this end is
       the development of partnerships among all levels of government and the private sector. In addition to the
       audits and investigations described in this chapter, the U.S. Department of Housing and Urban Development,
       Office of Inspector General (HUD OIG), has conducted numerous outreach efforts (see chapter 8, page 119).



       Audit
               Strategic Initiative 3: Contribute to the strengthening of communities
        Key program results                                    Questioned costs                  Funds put to better use
               Audit                 35 audits*                   $20.1 million                         $9.7 million
                Our                   Page 61            •	 Community Development Block Grant programs
               focus                  Page 62            •	 HOME Investment Partnerships Program
                                      Page 64            •	 Neighborhood Stabilization Program

       *The total CPD audits, questioned costs, and funds put to better use amounts include any American Recovery and
       Reinvestment Act of 2009 (20 audits) and disaster recovery (5 audits) type audits conducted in the CPD area. The
       writeups for these audits are shown separately in chapters 5 and 6 of this semiannual report.




                 Chart 4.1: Percentage of OIG community planning and development
                              audit reports during this reporting period



                                                                                                     Region 1 - 17%
                                                                                                     Region 2 - 11%
                                                                                                     Region 3 - 6%
                                                                                                     Region 4 - 11%
                                                                                                     Region 5 - 17%
                                                                                                     Region 6 - 9%
                                                                                                     Regions 7/8/9 - 6%
                                                                                                     Region 10 - 17%
                                                                                                     Region 11 - 6%




     Chapter 4 - Community Planning and Development Programs
                                                                                                                 61
   The Office of Inspector General (OIG) audited the Community Development Block Grant (CDBG)
program, the HOME Investment Partnerships Program (HOME), and the Neighborhood Stabilization
Program (NSP). While OIG’s objectives varied by auditee, the majority of the reviews were to determine
whether the grant funds were administered for eligible activities and that the auditee met program objectives.
The following section illustrates the audits conducted in the CPD area.

Community Development Block Grant Programs
    HUD OIG audited a CDBG program administered by the City of Paterson, NJ, and found that the City
did not always disburse CDBG funds efficiently and effectively in accordance with its submission to HUD
and with applicable rules and regulations. Specifically, procurement requirements were not followed, and
funds were disbursed for unsupported and ineligible activities and planning and administration expenses.
In addition, the City’s financial management system did not have adequate controls to properly safeguard
funds and report program income.

    OIG recommended that HUD instruct the City to (1) provide documentation to support more than
$3.7 million in costs related to the procurement of demolition, housing rehabilitation, public facility, and
planning and administrative activities; (2) repay more than $641,000 in ineligible disbursements; and (3)
develop adequate procurement, management, and financial controls and procedures to ensure that planned
demolition, housing rehabilitation, and public facility activities comply with regulations and that program
income, demolition liens, and interest income are properly recorded to ensure that more than $2 million in
budgeted funds is put to better use. (Audit Report: 2010-NY-1005)

                                                   ppp

    HUD OIG audited the City of Altoona, PA’s CDBG program and found that the City paid a subrecipient
for CDBG activities that it could not demonstrate were eligible. It could not demonstrate that it paid a
subrecipient for eligible activities that met a national objective under its Blighted Property Maintenance
Program.

    OIG recommended that HUD require the City to provide documentation to demonstrate that more
than $914,000 was used for eligible activities that met a national objective or repay HUD from non-Federal
funds and establish and implement written policies and procedures requiring it to maintain records that (1)
provide a full description of each activity undertaken; (2) demonstrate that each activity undertaken meets a
national objective of the CDBG program; (3) determine the eligibility of the activities; and (4) document the
acquisition, improvement, use, or disposition of real property acquired or improved with CDBG assistance.
Further, the City should evaluate its subrecipients in terms of compliance risk, performance, and funding
levels at least annually. (Audit Report: 2010-PH-1001)

                                                   ppp

    HUD OIG audited the City of East St. Louis, IL’s CDBG program and found that the City did not
properly allocate salary and building expenses to the CDBG program. It also did not properly document the
cost estimate and selection process used to procure a contract for developing its 5-year consolidated plan.

     OIG recommended that HUD require the City to (1) provide supporting documentation or reimburse
its CDBG program from non-Federal funds for more than $1 million paid for salary expenses, building rent,
and the administration contract and (2) implement acceptable policies and procedures and provide technical
assistance to ensure future compliance. (Audit Report: 2010-KC-1003)

                                                   ppp


                                                      Chapter 4 - Community Planning and Development Programs
62
           HUD OIG audited the City of Los Angeles, CA’s Community Development Department and found
       that the City initially failed to demonstrate that any of the five CDBG-assisted projects reviewed, totaling
       more than $4.8 million, administered by its subrecipient complied with the national objectives. The City
       later located and provided additional records to adequately support that the national objectives were met
       for four of these projects. Therefore, only one of the five projects, totaling $935,000, remained inadequately
       supported. In addition, the City did not always effectively monitor CDBG-assisted projects administered
       by its subrecipient.

           OIG recommended that HUD require the City to (1) provide supporting documentation showing that
       the Capitol Records Surface Parking CDBG project met a national objective or repay its program from non-
       Federal funds, (2) implement adequate monitoring controls over its subrecipient and CDBG-assisted projects,
       and (3) suspend all CDBG funding to the subrecipient until acceptable policies and procedures are in place
       to ensure compliance with CDBG program requirements. (Audit Report: 2010-LA-1003)

                                                          ppp

           HUD OIG audited the City of Saginaw, MI’s CDBG-funded demolition activities and found that the City
       did not effectively administer its CDBG-funded demolition activities. It (1) lacked sufficient information
       to support nearly $138,000 in CDBG funds used for costs, (2) did not request reimbursement from property
       owners and/or place liens on properties for more than $80,000 in CDBG funds used, and (3) did not provide
       sufficient documentation to support that it was not required to request reimbursement from property owners
       and/or place liens on properties for nearly $51,000 in CDBG funds used.

           OIG recommended that HUD require the City to (1) provide sufficient supporting documentation or
       reimburse its CDBG program from non-Federal funds for the nearly $138,000 in funds used for unsupported
       expenses, (2) reimburse its CDBG program more than $80,000 from non-Federal funds for the activities
       for which the City did not request the property owners to reimburse it or place liens on the properties, (3)
       provide sufficient supporting documentation or reimburse its CDBG program from non-Federal funds for
       the nearly $51,000 used for which the City did not provide sufficient documentation to support that it was
       not required to request reimbursement from property owners and/or place liens on properties, and (4)
       implement adequate procedures and controls to address the finding cited. (Audit Report: 2010-CH-1002)

       HOME Investment Partnerships Program
           HUD OIG audited the HOME- and CDBG-funded housing programs administered by the City of
       Holyoke, MA, and found that the City did not always award its HOME Development program contracts in
       accordance with Federal requirements. Specifically, it did not obtain or prepare adequate cost estimates or
       conduct required cost analyses before it awarded $2.6 million in funds for three noncompetitive construction
       contracts. Expenditures claimed by the developer for the construction of duplex units were an average of
       14 percent higher than the construction cost estimates, totaling $288,000 for seven duplexes. Additionally,
       all HUD assistance was not properly considered during the City’s evaluations of project total development
       costs for duplexes developed as part of the HOME Development program. Lastly, the HOME investments
       subject to recapture were incorrectly calculated so that more than $344,000 would not be recaptured if the
       homeowners did not reside in the HUD-funded duplexes for the entire 15-year affordability period.

           Of the loans processed under the Rental Neighborhood Improvement program, 67 percent went to
       properties that were owned by either the subrecipient or a second, related nonprofit. The subrecipient also
       did not treat related and nonrelated loans consistently regarding use of contracts, enforcement of timetables
       for completion, accrual of interest on advances, or project record keeping. In addition, (1) related-party
       rehabilitation was not completed in a timely manner, (2) appropriate reviews and approvals of the projects




     Chapter 4 - Community Planning and Development Programs
                                                                                                                63
were not made for all loans before the funds were committed, (3) the subrecipient did not secure all program
investments to related-party loans, and (4) not all project records were maintained in accordance with
record-keeping requirements. Further, the City allowed the subrecipient to use program funds totaling
more than $332,000 in the form of “grants,” which were used for demolition activities that did not meet the
Rental Neighborhood Improvement program’s objectives and were not carried out in compliance with the
CDBG program.

    OIG recommended that HUD require the City to (1) establish appropriate internal controls over the HOME
procurement process, including the segregation of duties, so that the process is not entirely controlled by
one person and (2) repay $288,000 in unreasonable construction costs paid under the HOME Development
program. Additionally, OIG recommended that HUD and the City conduct an independent cost analysis
for the 2008 procurements to ensure that HOME and CDBG program expenditures of more than $1 million
were reasonable and supported. For the unreasonable amounts, the City should reimburse the program(s)
from non-Federal funds.

    OIG also recommended that HUD review the revised subrecipient contract for the Rental Neighborhood
Improvement program to ensure that it contains appropriate controls, particularly when related parties
are involved. These increased controls will ensure that HUD funds used for future related-party activities
will be properly spent with appropriate performance measures in place, resulting in more than $1.7 million
in funds put to better use for activities properly approved and overseen by independent parties. (Audit
Report: 2010-BO-1002)

                                                   ppp

    HUD OIG audited the City of Los Angeles, CA’s Housing Department and found that the City improperly
allocated HOME funds for the NoHo Commons housing development without adequate controls in place to
ensure compliance with HOME program requirements. Specifically, the City’s subrecipient did not ensure
that the development’s management agent (1) implemented a waiting list as established by its lottery and
subsequent applications, (2) correctly determined tenants’ income to establish eligibility, (3) maintained
adequate documentation supporting the use of HOME funds, and (4) implemented adequate monitoring
policies and procedures for the development.

    OIG recommended that HUD require the City to (1) suspend all HOME funding to the subrecipient until
acceptable monitoring policies and procedures have been implemented to ensure compliance with all HOME
program requirements, (2) reconstruct and establish a complete waiting list, and (3) determine which eligible
applicants were improperly bypassed and ensure that they are given first priority for housing as vacancies
arise. OIG also recommended that both the City and the subrecipient establish and implement effective
policies and procedures to ensure compliance with HOME regulations. (Audit Report: 2010-LA-1001)

                                                   ppp

    HUD OIG audited the District of Columbia’s administration of HOME funds that it provided to CEMI-
Parkside Associates, LLP, a limited partnership managed by developer H.R. Crawford, for the rehabilitation/
construction of a high rise property known as Parkside Terrace Apartments. OIG found that the grantee
properly accounted for ineligible HOME funds it provided for the rehabilitation/construction of Parkside
Terrace. However, it needs to formalize its procedures for monitoring HOME-funded project activities to
ensure that HOME funds are used in accordance with all program requirements.

   OIG recommended that HUD require the grantee to formalize and implement adequate procedures to
ensure that its HOME funds are used in accordance with program requirements. (Audit Report: 2010-PH-
1802)



                                                     Chapter 4 - Community Planning and Development Programs
64
       Neighborhood Stabilization Program
           HUD OIG audited the State of Indiana’s NSP to determine whether the State awarded program funds
       to eligible projects. The State’s administrator awarded NSP funds for an inappropriate project.

           OIG recommended that HUD require the State to implement (1) its action plan by amending its grant
       agreement with the City of Mishawaka to remove $4.5 million in NSP funds for the redevelopment of the
       Mishawaka Furniture building and award the funds for an eligible project(s) and (2) adequate procedures
       and controls to ensure that it awards NSP funds for eligible projects and that its recipients use NSP funds
       for the redevelopment of commercial buildings in accordance with HUD’s requirements. (Audit Report:
       2010-CH-1803)

                                                         ppp

           HUD OIG conducted a capacity review of the City of Meriden, CT’s operations to determine whether
       the City had the necessary capacity to effectively administer the State of Connecticut’s NSP funds provided
       through the Housing and Economic Recovery Act of 2008.

           Despite the City’s capacity to administer its NSP funds, it will not be able to meet its planned goal of
       completing the acquisition and rehabilitation of 15 single-family properties. However, the City still plans
       to spend all funding due to higher than forecast per-unit costs. Because the contract agreement between the
       City and the State’s Department of Economic and Community Development contains recapture provisions
       for not meeting all planned goals, OIG recommended that HUD require the City to obtain an approved
       amendment to its NSP local action plan from the Department to reduce the number properties acquired,
       rehabilitated, and resold to avoid the potential recapture of funds. (Audit Report: 2010-BO-1804)

                                                         ppp




     Chapter 4 - Community Planning and Development Programs
                                                                                                              65
Investigations
    Some investigations discussed in this report were generated from leads provided by HUD CPD program
staff or conducted jointly with Federal, State, and local law enforcement agencies. The results of various
significant investigations are described below.


                 Strategic Initiative 3: Contribute to the strengthening
                                      of communities
    Key program               Cases                   $            Convictions/pleas/     Admin/civil
      results                 closed              recovered             pretrials           actions

   Investigations               136              $12,629,681               40                     16
         Our                 Page 66         •	 Theft/embezzlement
        focus                Page 68         •	 Other fraud/crimes




        Chart 4.2: Percentage of OIG community planning and development
              closed investigation cases during this reporting period



                                                                                 Region 1 - 12%
                                                                                 Region 2 - 5%
                                                                                 Region 3 - 6%
                                                                                 Region 13 - 3%
                                                                                 Region 4 - 5%
                                                                                 Region 14 - 4%
                                                                                 Region 5 - 2%
                                                                                 Region 15 - 4%
                                                                                 Region 6 - 4%
                                                                                 Regions 7/8 - 4%
                                                                                 Region 9 - 1%
                                                                                 Region 10 - 5%
                                                                                 Region 11 - 45%




                                                    Chapter 4 - Community Planning and Development Programs
66
       Theft/Embezzlement
           Linda Bevins, the former payroll supervisor for the Crotched Mountain Foundation (Crotched Mountain),
       an organization that receives HUD CDBG and Supportive Housing program funds, was sentenced in U.S.
       District Court, Concord, NH, to 24 months incarceration and 36 months supervised probation and ordered
       to pay Crotched Mountain more than $1.6 million in restitution for her earlier guilty plea to committing theft
       from a program receiving Federal funds. From June 2004 to August 2007, Bevins diverted and personally
       used or provided to others more than $1.6 million in Crotched Mountain funds without authorization.

                                                          ppp

           Joseph Giacalone and Daniel Robin, doing business as OK Industries, an organization that received HUD
       CDBG funds, were collectively sentenced in the 7th Circuit Court, Flint, MI, to 60 months probation and
       ordered to pay the City of Flint more than $1.3 million in restitution for their earlier nolo contendere pleas
       to committing larceny by conversion greater than $20,000. Giacalone and Robin applied for and received
       about $870,000 in CDBG funds to relocate their manufacturing business to an economically deprived area
       and expand their operations, but they allegedly failed to comply with HUD stipulations and defaulted on
       their CDBG loan. HUD recovered the funds by offsetting future City of Flint CDBG funding.

                                                          ppp

           Raymond Vella, the owner of Pavel Construction, a contractor for the Linden Neighborhood Preservation
       Program (Linden Neighborhood), an organization that receives HUD CDBG and HOME program funds, was
       sentenced in U.S. District Court, Newark, NJ, to 39 months incarceration and 3 years probation and ordered
       to pay HUD $82,705 in restitution for his earlier guilty plea to committing mail fraud, obtaining property
       through fraud, and offering and giving a corrupt thing of value. From January 1998 to December 2006,
       Vella paid bribes to an unnamed conspirator in exchange for more than $652,448 in Linden Neighborhood
       contracts.

                                                          ppp

           Patti Buffington, the former executive director for Genesis House (Genesis), an organization that receives
       HUD Emergency Shelter grants and other Federal funds, was sentenced in Cook County Circuit Court,
       Chicago, IL, to 1 year incarceration and 1 year parole and ordered to pay the City of Chicago $100,000 in
       restitution for her earlier guilty plea to committing theft of government funds. From 2004 to 2006, Buffington
       and others embezzled and used more than $500,000 in Genesis funds to pay for personal expenses and
       previously assessed Federal income taxes.

                                                          ppp

           Samantha Cornelius, a case manager for the House of Ruth, a homeless and domestic violence shelter
       that receives HUD Supportive Housing program funds, pled guilty in U.S. District Court, New Orleans,
       LA, to committing a conspiracy and theft of government funds. From May 2007 to July 2008, Cornelius and
       others conspired and embezzled $109,702 in House of Ruth program funds.

                                                          ppp

           Thomas Manuel, a former commissioner for St. Johns County, a government entity that receives HUD
       CDBG, HOME, and other HUD funding, remitted $3,400 to the U.S. Department of Justice and was sentenced
       in U.S. District Court, Jacksonville, FL, to 21 months incarceration, 16 months home detention, and 36 months




     Chapter 4 - Community Planning and Development Programs
                                                                                                                67
probation for his earlier guilty plea to corruptly soliciting and accepting a bribe intended to influence a
government business transaction. Between July 2007 and July 2008, Manuel accepted $60,000 in bribes from
contractors in return for his influence or rewards involving St. Johns County contracts.

                                                   ppp

   Jeanetta Tinsley, the former grant monitoring and administration director for the City of San Antonio, a
municipality that receives HUD CDBG and other funding, was indicted in Bexar County District Court, San
Antonio, TX, for allegedly committing misapplication of fiduciary property of a financial institution. From
January to March 2009, Tinsley allegedly used $16,336 in HUD funds for the former director’s retirement
events.

                                                   ppp

    Kelly Girard, the former executive director for Community Action in Self Help, Inc. (Community Action), a
senior housing development that receives HUD HOME funds, and former Community Action office manager
and bookkeeper Carrie Girard and Kortni Calabrese were each indicted in Wayne County Court, Lyons,
NY, for allegedly committing grand larceny and a scheme to defraud. From September 2004 to December
2005, the above defendants allegedly conspired and stole more than $15,000 in Community Action funds.

                                                   ppp

    Rick Cherry, a housing manager for the Housing First Homeless Coalition, an organization that receives
HUD Supportive Housing funds, was sentenced in U.S. District Court, Mobile, AL, to 6 months home
confinement and 5 years probation and ordered to pay HUD $14,179 in restitution for his earlier guilty
plea to committing theft from an organization receiving Federal funds. From August 2006 to August 2008,
Cherry embezzled $14,179 in tenant rents.

                                                   ppp

    Shiryl Chambers, a former maintenance manager for the Cleveland Housing Network (Housing Network),
an organization that receives HUD HOPE VI funds, was sentenced in U.S. District Court, Cleveland, OH,
to 3 years probation, ordered to pay Housing Network $6,000 in restitution, and fined $1,000 for her earlier
guilty plea to making false statements. In 2004, Chambers awarded Housing Network rental rehabilitation
contracts to contractors who performed services at her residence free of charge.

                                                   ppp

    Anthony Saccomanno, the director for the Cherry Hill Department of Code Enforcement and Inspections
(Cherry Hill), an organization that receives HUD CDBG funds, was sentenced in U.S. District Court, Newark,
NJ, to 22 months incarceration and 36 months supervised release and fined $20,100 for his earlier guilty plea
to committing mail fraud. In November 2007, Saccomanno caused a letter to be mailed after he accepted
money from Building Inspections Underwriters, Inc., a Cherry Hill contractor. HUD losses have not yet
been determined.

                                                   ppp

    Leona Beldini, the former deputy mayor for Jersey City, a government entity that received more than
$6.7 million in HUD CDBG entitlement funds in 2007, was convicted in U.S. District Court, Newark,
NJ, of accepting something of value to influence and reward. Beldini accepted $20,000 in illicit political




                                                     Chapter 4 - Community Planning and Development Programs
68
       contributions from a government informant posing as a developer in exchange for his assistance, action, or
       influence relating to real estate approvals. HUD losses have not yet been determined.

                                                          ppp

           Dennis Stackhouse, a developer under contract with Tremont Capital Realty (Tremont) and the
       Miami-Dade Empowerment Trust (Empowerment Trust), an organization that receives HUD CDBG and
       Empowerment Zone funds, was arrested and charged in the 11th Judicial Circuit Court, Miami, FL, with
       allegedly committing grand theft and an organized scheme to defraud. From December 2005 to May 2007,
       Stackhouse allegedly submitted false invoices and fraudulently obtained $990,000 in Empowerment Trust
       and Tremont funds. HUD losses have not yet been determined.

       Other Fraud/Crimes
          Unity Care Group, Inc. (Unity Care), an organization that receives HUD Supportive Housing program
       funds, entered into a civil settlement filed in U.S. District Court, San Jose, CA, and agreed to repay HUD
       $679,919. From 2000 to 2006, Unity Care allegedly provided uncorroborated requests and certifications and
       obtained $679,919 in Supportive Housing program disbursements.

                                                          ppp

           A & F Commercial Builders (Commercial Builders) president James Fendt, Commercial Builders
       cofounder Eric Anderson, and Commercial Builders, a contractor that received HUD HOME funds, entered
       into a settlement agreement with the U.S. Attorney’s Office, Manhattan, NY, and agreed to refrain from
       procurement and nonprocurement transactions with HUD and throughout the Executive Branch of the
       Federal Government and the City of New York for 2 years. The above defendants also waived any claims,
       rights, or interest in $291,877 held in escrow by the New York City Department of Housing Preservation
       and Development (Department of Housing Preservation). Commercial Builders, while under a $6.4 million
       contract with the Department of Housing Preservation, allegedly failed to abide by the prevailing Davis-
       Bacon Act wage requirements.

                                                          ppp

           Robert Jacumin, also known as Roy or Kris King, a HUD Housing Opportunities for Persons with
       AIDS (HOPWA) program participant, pled guilty in U.S. District Court, Fort Lauderdale, FL, to making
       false statements and committing theft of government funds. Jacumin failed to report income or assets on
       housing and other certifications and obtained $59,300 in housing and $21,695 in Social Security benefits he
       was not entitled to receive.

                                                          ppp

           Michelle Reynolds, a HUD HOPWA program participant, was arrested and charged in the 15th Judicial
       Circuit Court, Wellington, FL, with allegedly committing public assistance fraud. From September 2007 to
       July 2009, Reynolds allegedly failed to report unauthorized residents or their criminal histories on housing
       certifications and obtained $20,707 in housing assistance she was not entitled to receive.

                                                          ppp

           Roger Corbin, a former legislator for Nassau County, a government entity that receives HUD HOME
       funds, pled guilty in U.S. District Court, Central Islip, NY, to making false statements, filing false Federal
       income tax returns, and committing Federal income tax evasion. From April 2006 to December 2008, Corbin



     Chapter 4 - Community Planning and Development Programs
                                                                                                                 69
received $229,000 from a developer involved with a HUD-funded housing renewal project but failed to
report these payments on his 2005, 2006, and 2007 Federal income tax returns and provided false statements
when questioned by Federal agents.

                                                   ppp

    Michael Cenzi, Ronald Caceci, and Herbert Babcock, employees for Sinisgalli, Inc., a demolition contractor
for the City of Rochester, a municipality that receives HUD CDBG funds, were each indicted or charged
in Monroe County District Court, Rochester, NY, with allegedly endangering public health and illegally
dumping hazardous waste. Cenzi, Caceci, and Babcock allegedly disposed of asbestos and other illegal
hazardous waste products in an unauthorized area.

                                                   ppp




                                                      Chapter 4 - Community Planning and Development Programs
     Chapter 5
 American Recovery
and Reinvestment Act
      of 2009
72
       Introduction and Background
          The U.S. Department of Housing and Urban Development (HUD) has received $13.61 billion in funding
       under the American Recovery and Reinvestment Act of 2009 (ARRA) in several housing program areas.
       Table 1 shows the HUD program areas receiving funding and the amounts appropriated to each program.



                           Table 1: HUD programs receiving ARRA funding
                     Program                                      Area                    Funding amount
        Office of Public and Indian         •	 Public Housing Capital Fund              $4,000,000,000
        Housing                             •	 Native American Housing Block             $510,000,000
        				                                   Grant                                   			
        	
        Office of Community                 •	 Community Development Block              $1,000,000,000
        Planning and Development               Grant                                   			
                                            •	 Neighborhood Stabilization Program       $2,000,000,000
                                            •	 HOME Investment Partnerships             $2,250,000,000
        					                                  Program-Tax Credit Assistance
        				                                   Program
                                            •	 Homelessness Prevention Fund                $1,500,000,000

        Office of Multifamily Housing       •	 Assisted Housing Stability Grant            $2,000,000,000
                                            •	 Green Retrofit Grant                         $250,000,000
        				
        Office of Healthy Homes and         •	 Lead Hazard Reduction                        $100,000,000
        Lead Hazard Control                    Demonstration Program

                                                                               Total      $ 13,610,000,000



          This funding will remain available until September 2013. The purpose of the funding is for “oversight
       and audit of programs, grants, and activities funded by this Act and administered by the Department of
       Housing and Urban Development.”

          Through its audit and investigative programs, HUD OIG will constantly tailor and adjust its short- and
       long-term activities for timely and effective oversight of the ARRA funds expended by HUD programs.
       Additionally, OIG received $15 million in ARRA funds. OIG’s plan will be adjusted as the HUD programs
       develop plans and distribute their ARRA funds. OIG will step up outreach and training efforts for the
       prevention of fraud, waste, and abuse to the Department and recipients of ARRA funds.

                                                          ppp




     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                         73
Audits
    The Office of Audit has initiated a three-phased approach to conducting related audit work. The actions
it has taken and plans to take will help position it to meet the increased workload under ARRA and protect
the Federal investment over the long term.

  The Office of Audit’s overall oversight objectives for HUD funding under ARRA are to determine
whether

    •	 Funds are awarded and distributed in a prompt, fair, and reasonable manner;
    •	 The recipients and uses of all funds are transparent to the public, and the public benefits of these
       funds are reported clearly, accurately, and in a timely manner;
    •	 Funds are used for authorized purposes, and instances of fraud, waste, error, and abuse are
       mitigated;
    •	 Projects funded under ARRA avoid unnecessary delays and cost overruns; and
    •	 Program goals are achieved, including specific program outcomes and improved results on broader
       economic indicators.

    In prior reporting periods, HUD OIG reviewed HUD’s front-end risk assessments (FERA), audited
HUD’s formula allocation dictated in ARRA programs, and assessed the administrative capacity for
selected grantees to effectively administer ARRA funds. During this reporting period, OIG continued to
perform capacity assessments but expects to shift its focus to audits of the grantee expenditures. OIG has
also focused on HUD’s oversight activities.

    The following section demonstrates the audit work that has been completed during this reporting
period.

        Strategic Initiative 3: Contribute to the strengthening of communities
 Key program results                                  Questioned costs                  Funds put to better use
        Audit                33 audits*                     $662,000                           $8.8 million
         Our                   Page 74          •	 Department-wide audits
        focus                  Page 74          •	 Public Housing Capital Fund audits and reviews
                               Page 77          •	 Native American Housing Block Grant audits and reviews
                               Page 78          •	 Community Development Block Grant audits and reviews
                               Page 80          •	 Neighborhood Stabilization Program audits and reviews
                               Page 84          •	 Office of Healthy Homes – Lead Hazard Control audit and
                                                   review

*The total ARRA-related audits consist of community planning and development, public and Indian housing, and other
activity audits. The questioned costs and funds put to better use amounts relate only to ARRA-related costs.




                                                            Chapter 5 - American Recovery and Reinvestment Act of 2009
74
           In addition to the audits described in this chapter, HUD OIG, has conducted numerous outreach efforts
       (see chapter 8, page 121).

       Department-Wide Audits

           HUD OIG audited HUD’s process for monitoring recipient reporting for ARRA to determine whether
       HUD had developed a process for performing limited data quality reviews of recipient reporting of recovery
       funds. The Recovery Accountability and Transparency Board (Board), created by ARRA, required the
       inspector general community to evaluate Federal agencies’ processes for monitoring recipient reporting
       of ARRA funds for the quarter ending September 30, 2009. The audit reports were to be issued to their
       agencies no later than October 30, 2009. The reports were also to be submitted to the Board, which will
       compile the results and issue a consolidated report with recommendations for improvement across the
       Federal Government.

           HUD has made progress in the quality assurance process. It has established a Recovery Implementation
       Team that has developed Department-wide policies and procedures and provided guidance to HUD program
       offices. The Recovery Implementation Team has developed a process for performing limited data quality
       reviews of recipient reporting of ARRA funds. The team has also developed procedures to identify and
       notify the recipients of the need to make appropriate and timely changes to data submissions. HUD has
       begun reviewing data reported to FederalReporting.gov by recipients and identified possible data errors
       that require follow-up.

           However, there are areas that HUD needs to address; specifically, (1) not all prime recipients have filed
       all of the required quarterly reports, (2) HUD has not ensured that the prime recipients review the data
       submitted by subrecipients, and (3) HUD has not developed a process for identifying subrecipients that
       demonstrate systemic or chronic reporting problems and/or otherwise fail to correct such problems as
       identified by the primary recipients. (Audit Report: 2010-DP-0801)

       Office of Public and Indian Housing Audits and Reviews

       Public Housing Capital Fund Audits and Reviews

           HUD OIG performed a capacity review to assess the Syracuse, NY, Housing Authority’s administration
       of its Public Housing Capital Fund (Capital Fund) program to evaluate the Authority’s capacity in the
       area of internal controls, eligibility, financial controls, procurement, and outputs/outcomes to effectively
       administer its ARRA funds. The Authority was awarded $4.5 million in capital funds under ARRA.

           Significant control weaknesses diminished the Authority’s capacity to effectively administer its Capital
       Fund program in the areas of internal controls, eligibility, financial controls, procurement, and output/
       outcomes. Specifically, the Authority failed to (1) complete its 2002 Capital Fund Financing Program in a
       timely manner, and additional Capital Fund grants remain open; (2) follow HUD-required contracting and
       procurement regulations, thus limiting competition and potentially causing excessive and/or ineligible
       costs; and (3) implement a proper control environment, which contributed to management and financial
       control deficiencies.

          OIG recommended that HUD (1) closely monitor the operations of the Authority to ensure compliance
       with all Capital Fund Financing Program, Capital Fund program, and ARRA deadlines and objectives
       and (2) certify that the Authority’s procurement practices meet Federal procurement requirements. OIG




     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                     75
recommended that HUD instruct the Authority to (1) immediately complete its 2002 Capital Fund Financing
Program bond program activities and use the remaining $1.3 million for eligible improvements, (2) submit a
viable plan to obligate capital funds and supplemental ARRA funds, (3) establish and implement operational
procedures to ensure compliance with applicable regulations for all future procurement activities, and (4)
institute effective management and financial controls to ensure successful administration and completion
of the ARRA program and objectives. (Audit Report: 2010-NY-1802)

                                                     ppp

    HUD OIG audited the ARRA Public Housing Capital Fund formula grant to the Dallas Housing
Authority in Dallas, TX, to evaluate the Authority’s capacity in the areas of internal controls, eligibility,
financial controls, procurement, and output/outcomes in administering its grant.

    Overall, the Authority demonstrated capacity to administer its grant in accordance with requirements.
However, it should address issues identified to help ensure that it fully expends its grant funds on eligible
activities within ARRA deadlines.

    OIG recommended that HUD work with the Authority to resolve documentation requirements
for administration and management improvements expense categories and require the Authority to
revise its budget and reallocate $280,000 in budgeted funds to other eligible activities. (Audit Report:
2010-FW-1001)

                                                     ppp

   HUD OIG performed a capacity review of the Housing Authority of New Orleans, LA, to evaluate the
Authority’s capacity and risks in the areas of basic internal controls, financial operations, procurement, and
outputs/outcomes. The Authority received $34.5 million in ARRA funding.

     The Authority had capacity deficiencies related to internal controls, financial operations, procurement,
and inventory. Specifically, it lacked (1) internal control capacity related to staffing levels and segregation of
duties; (2) financial capacity related to its accounts payable procedures, financial policies, and independent
public accountant reviews; and (3) procurement capacity, as it did not always comply with the procurement
policy and the policy was not always clear. The Authority generally ensured that its outputs and outcomes
related to rehabilitation contracts were adequate. However, it did not maintain an adequate inventory
listing of items removed from some of the rehabilitated projects. Due to capacity limitations, the Authority
will encounter difficulty in both obligating and expending the $34.5 million in ARRA funds within the
statutory time limits. While the Authority had taken measures to develop policies and procedures for
obligating and expending the ARRA funds, its prior performance continued to raise serious concerns about
its ability to comply with the statutory requirements and safeguard resources. Therefore, HUD, as the
Authority’s administrative receiver, must make a realistic determination regarding its ongoing capacity
limitations.

     OIG recommended that HUD require the Authority to (1) support or repay unsupported disbursements
totaling more than $321,000; (2) maintain adequate staffing levels in its Finance and Contracting and
Compliance Departments and obtain qualified staff to perform the accounts receivable function; (3) amend
its finance policies; (4) consider cross-training employees in the Finance Department and rotate respective
roles periodically to prevent collusion; (5) amend its procurement policy to comply with 24 CFR (Code
of Federal Regulations) 85.36; (6) consider labeling all asset inventory items obtained for rehabilitation
before placing items into the inventory; (7) obtain a contractor to oversee contracting activities; and (8)
contract with an accounting firm to maintain a separate accounting and biweekly reporting of ARRA funds




                                                        Chapter 5 - American Recovery and Reinvestment Act of 2009
76
       expended. OIG also recommended that HUD immediately deobligate all or some of the Authority’s ARRA
       funds and reallocate the funds to housing authorities that can use the funds if the lack of capacity continues
       and indicates the Authority’s inability to obligate the funds or complete the planned work by the statutory
       deadline. (Audit Report: 2010-AO-0801)

                                                          ppp

            HUD OIG conducted a capacity review of the Chattanooga, TN, Housing Authority’s operations
       to determine whether the Authority had the capacity to adequately administer its capital fund ARRA
       funding according to applicable requirements. The Authority had the capacity to properly administer
       its capital fund ARRA grants. There were no reportable conditions or recommendations. (Audit Report:
       2010-AT-1804)

                                                          ppp

           HUD OIG reviewed HUD’s guidance on using ARRA capital funding for physical needs assessments
       to determine whether HUD’s guidance to grantees on using ARRA capital funds for physical needs
       assessments was sufficient to ensure that grantees had the information needed to avoid missing the grant
       obligation deadline of March 17, 2010. HUD took actions in a timely manner to address concerns raised
       during the review. OIG made no recommendations. (Audit Report: 2010-FW-0801)

                                                          ppp

           HUD OIG conducted a review of the Guam Housing and Urban Renewal Authority in Sinajana, GU,
       to determine whether the Authority (1) had effective and efficient operations in place to manage its grant-
       funded projects and (2) had administered its grant funds in accordance with HUD rules and regulations.
       The Authority received more than $1.9 million in Capital Fund Recovery Act grant funding as part of
       ARRA.

          The Authority generally had effective and efficient operations in place to manage its grant-funded
       projects and generally administered its grant funds in accordance with HUD rules and regulations.
       Therefore, OIG made no recommendations. (Audit Report: 2010-LA-1002)

                                                          ppp

           HUD OIG reviewed the New York City, NY, Housing Authority’s capacity to administer the
       approximately $423 million in capital funds awarded to it under ARRA to determine whether the
       Authority’s general, financial, and procurement controls were adequate to provide assurance that it had
       the capacity to effectively manage the ARRA funds.

           The Authority’s general, financial, and procurement controls were generally adequate to provide
       assurance that it had the capacity to effectively manage its ARRA funds. Authority officials had plans for
       using the funds in a timely manner and had addressed previously reported weaknesses in its Capital Fund
       program administration.

          OIG recommended that HUD closely monitor the Authority to ensure that it achieves planned
       accomplishments within the prescribed timeframes and take action necessary to ensure compliance with
       ARRA requirements. (Audit Report: 2010-NY-1803)




     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                 77
Native American Housing Block Grant Audits and Reviews
   HUD OIG reviewed HUD’s FERA for ARRA funding for Native American Block Grant housing
programs to determine whether the FERA complied with the Office of Management and Budget’s (OMB)
guidance for implementation of ARRA; ARRA’s streamlined FERA process; and HUD Handbook 1840.1,
Departmental Management Control Program.

    The FERA was generally prepared in accordance with OMB requirements, and the ARRA programs
are similar to the existing Native American Housing Assistance and Self-Determination Act of 1996
(NAHASDA) program. In addition, the overall risks will be similar to those under NAHASDA, except
for those associated with the additional workloads. The FERA stated that HUD planned to fill 34 existing
vacancies and hire an additional 12 temporary employees to meet the increased reporting requirements
and other responsibilities under ARRA. However, if HUD hires a significant number of new staff, it will
need to ensure that the new staff members receive sufficient and timely training to be effective in the
administration and oversight of ARRA funds. (Audit Report: 2010-LA-0802)

                                                 ppp

    HUD OIG completed a capacity review of the Department of Hawaiian Home Lands in Oahu, HI,
regarding its ARRA funding to determine whether the Department had sufficient capacity to manage and
administer its funding. Specifically, OIG reviewed and assessed the Department’s capacity in the following
areas: internal controls, financial operations, and procurement.

    The Department generally had sufficient capacity to manage its ARRA funding. However, it could
improve its controls by (1) developing a more comprehensive set of written policies and procedures to
describe its drawdown and disbursement process, (2) ensuring that its contractors have not been debarred
or suspended before awarding federally funded contracts, (3) obtaining tax clearance certificates from
its subcontractors, and (4) performing adequate reviews of weekly certified payrolls to ensure that its
contractors and subcontractors pay their employees proper wages and fringe benefits in accordance with
the Davis-Bacon Act and Hawaii Revised Statutes.

    OIG recommended that HUD require the Department to ensure that it (1) develops detailed written
policies and procedures regarding its drawdown and disbursement process, (2) performs a search on the
General Services Administration’s Excluded Parties List System and the State of Hawaii’s List of Debarred
and Suspended Persons before it awards its federally funded contracts, (3) obtains tax clearance forms to
show that all delinquent taxes against the contractor’s subcontractor have been paid, and (4) performs
adequate reviews of the weekly certified payrolls in compliance with the Davis-Bacon Act and Hawaii
Revised Statutes. (Audit Report: 2010-LA-1005)

                                                 ppp

    HUD OIG conducted a capacity review of the operations of the Navajo Housing Authority in Ft.
Defiance, AZ, to evaluate the Authority’s capacity to administer its ARRA funds and identify related
potential internal control weaknesses that could impact its ability to properly administer the funds.
Although OIG did not find evidence indicating that the Authority lacked the basic capacity to administer
its ARRA funding, it did identify some concerns that could impact the Authority’s ability to meet the
ARRA obligation and expenditure timeframes and ensure that its funds are expended in accordance with
program requirements.




                                                    Chapter 5 - American Recovery and Reinvestment Act of 2009
78
          OIG recommended that HUD (1) provide additional monitoring and technical assistance related to the
       Authority’s implementation of the ARRA project, as needed, to ensure that the Authority has the appropriate
       capacity to properly administer its ARRA funds and (2) require the Authority to review its written policies
       and procedures and adapt them to address construction contractor procurement and monitoring. (Audit
       Report: 2010-LA-1801)

       Community Development Block Grant Audits and Reviews
          HUD OIG reviewed the City of Saginaw, MI’s Community Development Block Grant (CDBG) program
       under ARRA to determine whether the City had the capacity to effectively and efficiently administer its
       CDBG program under ARRA.

           The City’s capacity to effectively and efficiently administer its CDBG program under ARRA had
       weaknesses. Specifically, the City (1) did not have documentation, such as a use survey, to support that
       work associated its program principally benefited Saginaw’s low- to moderate-income residents; (2)
       lacked a work completion schedule in its program contract; (3) did not follow HUD’s regulations and its
       own requirements for monitoring the program project; and (4) had not established sufficient policies and
       procedures for its CDBG program under ARRA.

          OIG recommended that HUD require the City to provide documentation, such as a use survey, to
       support that the nearly $336,000 in CDBG funds under ARRA principally benefitted the City’s low- to
       moderate-income residents. If the City cannot provide supporting documentation, it should amend its
       substantial amendment to remove the program project and include an eligible activity or activities that meet
       one of HUD’s three national objectives. OIG also recommended that HUD require the City to implement
       adequate policies, procedures, and controls to ensure that CDBG funds under ARRA are used effectively
       and efficiently and in accordance with applicable requirements. (Audit Report: 2010-CH-1804)

                                                          ppp

          HUD OIG audited the City of Jersey City, NJ’s capacity to administer CDBG funding provided
       under ARRA to evaluate the City’s capacity in the areas of internal controls, eligibility, financial controls,
       procurement, and output/outcomes in administering CDBG funds.

          The City generally had adequate financial controls and staff capacity to administer its CDBG funds;
       however, it needs to strengthen its controls to ensure that it will be able to effectively administer CDBG
       funds provided under ARRA and comply with applicable requirements. Specifically, the City did not (1)
       ensure that costs charged to CDBG planning and administration by its subgrantee were reasonable and
       necessary and (2) have adequate procedures to ensure compliance with procurement requirements.

           OIG recommended that HUD instruct the City to strengthen its controls and (1) repay nearly $62,000 in
       ineligible costs charged to CDBG planning and administration, (2) support the allocability of nearly $118,000
       in planning and administration costs charged to the CDBG program, and (3) ensure that procurements are
       conducted in accordance with all Federal requirements. (Audit Report: 2010-NY-1007)

                                                          ppp

           HUD OIG performed a review of the City of Grand Prairie, TX’s operations to evaluate its capacity to
       administer the $3.2 million received under the Housing and Economic Recovery Act of 2008 and ARRA.
       Specifically, OIG’s objective was to review and assess the City’s capacity and risks in the following areas:
       basic internal controls, financial operations, and procurement. Generally the City maintained capacity to
       administer its ARRA funding.



     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                  79
    OIG recommended changes regarding potential favoritism and conflicts of interest and the inclusion of
ineligible expenses in ARRA programs. Also, the City needs to improve its HOME Investment Partnerships
Program (HOME), contracting and payment processes, and policies and procedures. (Audit Report:
2010-FW-1803)

                                                  ppp

   HUD OIG conducted a capacity review of the City of East Cleveland, OH’s operations to determine
whether there was evidence to indicate that the City lacked the capacity to adequately administer its ARRA
funding.

   The City had sufficient capacity to effectively and efficiently administer its ARRA CDBG program.
This determination does not reflect a finding of sufficient capacity to administer its regular CDBG,
HOME, or Neighborhood Stabilization (NSP) programs. OIG made no recommendations. (Audit Report:
2010-CH-1802)

                                                  ppp

     HUD OIG reviewed the State of Arkansas’s controls and operations to determine whether the State
had the capacity to account for ARRA funding and the controls to ensure that its recipients expend those
funds for eligible program activities. The State is scheduled to receive more than $15.67 million under
ARRA. The State had the capacity and management controls to account for ARRA funding and ensure that
its recipients spend the funds for eligible program activities within the allotted time. Therefore, OIG made
no recommendations. (Audit Report: 2010-FW-1801)

                                                  ppp

    HUD OIG conducted a capacity review of the operations of the City of San Antonio, TX, to determine
whether the City had the capacity to account for ARRA funds and the controls to ensure that it expends
those funds only for eligible program activities. The City appeared to have the capacity to adequately
administer its ARRA funding. It had written policies and procedures, a staffing plan including adequate
segregation of duties, and a plan for using ARRA funding. OIG recommended that HUD closely monitor
the City’s spending of ARRA funds based on HUD’s risk assessment of the City’s other HUD programs.
(Audit Report: 2010-FW-1802)

                                                  ppp

    HUD OIG reviewed HUD’s Office of Community Planning and Development’s (CPD) risk assessment
process to determine whether CPD had established and properly implemented a risk assessment process
that used appropriate measures to determine risk and identify grantees for monitoring.

    CPD had established and implemented a risk assessment process that used relevant assessment factors
to determine risk and identify grantees for monitoring. Additionally, the risk analyses prepared annually
were used to select grantees for later monitoring. OIG made no recommendations since no reportable
deficiencies were identified. (Audit Report: 2010-BO-0002)




                                                     Chapter 5 - American Recovery and Reinvestment Act of 2009
80
       Neighborhood Stabilization Program Audits and Reviews
           HUD OIG reviewed Hillsborough County, FL, to determine whether the County had the capacity to
       effectively and efficiently administer its NSP and whether it accurately reported HOME commitments in
       HUD’s Integrated Disbursement and Information System (IDIS).

            The County had the capacity to administer its NSP. It had made substantial and effective revisions to
       its organization and staffing to correct many of the past performance problems identified by HUD and its
       own internal assessments. It had (1) established and implemented adequate NSP procedures, (2) followed
       proper procedures in the procurement of contract services, (3) hired or was in the process of hiring an
       adequate number of qualified staff, and (4) arranged for other County departments to assist with NSP
       workload and was progressing in carrying out its NSP.

           As of October 1, 2009, the County had not entered any obligations or expenditures into HUD’s Disaster
       Recovery Grant Reporting (DRGR) system. In addition, its staff had not obtained training on the use of the
       system, and its policy did not address timeliness for entering and reporting obligations and expenditures
       in the system. In addition, the County’s DRGR policy did not define what constituted an NSP obligation
       and the documentation required to properly support an obligation.

          The County had a past problem with making inaccurate commitment entries into IDIS. OIG identified
       more than $748,000 in incorrect commitment entries made to IDIS before the County improved its controls.
       Due to the inaccurate entries, more than $61,000 is subject to recapture by HUD.

           OIG recommended that HUD require the County to (1) mandate that all staff with DRGR responsibilities
       complete in-house and/or HUD-assisted training on use of the system to ensure timely and proper entry
       of NSP obligations, expenditures, and performance reporting; (2) amend its draft DRGR policy to include
       timeliness for entering and reporting NSP obligations and expenditures, defining what constitutes an NSP
       obligation, and the type of documentation to be kept to support NSP obligations; and (3) recapture more
       than $61,000 in HOME funds that the County did not commit by the 24-month statutory deadline. (Audit
       Report: 2010-AT-1803)

                                                          ppp

          HUD OIG conducted a capacity review of the City of Waterbury, CT’s Waterbury Development
       Corporation’s operations to determine whether the Corporation (subrecipient) had sufficient capacity to
       adequately administer the the City’s NSP funds. The City is a subgrantee of the State of Connecticut,
       Department of Economic and Community Development (grantee).

           The subrecipient needs to improve its capacity to effectively administer NSP funds provided through
       the Housing and Economic Recovery Action of 2008 (HERA). The subrecipient (1) had inadequate
       staffing, (2) had an inadequate selection process for approving NSP applicants, (3) may have delays in
       completing projects, (4) had inadequate support for the scope of work developed for two projects, (5) had
       an inadequate procurement process, (6) will not meet performance goals for its rehabilitation activities,
       and (7) did not properly charge NSP expenses to the program. As a result, the subrecipient may not meet
       program requirements and its goals for NSP.

           OIG recommended that HUD require the grantee to ensure that the subgrantee/subrecipient (1)
       implements adequate policies, procedures, and controls to ensure that NSP funds are used effectively,
       efficiently, and in accordance with applicable requirements; (2) hires additional staff, as needed, to assist
       in administrating NSP to ensure that the subrecipient has sufficient capacity to effectively and efficiently




     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                   81
administer program funds; (3) strengthens its procurement controls to ensure that it follows the subgrantee’s
and Federal policies when procuring services; (4) submits an amendment to its NSP local action plan
reducing the number of units to be completed for its acquisition and rehabilitation activities; and (5)
requests comments from the Connecticut State Historical Preservation Office for properties approved for
NSP rehabilitation funding that are not in accordance with the Secretary of the Interior’s Rehabilitation
Standards and Guidelines.

    OIG also recommended that HUD (1) perform additional monitoring and provide technical assistance
to the subrecipient, as needed, to ensure that the subrecipient properly administers the NSP funding in
accordance with Federal requirements and (2) review salaries charged by staff to determine whether costs
were properly charged to HUD programs and require the subrecipient to make adjustments to its direct
and indirect expenses as necessary. (Audit Report: 2010-BO-1004)

                                                   ppp

   HUD OIG evaluated the capacity of Miami-Dade County, FL, to administer $62.2 million in NSP funds
awarded to it under HERA.

   The following issues were identified: (1) the County did not execute agreements between County
departments, (2) existing policies and procedures did not address NSP requirements, (3) adequate supporting
documentation for an NSP activity was not maintained, and (4) NSP expenditures were improperly classified.
These weaknesses could adversely affect the County’s capacity to administer its NSP funds.

   OIG recommended that HUD require corrective action on the deficiencies. (Audit Report: 2010-AT-1801)

                                                   ppp

    HUD OIG conducted a capacity review of the City of Atlanta, GA, to determine whether the City had
the capacity to effectively and efficiently administer its NSP. The City received a $12.3 million NSP grant
from HUD that was authorized under Title III of HERA and had applied for an additional $57.9 million in
NSP funds under ARRA.

    The City had developed the organizational structure needed to administer its NSP and hired a
sufficient number of qualified staff to implement the program. However, it needs to expedite actions to
meet the program’s 18-month obligation deadline due to delays in executing implementation contracts and
obligating funds, past performance problems, procurement inconsistencies, and a lack of procedures for
some components of its NSP.

    OIG recommended that HUD require the City to (1) expedite the implementation of the remaining
$10.9 million approved for NSP activities; (2) expedite execution of implementation contracts with
developers or subrecipients; (3) review and verify the accuracy of evaluator scores for leveraged funds
and fund commitments for all contractors and determine whether further action is needed; (4) amend
executed contracts to include leveraged funds if the contractor(s) competed for funding based on the City’s
leveraging requirement and proposed to provide leveraged funds and the City evaluated the contractor(s)
proposal against other contractors, giving consideration to proposed leveraging; (5) develop and implement
procedures for land banking; and (6) implement procedures for (a) entering and monitoring obligations
in HUD’s reporting system, (b) demolition, and (c) tracking program income in HUD’s reporting system.
(Audit Report: 2010-AT-1802)

                                                   ppp




                                                      Chapter 5 - American Recovery and Reinvestment Act of 2009
82
           In accordance with OIG’s goal to review and ensure the proper administration of NSP funds provided
       under HERA and/or ARRA, OIG conducted a capacity review of the operations of the State of Vermont’s
       Agency of Commerce and Community Development, which has responsibility for administering the State’s
       NSP. OIG’s objective was to determine whether the Agency had the necessary capacity to effectively and
       efficiently administer the NSP funds provided through HERA. OIG made no recommendations. (Audit
       Report: 2010-BO-1801)

                                                          ppp

           HUD OIG conducted a capacity review of the operations of the State of Maine’s Office of Community
       Development, which is responsible for administering the State’s NSP, to determine whether the Office
       had the capacity to adequately administer the State’s NSP funds provided through HERA. There were no
       findings. Therefore, OIG made no recommendations. (Audit Report: 2010-BO-1802)

                                                          ppp

           HUD OIG reviewed Wayne County, MI’s NSP to determine whether the County had the capacity to
       effectively and efficiently administer its NSP. Congress amended NSP and increased its funding as part
       of ARRA. As part of a consortium, the Wayne County Land Bank Corporation, which is controlled by the
       County, submitted an application to HUD, dated July 13, 2009, that totaled $290 million in additional NSP
       funds under ARRA. The application is under review by HUD.

           The County needs to improve its capacity to effectively and efficiently administer its NSP. Specifically,
       the County (1) did not ensure that the Corporation fully complied with HUD’s regulations for full and
       open competition regarding the procurement of project management services for its NSP, (2) had not
       established sufficient policies and procedures for its program as of December 16, 2009, and (3) provided a
       detailed fiscal years (FY) 2010 through 2013 budget for planning and administrative costs that exceeded 10
       percent of its total NSP grant and its revised NSP budget for planning and administrative costs by more
       than $18,000. Lastly, HUD did not include sufficient special conditions in its NSP grant agreement with
       the County.

           OIG recommended that HUD require the County to perform a formal cost analysis to determine
       whether the $1.2 million was reasonable for the project management services to be provided. The County
       should also submit the analysis to HUD for review and approval. If the County does not perform a formal
       cost or prices analysis, it should not use HUD funds to pay for the management services. If the County
       performs a formal analysis and determines that a reasonable cost for the management services was less
       than $1.2 million, it should amend its written agreement with Community Improvement Group for the
       amount determined to be reasonable. If Community Improvement Group will not agree to amend the
       agreement, the County should void the agreement and reprocure the management services in accordance
       with HUD’s regulations. (Audit Report: 2010-CH-1801)

                                                           ppp

           HUD OIG conducted a capacity review of the County of Riverside, CA’s NSP to determine whether
       the County had the capacity and necessary controls to manage and administer the program. The County
       was awarded $48.6 million in NSP funds.

           The County generally had sufficient capacity to administer its allocation of NSP funds. It had applied
       for additional funding under ARRA to continue its program activities, and its procedures and controls
       should be adequate to administer the continuation of the program. However, the County could improve
       internal controls for NSP activities by developing separate, specific, and well-documented policies and
       procedures for acquisition, rehabilitation, and resale/rental activities.


     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                   83
   OIG recommended that HUD require the County to create and maintain policies and procedures
specific to NSP acquisition activities. (Audit Report: 2010-LA-1004)

                                                   ppp

   HUD OIG completed a capacity review of the City of Fresno, CA’s NSP to determine whether the City
had sufficient capacity and the necessary controls to manage and administer the program.

    The City had sufficient management controls to ensure that grant funds were used for eligible purposes
and disbursements were fully supported. However, it may not be capable of obligating program funds
for eligible activities within 18 months as required. It took the City more than 7 months from receipt of
the grant and 4 months from selection of subcontractors/developers to execute contracts with the four
entities selected to carry out program activities. Further, the program requires grantees to set aside 25
percent of grant funds to benefit individuals and families that earn no more than 50 percent of area median
income. As of the end of November 2009, the City had not developed an action plan, nor had it selected a
subgrantee for this activity.

   OIG recommended that HUD provide the City with technical assistance and oversight to ensure that
program funds are obligated within 18 months. (Audit Report: 2010-LA-1006)

                                                   ppp

   HUD OIG completed a capacity review of the County of San Bernardino, CA’s NSP to determine
whether the County had sufficient capacity and the necessary controls to manage and administer the
program.

    The County generally had questionable capacity to administer its allocation of NSP funds. It had
difficulty committing and spending the funds in a timely manner and had not been on track to meet
the required 18-month obligation deadline, having obligated zero dollars toward its NSP activities. In
addition, it could improve internal controls for its two rental property acquisition and rehabilitation NSP
activities and program monitoring by developing separate, specific, and well-documented policies and
procedures for those activities.

    OIG recommended that HUD require the County to (1) reevaluate its current strategies and consider
modifications, including pursuing other, more attainable NSP activities, and/or immediately return any
NSP funds to HUD that are not anticipated to be obligated by the 18-month deadline; (2) obtain technical
assistance from HUD; (3) create and maintain policies and procedures specific to the NSP acquisition and
rehabilitation of rental property activities; and (4) create and maintain policies and procedures specific to
NSP-monitoring activities. (Audit Report: 2010-LA-1007)

                                                   ppp

   HUD OIG audited HUD’s controls over special conditions in NSP grant agreements under Title III of
HERA, as amended, to determine whether HUD ensured that its CPD field offices were consistent in their
consideration and inclusion of special conditions in NSP grant agreements with high-risk grantees.

    HUD’s field offices used different procedures for including special conditions in NSP grant agreements
under HERA. HUD did not ensure that the field offices were consistent in their consideration and inclusion
of special conditions in NSP grant agreements with high-risk grantees.

   OIG recommended that HUD determine whether NSP grantees under HERA are high risk by
considering grantees’ past performance or other serious actions in their HOME, Emergency Shelter Grant,


                                                      Chapter 5 - American Recovery and Reinvestment Act of 2009
84
       and Supportive Housing programs. If the NSP grantees are high risk, they should be required to develop
       and implement management plans for their NSP that will include but not be limited to describing how
       unresolved HOME, Emergency Shelter Grant, and/or Supportive Housing program performance issues
       were resolved or are being resolved and explain whether the issues will impact the administration of their
       NSP. (Audit Report: 2010-CH-0001)

                                                          ppp

          HUD OIG reviewed the capacity of the City of Los Angeles, CA’s Housing Department to determine
       whether the City had sufficient capacity and the necessary controls to manage and administer NSP funds
       under HERA and ARRA. The City generally had sufficient capacity to adequately administer its NSP
       funding. OIG made no recommendations, and no further action is necessary. (Audit Report: 2010-LA-
       1008)

                                                          ppp

           HUD OIG audited Broward County, FL, to determine whether the County had the necessary controls to
       administer its NSP in accordance with HERA. Specifically, OIG evaluated whether the County had adequate
       (1) management controls to ensure that activities met NSP objectives and (2) financial controls to ensure that
       obligations were timely and valid and expenditures were allowable and properly reported.

           The County had (1) adequate management controls to ensure that activities met NSP objectives and
       (2) adequate financial controls to ensure that obligations were timely and valid and expenditures were
       allowable. However, it did not accurately report NSP financial information to HUD and incorrectly
       posted NSP expenditures to the wrong fiscal year in its financial management system. As a result, HUD
       had no assurance of the County’s actual financial progress, and the County overstated its obligations and
       expenditures in its financial management system. In addition, it did not post first and second quarter NSP
       performance reports to its Web site in a timely manner.

           OIG recommended that HUD require the County to (1) establish controls to reconcile NSP obligations and
       expenditures between HUD’s DRGR and the County’s financial management system, (2) strengthen controls
       to ensure that all NSP activities are properly reported in DRGR and the County’s financial management
       system on a timely basis, and (3) post its NSP quarterly performance reports on its Web site in a timely
       manner. (Audit Report: 2010-AT-1002)

       Office of Healthy Homes – Lead Hazard Control Audit and Review
          HUD OIG audited HUD’s selection procedures used to award lead hazard grants to determine whether
       HUD awarded (1) ARRA funds in accordance with the selection criteria specified in the FY 2008 notices of
       funding availability and ARRA and (2) FY 2008 funds in accordance with the selection criteria.

          HUD did not have adequate controls to ensure that only qualified applicants were selected to receive
       grant funds. As a result, it improperly awarded $1.9 million in ARRA funds to the City of Greenville, NC,
       and nearly $875,000 to Healthy Homes Resources. In addition, HUD improperly awarded $3 million in FY
       2008 funds to the City of Cincinnati, OH.

           OIG recommended that HUD (1) rescind the $2.8 million in ARRA funds that was improperly awarded
       to Greenville and Healthy Homes Resources, ensure that the selection procedures are followed, and take
       appropriate actions against employees and (2) rescind the $3 million in FY 2008 funding that was awarded
       to Cincinnati, ensure that the application review panels follow threshold review requirements when




     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                    85
determining eligibility, and take appropriate action against employees who circumvented the regulations.
(Audit Report: 2010-HA-0001)

                                                    ppp

    HUD OIG conducted a capacity review of the City of Utica, NY’s administration of its lead-based paint
hazard control program to evaluate the City’s capacity in the areas of internal controls, eligibility, financial
controls, procurement, and outputs/outcomes to effectively administer its lead hazard control program
funds provided under ARRA in accordance with applicable requirements. The City was awarded $2.04
million under ARRA to carry out lead-based paint hazard control activities in privately owned homes.

   The City had the capacity to effectively administer its lead hazard grant funds provided under ARRA.
Therefore, OIG made no recommendations. (Audit Report: 2010-NY-1801)

                                                    ppp




                                                       Chapter 5 - American Recovery and Reinvestment Act of 2009
86
       Investigations
           The investigation below was conducted jointly with other Federal and local law enforcement agencies.

       Theft/Embezzlement
           Debora Kessah, a former HUD Homelessness Prevention and Rapid Re-Housing Program case worker
       for the Society of St. Vincent DePaul, an organization that receives HUD Emergency Shelter Grants, was
       indicted in Hamilton County Court of Common Pleas, Cincinnati, OH, for allegedly committing theft.
       From August to September 2009, Kessah allegedly created false documents and fraudulently obtained
       about $1,900 in rental assistance payments.

                                                          ppp




     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                87
Inspections & Evaluations
Recovery Accountability and Transparency Board Survey of
Contracts and Grants Workforce Staffing and Qualifications –
Evaluation of Reported Staffing Levels
    HUD OIG conducted an evaluation of HUD’s September 2009 response to questions posed by the
Recovery Accountability and Transparency Board’s (Board) survey of staff resources dedicated to
ARRA. The evaluation objective was to determine whether the reported number of HUD contract and
grant personnel responsible for ARRA funding and oversight could be validated and relied on for public
disclosure.

    The full-time-equivalent (FTE) staffing levels submitted in response to the Board survey could not
be validated. The reported FTE staffing levels reflected “informed estimates” by headquarters program
management of ARRA activities. Documentation was not available to support the estimates because HUD
does not directly track workforce time and activity for each pay period. A comparison of FTE estimates
from the survey for the third quarter of FY 2009 to ARRA activity reported in HUD’s Total Estimation and
Allocation Mechanism for the same period disclosed material and unexplained differences in the staffing
data reported by CPD and the Office of Public and Indian Housing (PIH). CPD and PIH are responsible for
awarding and monitoring $11.26 billion (83 percent) of HUD’s $13.62 billion in ARRA funding.

    OIG recommended that HUD’s ARRA Implementation Team (1) working with the respective HUD
offices/program areas, implement a verifiable process to account for ARRA staff time and (2) ensure that
future responses to ARRA requests are supported by information that can be validated. (I&E Report No.
IED-09-006)

                                                ppp




                                                   Chapter 5 - American Recovery and Reinvestment Act of 2009
  Chapter 6
Disaster Relief
  Oversight
90
       Audit
           In response to disasters, Congress has appropriated additional funding for the Community Development
       Block Grant (CDBG) programs as Disaster Recovery Assistance grants to rebuild the affected areas
       and provide crucial seed money to start the recovery process. Since fiscal year (FY) 2005, Congress has
       appropriated $32.4 billion in CDBG Disaster Recovery Assistance funding. This block grant assistance may
       fund a broad range of recovery activities. The U.S. Department of Housing and Urban Development (HUD)
       can help communities and neighborhoods that otherwise might not recover due to limited resources. Because
       CDBG programs include a broad list of eligible activities and allow for flexibility, communities and States
       affected by disasters have been able to undertake short-term disaster relief efforts, implement mitigation
       strategies, and finance long-term recovery activities. Further, Disaster Recovery Assistance grants often
       supplement disaster programs of the Federal Emergency Management Agency (FEMA), the Small Business
       Administration (SBA), and the U.S. Army Corps of Engineers. In addition to the audits, inspections, and
       investigations described in this chapter, the Office of Inspector General (OIG) has conducted a number of
       outreach efforts (see chapter 8, page 120).

         Key program results                                     Questioned costs                    Funds put to better use
               Audit                   5 audits*                    $10.7 million                                 ---

       *The total disaster audits, questioned costs, and funds put to better use amounts include five audits conducted in the
       community planning and development area.


           HUD OIG audited the State of Iowa’s CDBG Disaster Recovery Assistance funds to determine whether
       the State ensured that the City of Cedar Rapids provided the funds only to eligible businesses and that these
       businesses did not receive duplicate Federal benefits.

           The State misspent more than $10.5 million of its CDBG Disaster Recovery Assistance funding and
       failed to check for duplicate benefits before awarding the funds. It provided Disaster Recovery Assistance
       funds to 305 of 406 businesses without supporting their eligibility for funding. It also failed to verify that
       the 406 recipients did not receive duplicate benefits through any other program, insurance, or source before
       awarding the funds.

           OIG recommended that HUD require the State to (1) provide documentation to support that $10.5 million
       in Disaster Recovery Assistance funds was paid to businesses in accordance with Iowa State law or reimburse
       the CDBG program from non-Federal sources for amounts that it cannot support and (2) perform oversight
       and monitoring of the disaster recovery activities in a timely manner. OIG also recommended that HUD
       require the State to perform a duplication of benefits check on all 406 businesses to ensure compliance with
       the Robert T. Stafford Disaster Relief and Emergency Assistance Act and repay any amounts that are found
       to have been duplicated. (Audit Report: 2010-KC-1001)

                                                                   ppp

           HUD OIG audited the State of Louisiana, Office of Community Development, Recovery Workforce
       Training Program, administered by the State’s subrecipient, Louisiana Workforce Commission (LWC), Baton
       Rouge, LA, to determine whether the LWC, as the State’s subrecipient, (1) ensured that its subrecipients under
       agreement expended Program funds for eligible expenses and (2) adequately monitored its subrecipients
       under agreement.




     Chapter 6 - Disaster Relief Oversight
                                                                                                                      91
    The LWC did not always ensure that its subrecipients under agreement expended Program funds
for eligible and supported expenses. In addition, it did not maintain adequate internal controls over the
Program’s financial management. Specifically, the LWC did not (1) ensure that reimbursements were
consistent with approved budgets before disbursing funds, (2) review its subrecipients’ reimbursements
for compliance with agreement requirements or Federal regulations, or (3) maintain adequate records to
support the eligibility of reimbursed costs. As a result, the State misspent nearly $148,000 for ineligible and
unsupported costs. Further, although the State generally provided technical assistance, the LWC did not
always adequately monitor its subrecipients under agreement or submit quarterly reports to the State that
included all required performance data. Without this monitoring and compliance assurance, the State could
not effectively monitor the Program’s progress and ensure that Program goals were met and deliverables
were provided as required.

     OIG recommended that HUD require the State to repay ineligible costs totaling more than $2,000 and
support or repay unsupported costs totaling more than $145,000. In addition, the State must ensure that
the LWC (1) completes its subrecipient agreement amendments in a timely manner; (2) ensures that its
subrecipients comply with the approved budgets; (3) receives periodic reviews to ensure that it maintains
documentation that accurately and adequately identifies and accounts for all Program funds disbursed; (4)
implements adequate internal controls to ensure that sufficient reimbursement reviews are conducted; and
(5) implements procedures to ensure that its subrecipients comply with laws, regulations, and agreement
terms. Further, the State must (1) ensure that the LWC conducts and maintains documentation of onsite
monitoring for all subrecipients, (2) ensure that the LWC maintains adequate staffing levels to ensure that
sufficient onsite monitoring visits are conducted, (3) clearly convey and document its expectations to the
LWC pertaining to onsite monitoring, and (4) ensure that the LWC submits quarterly report data required by
the interagency agreement or formally amends the reporting requirements. (Audit Report: 2010-AO-1002)

                                                    ppp

    HUD OIG audited the Lower Manhattan Development Corporation’s (auditee) administration of the
$2.783 billion in CDBG Disaster Recovery Assistance funds provided to the State of New York in the aftermath
of the September 11, 2001, terrorist attacks on the World Trade Center in New York City, NY. The auditee
disbursed approximately $50.3 million of these funds during the audit period, October 1, 2008, through
March 31, 2009. The objectives of the audit were to determine whether the auditee (1) disbursed Disaster
Recovery Assistance funds in accordance with the guidelines established under HUD-approved partial
action plans, (2) expended Disaster Recovery Assistance funds for eligible administration and planning
expenses in accordance with applicable laws and regulations, and (3) had a financial management system
in place that adequately safeguarded funds and prevented misuse.

    The auditee generally administered the grant funds reviewed in accordance with HUD regulations,
expended funds for eligible planning and administrative expenses, and continued to maintain a
financial management system that adequately safeguarded funds and prevented misuse. There were no
recommendations. (Audit Report: 2010-NY-1001)

                                                    ppp

    HUD OIG completed the fourteenth audit in its ongoing review of the Lower Manhattan Development
Corporation in New York, NY, regarding its administration of the $2.783 billion in CDBG Disaster Recovery
Assistance funds provided to the State of New York in the aftermath of the September 11, 2001, terrorist
attacks on the World Trade Center in New York City. During the audit period, April 1 through September
30, 2009, the auditee disbursed $38.8 million of the $2.783 billion being administered. The objectives of this
audit were to determine whether the auditee (1) disbursed Disaster Recovery Assistance funds in accordance




                                                                              Chapter 6 - Disaster Relief Oversight
92
       with the guidelines established under HUD-approved partial action plans, (2) expended Disaster Recovery
       Assistance funds for eligible administration and planning expenses in accordance with applicable laws and
       regulations, and (3) had a financial management system in place that adequately safeguarded funds and
       prevented misuse.

          The auditee generally (1) disbursed CDBG Disaster Recovery Assistance funds in accordance with the
       guidelines established under HUD-approved partial action plans and applicable laws and regulations, (2)
       expended CDBG Disaster Recovery Assistance funds for eligible planning and administrative expenses in
       accordance with applicable laws and regulations, and (3) had a financial management system in place that
       adequately safeguarded funds and prevented misuse. Therefore, for the disbursements reviewed during the
       audit, HUD had assurance that the CDBG Disaster Recovery Assistance funds were properly administered.
       OIG had no recommendations, and no further action is needed. (Audit Report: 2010-NY-1008)

                                                          ppp

           HUD OIG conducted a review of the State of Mississippi, a $5.5 billion CDBG disaster recovery grantee,
       to determine whether the State ensured that (1) public housing authorities provided quarterly progress
       reports in compliance with their subrecipient agreements and (2) the agreements for its authorities complied
       with HUD minimum requirements.

           Although the State generally ensured that the agreements complied with HUD’s minimum requirements,
       it did not always ensure that authorities complied with their agreements. Of 22 reports reviewed, none
       complied with the agreement. In addition, the State did not always ensure that the reports were complete
       and submitted by the established due dates.

           OIG recommended that HUD require the State to (1) develop and implement written policies and
       procedures for the review and verification of information in the reports, (2) ensure that subrecipients fully
       comply with their agreements by including all information required in the reports, and (3) implement a
       system or process for tracking the submission of the reports to ensure compliance with the agreements.
       (Audit Report: 2010-AO-1001)

                                                          ppp




     Chapter 6 - Disaster Relief Oversight
                                                                                                                       93
Investigation
    The HUD OIG Office of Investigation continues to pursue HUD disaster assistance crimes with other
law enforcement agencies, including the Federal Bureau of Investigation and other Federal, State, and local
partners. While the majority of prosecutions during this reporting period involved fraudulent disaster
assistance provided to individuals, OIG is vigorously pursuing public corruption, infrastructure, and
procurement crimes. Working with the Louisiana Recovery and Mississippi Development Authorities,
OIG is taking a proactive role to prevent fraudulent disaster-related claim payments and to assist with the
recovery of deceptive or fraudulent grants. In addition, HUD OIG continues to be a dedicated partner in
the National Center for Disaster Fraud Task Force (previously known as the Hurricane Katrina Fraud Task
Force). HUD OIG provides personnel to support the joint command center in Baton Rouge, LA, continues to
support disaster-related investigative efforts throughout the country, and actively participates in the sharing
of information and the receipt and referral of complaints with other law enforcement agencies.

Homeowner Grant Fraud
    Jerome and Catherine Foreman were collectively sentenced in U.S. District
Court, Gulfport, MS, to 39 months incarceration and 4 years supervised release
and ordered to perform 200 hours of community service and jointly pay the
Mississippi Development Authority (MDA) $150,000 and FEMA $6,706 in
restitution for their earlier convictions of making false statements and claims
and committing theft of government funds. Jerome and Catherine Foreman
applied for and received $150,000 in CDBG Disaster Recovery Assistance funds
through the MDA and $6,706 in FEMA disaster assistance for hurricane-damaged
residential property, but the damaged property was not their primary residence
during Hurricane Katrina.

                                       ppp

    Denise Gibbons-Stobaugh and Kenneth Stobaugh each pled guilty in U.S.
District Court, New Orleans, LA, to committing theft of government funds or
misprision of a felony. Gibbons-Stobaugh applied for and received $150,000 in
CDBG Disaster Recovery Assistance funds through the Louisiana Road Home
(Road Home) program and $38,800 in SBA disaster assistance after she claimed
extensive property damage from Hurricane Katrina, but the property sustained
only minimal storm damage. Stobaugh helped Gibbons-Stobaugh conceal the
extent of the property storm damage.

                                       ppp




                                                                                         (2009) The Times-Picayune
                                                                                           Publishing Co. All rights
                                                                                                reserved. Used with
                                                                                                   permission of the
                                                                                                   Times-Picayune.




                                                                               Chapter 6 - Disaster Relief Oversight
94
          Lionel Perkins was charged in a superseding indictment filed in U.S. District Court, New Orleans,
       LA, with allegedly committing theft of government funds; aggravated identity theft; and Social Security
       Administration, Medicaid, and wire and health care fraud. Perkins applied for and received $150,000 in
       CDBG Disaster Recovery Assistance funds through the Road Home program and caused the Road Home
       administrator to remit $58,500 in CDBG funds to repay his SBA disaster assistance loan, but allegedly the
       damaged property was not his primary residence during Hurricane Katrina. In addition, Perkins allegedly
       applied for and fraudulently obtained Social Security, Medicaid, food stamps, and other benefits.

                                                                       ppp

           Robert Lombardino was sentenced in U.S. District Court, New Orleans, LA, to 3 years probation and 6
       months home confinement and ordered to pay the Louisiana Office of Community Development $113,865
       in restitution for his earlier guilty plea to committing theft of government funds. Lombardino applied for
       and received $134,000 in CDBG Disaster Recovery Assistance funds through the Road Home program for
       hurricane-damaged residential property, but the damaged property was not his primary residence during
       Hurricane Katrina.

                                                                       ppp

           Barbara Dowl was sentenced in U.S. District Court, New Orleans, LA, to 69 months incarceration and 3
       years supervised release and ordered to pay the Louisiana Office of Community Development $154,761 in
       restitution for her earlier conviction of making false statements and committing theft of government funds
       and wire fraud. Dowl applied for and received $132,000 in CDBG Disaster Recovery Assistance funds
       through the Road Home program for hurricane-damaged residential property, but Dowl did not own the
       damaged property during Hurricane Katrina.




       (2009) The Times-Picayune Publishing Co. All rights reserved. Used with permission of the Times-Picayune.

                                                                       ppp

           Louis Stiglet was sentenced in U.S. District Court, Gulfport, MS, to 6 months home confinement and
       3 years probation, ordered to pay the MDA $131,021 in restitution, and fined $20,000 for his earlier guilty
       plea to making false statements and claims. Stiglet applied for and received $131,021 in CDBG Disaster
       Recovery Assistance funds through the MDA for hurricane-damaged residential property, but the damaged
       property was not his primary residence during Hurricane Katrina.

                                                                       ppp




     Chapter 6 - Disaster Relief Oversight
                                                                                                                                         95
    Frederick Rabito pled guilty in U.S. District Court, New Orleans, LA, to making false statements.
Rabito applied for and received $122,397 in CDBG Disaster Recovery Assistance funds through the Road
Home program for hurricane-damaged residential property, but the damaged property was not his primary
residence during Hurricane Katrina.

                                                                ppp

    Thomas Steele pled guilty in U.S. District Court, New Orleans, LA, to making false statements. Steele
applied for and received $119,935 in CDBG Disaster Recovery Assistance funds through the Road Home
program for hurricane-damaged residential property, but the damaged property was not his primary
residence during Hurricane Katrina.




          Copyright 2009. The Advocate. Baton Rouge, LA. Reprinted with permission.



                                                                ppp

   Ryant Price pled guilty in U.S. District Court, New Orleans, LA, to committing theft of government
funds. Price applied for and received $105,000 in CDBG Disaster Recovery Assistance funds through the
Road Home program for hurricane-damaged residential property, but the damaged property was not his
primary residence during Hurricane Katrina.




(2010) The Times-Picayune Publishing Co. All rights reserved. Used with permission of the Times-Picayune.


                                                                ppp




                                                                                                 Chapter 6 - Disaster Relief Oversight
96
           Garrett Goodbee was charged in U.S. District Court, New Orleans, LA, with allegedly committing theft
       of government funds. Goodbee applied for and received $104,900 in CDBG Disaster Recovery Assistance
       funds through the Road Home program for hurricane-damaged residential property, but allegedly the
       damaged property was not his primary residence during Hurricane Katrina.

                                                         ppp

           William Turnage was charged in U.S. District Court, New Orleans, LA, with allegedly making a false
       statement to HUD. Turnage applied for and received $89,355 in CDBG Disaster Recovery Assistance
       funds through the Road Home program and $12,500 in FEMA disaster assistance for hurricane-damaged
       residential property, but allegedly the damaged property was not his primary residence during Hurricane
       Katrina.

                                                         ppp

           Joseph Recasner was sentenced in U.S. District Court, New Orleans, LA, to 5 months incarceration, 6
       months home confinement, and 3 years probation and ordered to pay the Louisiana Office of Community
       Development $87,424 in restitution for his earlier guilty plea to making a false statement to HUD. Recasner
       applied for and received $87,424 in CDBG Disaster Recovery Assistance funds through the Road Home
       program for hurricane-damaged residential property, but the damaged property was not his primary
       residence during Hurricane Katrina.

                                                         ppp

           Todd Northrop was sentenced in U.S. District Court, Gulfport, MS, to 10 months incarceration and 2
       years probation, ordered to perform 70 hours of community service and pay FEMA $21,756 in restitution,
       and fined $3,000 for his earlier guilty plea to committing mail fraud. Northrop applied for and received
       $21,756 in FEMA disaster assistance and attempted to obtain $81,133 in CDBG Disaster Recovery Assistance
       funds through the MDA for hurricane-damaged residential property, but the damaged property was not
       his primary residence during Hurricane Katrina.

                                                         ppp

           Charles Thonn was sentenced in U.S. District Court, New Orleans, LA, to 4 years probation, ordered to
       pay the Louisiana Office of Community Development $80,368 in restitution, and fined $3,000 for his earlier
       guilty plea to committing theft of government funds. Thonn applied for and received $80,368 in CDBG
       Disaster Recovery Assistance funds through the Road Home program for hurricane-damaged residential
       property, but the damaged property was not his primary residence during Hurricane Katrina.

                                                         ppp

           Gordon and Mary Guidry were each charged in U.S. District Court, Jackson, MS, with allegedly
       making false statements and committing theft of government funds. Gordon and Mary Guidry applied for
       and received $69,742 in CDBG Disaster Recovery Assistance funds through the MDA and $6,706 in FEMA
       disaster assistance for hurricane-damaged residential property, but allegedly the damaged property was
       not their primary residence during Hurricane Katrina.

                                                         ppp




     Chapter 6 - Disaster Relief Oversight
                                                                                                                   97
    Wayne Manning pled guilty in U.S. District Court, New Orleans, LA, to making false statements.
Manning applied for and received $64,877 in CDBG Disaster Recovery Assistance funds through the Road
Home program for hurricane-damaged residential property, but the damaged property was not his primary
residence during Hurricane Katrina.

                                                 ppp

    Sylvia Fleming was charged in U.S. District Court, Gulfport, MS, with allegedly committing theft of
government funds and making false statements and claims. Fleming applied for and received $60,074
in CDBG Disaster Recovery Assistance funds through the MDA and $26,200 in FEMA disaster assistance
for hurricane-damaged residential property, but allegedly the damaged property was not her primary
residence during Hurricane Katrina.

                                                 ppp

    Albert McCarty, Sr., pled guilty in U.S. District Court, New Orleans, LA, to committing theft of
government funds. McCarty applied for and received $56,000 in CDBG Disaster Recovery Assistance
funds through the Road Home program and $50,800 in SBA disaster assistance for hurricane-damaged
residential property, but the damaged property was not his primary residence during Hurricane Katrina.

                                                 ppp

   Anita Belaire was sentenced in U.S. District Court, Lake Charles, LA, to 1 day incarceration and 3
years probation and ordered to perform 100 hours of community service and pay the Louisiana Office of
Community Development $55,600 in restitution for her earlier guilty plea to committing theft of government
funds. Belaire applied for and received $55,600 in CDBG Disaster Recovery Assistance funds through the
Road Home program for property that does not exist.

                                     ppp

    Elizabeth Holiday pled guilty in U.S. District Court, New Orleans, LA, to
committing theft of government funds. Holiday applied for and received $54,566
in CDBG Disaster Recovery Assistance funds through the Road Home program
for hurricane-damaged residential property, but the damaged property was not
her primary residence during Hurricane Katrina.

                                     ppp

    Robert Kirkland was charged in U.S. District Court, Jackson, MS, with
allegedly making false statements and committing theft of government funds.
Kirkland applied for and received $55,515 in CDBG Disaster Recovery Assistance
funds through the MDA and $9,923 in FEMA disaster assistance for hurricane-
damaged residential property, but allegedly the damaged property was not his
primary residence during Hurricane Katrina.

                                     ppp


                                                                                     (2010) The Times-Picayune
                                                                                       Publishing Co. All rights
                                                                                            reserved. Used with
                                                                                               permission of the
                                                                                               Times-Picayune.

                                                                           Chapter 6 - Disaster Relief Oversight
98
           Tinika Ealy was sentenced in U.S. District Court, Baton Rouge, LA, to 3 years probation and fined
       $1,500 for her earlier guilty plea to committing wire fraud and accessory to commit wire fraud. Ealy
       applied for and received $50,000 in CDBG Disaster Recovery Assistance funds through the Road Home
       program, $94,000 in SBA disaster loan funds, and $4,469 in FEMA disaster assistance for hurricane-damaged
       business property she fraudulently claimed as her primary residence.

                                                        ppp

          Peter Weir was charged in U.S. District Court, Jackson, MS, with allegedly making false statements
       and committing theft of government funds. Weir applied for and received $41,797 in CDBG Disaster
       Recovery Assistance funds through the MDA and $26,200 in FEMA disaster assistance for hurricane-
       damaged residential property, but allegedly the damaged property was not his primary residence during
       Hurricane Katrina.

                                                        ppp

           Sharon Baker was charged in U.S. District Court, New Orleans, LA, with allegedly committing theft of
       government funds. Baker applied for and received $33,500 in CDBG Disaster Recovery Assistance funds
       through the Road Home program for hurricane-damaged residential property, but allegedly the damaged
       property was not her primary residence during Hurricane Katrina.

                                                        ppp

          Edward Toliver entered into a pretrial diversion filed in U.S. District Court, New Orleans, LA, and
       agreed to undergo 12 months supervised probation and perform 50 hours of community service. Toliver
       admittedly applied for and received $30,909 in CDBG Disaster Recovery Assistance funds through the
       Road Home program for hurricane-damaged residential property, but the damaged property was not his
       primary residence during Hurricane Katrina.

                                                        ppp

           Angelica and Carrie Williams were collectively sentenced in U.S. District Court, Baton Rouge, LA, to 6
       months home confinement and 10 years probation for their earlier guilty pleas to making false statements
       and claims or aiding and abetting. Angelica Williams applied for and received $28,966 in CDBG Disaster
       Recovery Assistance funds through the Road Home program for hurricane-damaged residential property,
       but Angelica Williams did not own the damaged property during Hurricane Katrina. Carrie Williams
       assisted Angelica Williams when she fraudulently claimed ownership of the hurricane-damaged property.

                                                        ppp

           Donelle Humphrey remitted $22,320 to the Louisiana Office of Community Development and was
       sentenced in U.S. District Court, New Orleans, LA, to 2 years probation and 6 months home confinement
       for her earlier guilty plea to making a false statement to HUD. Humphrey applied for and received $22,320
       in CDBG Disaster Recovery Assistance funds through the Road Home program for hurricane-damaged
       residential property, but the damaged property was not her primary residence during Hurricane Katrina.

       HUD and FEMA Disaster Housing Assistance Fraud
          George Kinsler III, the former housing and residential director for NOAH Development Corporation
       (NOAH), an organization that receives HUD housing assistance funds, and Sheneiris Harris, a former
       West Palm Beach Housing Authority Hurricane Wilma Disaster Housing Assistance program participant,



     Chapter 6 - Disaster Relief Oversight
                                                                                                                    99
were collectively sentenced in U.S. District Court, Pahokee, FL, to 31 months incarceration and 4 years
supervised release and ordered to pay HUD, FEMA, and NOAH $75,500 in restitution for their earlier
guilty pleas to making false statements and committing a conspiracy and theft from an organization
receiving Federal funds. Kinsler used his position and fraudulently provided NOAH housing assistance
to family members and friends, and Harris failed to report Kinsler’s residency in her subsidized housing
unit. Together, Kinsler and Harris obtained $22,882 in housing and $24,961 in FEMA and other assistance
they were not entitled to receive.

                                                  ppp

    Adrienne Breaux and Tamera King, Harris County Housing Authority (Harris County) Hurricane
Katrina Disaster Housing Assistance program participants, were each indicted in the U.S. or 338th District
Courts, Houston, TX, for allegedly making false statements and committing wire fraud, a conspiracy to
submit false claims, or theft. In addition, former Harris County Disaster Housing Assistance program
participant Odell Chambers was sentenced to 10 months incarceration and 3 years supervised release and
ordered to pay FEMA $30,766 in restitution for his earlier guilty plea to committing a conspiracy to make
false statements and claims and wire fraud. Breaux and King allegedly and Chambers admittedly used
the identities or Social Security numbers belonging to others and fraudulently applied for and collectively
obtained about $19,514 in housing and $92,890 in other disaster assistance.

                                                  ppp

    George Magee, a Housing Authority of New Orleans Section 8 tenant and Hurricane Katrina Disaster
Housing Assistance program participant, pled guilty in U.S. District Court, New Orleans, LA, to committing
theft of government funds and mail fraud. Magee submitted false documents and obtained $15,474 in
disaster housing assistance he was not entitled to receive.

                                                  ppp

    Urban Developers, LLC (Urban Developers), a New Britain Housing Authority (New Britain) landlord,
pled guilty in U.S. District Court, Hartford, CT, to committing theft and conversion of public money. From
December 2005 to November 2006, an agent for Urban Developers executed documents that enabled a New
Britain Section 8 tenant to fraudulently obtain $13,749 in Hurricane Katrina disaster housing assistance at
the same time she received New Britain Section 8 housing assistance.

                                                  ppp

    Christine Tate, a former New Britain Housing Authority Section 8 tenant, pled guilty in U.S. District
Court, Hartford, CT, to making false statements. From September 2005 to November 2006, Tate applied for
and received $3,742 in FEMA disaster assistance after she claimed Hurricane Katrina evacuee status, but
Tate resided in Connecticut or Alabama during the storm.

FEMA and Other Fraud by HUD Tenants
    Piquela Stelly, a former housing recipient at Wurzbach Manor Apartments (Wurzbach Manor), a HUD-
subsidized multifamily housing development, was indicted in U.S. District Court, San Antonio, TX, for
allegedly making false claims and committing theft of government funds. Stelly applied for and received
$71,525 in FEMA disaster assistance after she claimed Hurricane Rita evacuee status, but Stelly allegedly
maintained a subsidized housing lease at Wurzbach Manor during the storm.

                                                  ppp


                                                                            Chapter 6 - Disaster Relief Oversight
100
            Florence Randle, a Housing Authority of New Orleans Section 8 tenant, pled guilty in U.S. District
        Court, New Orleans, LA, to committing mail fraud. Randle fraudulently applied for and received $12,285
        in Red Cross disaster assistance funds.

                                                                      ppp

            Stacie Ellerson, an East Baton Rouge Housing Authority (East Baton Rouge) public housing tenant, was
        sentenced in U.S. District Court, Baton Rouge, LA, to 5 years probation and ordered to pay FEMA $2,373 for
        her earlier guilty plea to making false statements and claims and committing wire fraud. Ellerson applied
        for and received $2,373 in FEMA disaster assistance, after she claimed property damage, and Hurricane
        Katrina evacuee status, but East Baton Rouge suffered no storm damage, nor were tenants evacuated.

        Other Fraud
            Willie Smith, Derrick Beaulieu, and Shawnzell Venson were collectively sentenced in U.S. District Court,
        New Orleans, LA, to 48 months incarceration, 6 years supervised release, and 3 years probation; ordered
        to perform 100 hours of community service; and fined $5,000 for their earlier guilty pleas to committing
        a conspiracy to steal government funds or misprision of a felony. Smith, Beaulieu, Venson, and others
        attempted to divert $646,947 in Road Home CDBG Disaster Recovery Assistance funds into their personal
        bank accounts.




                (2010) The Times-Picayune Publishing Co. All rights reserved. Used with permission of the Times-Picayune.


                                                                      ppp




      Chapter 6 - Disaster Relief Oversight
                                                                                                                     101
    Robert Chiarappa, a former purchasing agent for the John Galt Corporation and Safeway Environmental,
organizations under contract with the Lower Manhattan Development Corporation (Lower Manhattan),
an organization that received HUD CDBG Disaster Recovery Assistance funds after the September 11, 2001,
terrorists attacks, was sentenced in New York County District Court, Manhattan, NY, to incarceration not
to exceed 7.5 years and was ordered to pay Lower Manhattan $511,000 in restitution for his earlier guilty
plea to committing grand larceny. From September 2006 to November 2007, Chiarappa instructed Lower
Manhattan vendors to submit fraudulent invoices for goods not delivered to the Deutsche Bank building
deconstruction site; approved and submitted the false invoices to Lower Manhattan; and obtained cash,
jewelry, and other personal use items in return.

                                                   ppp

    Darlene Poole, a Hurricane Katrina evacuee and housing assistance recipient through the Houston
Housing and Community Development, an organization that receives HUD HOME Investment Partnerships
funds, and Lashona Victor were collectively sentenced in U.S. District Court, Houston, TX, to 9 months
and 1 day incarceration and ordered to jointly pay FEMA $14,215 in restitution for their earlier guilty
pleas to committing a conspiracy to commit mail and wire fraud. Poole applied for and received $13,000
in HUD funds to purchase a residential property, but after acquiring the property, Poole fraudulently
obtained FEMA disaster housing assistance after she and Victor created and submitted false documents
that declared Victor as the property owner.

                                                   ppp

    Bernard McCann, also known as Bernard Mitchell, Bernard Marshall, or Johnny Jordan, was sentenced
in Cook County Circuit Court, Chicago, IL, to 18 months probation and ordered to pay several victims
$11,700 in restitution for his earlier guilty plea to committing theft. McCann posed as a Chicago Housing
Authority employee and police officer from the Cook County Sheriff’s Office, fraudulently sold fake
Hurricane Katrina Section 8 vouchers, and collected $11,700 from a number of victims.

                                                   ppp

    Andre Milton was sentenced in U.S. District Court, Phoenix, AZ, to 3 years probation and ordered
to collectively pay FEMA, the American Red Cross, and the Arizona Department of Housing $4,616 in
restitution for his earlier guilty plea to committing theft of government funds. Milton applied for and
received $4,616 in disaster assistance after he claimed to be a Hurricane Katrina evacuee, but Milton resided
in Arizona during the storm.

                                                   ppp




                                                                             Chapter 6 - Disaster Relief Oversight
102
        Inspections and Evaluations
        Inspection of the State of Louisiana’s Road Home Elevation
        Incentive Program Homeowner Compliance
            HUD OIG completed an inspection of the State of Louisiana’s (State)
        Road Home Elevation Incentive (elevation grant) program funded by
        HUD CDBG Disaster Recovery Assistance funds to determine whether
        homeowners used the funds to elevate their homes as set forth in their
        grant agreements. The inspection covered 199 (about 10 percent) of the
        1,906 property owners who received more than $44.4 million in elevation
        grants during the first round of State funding in 2006 and 2007.

             Inspection results strongly suggest that the elevation grant program is
        at risk and could fail to achieve its intended goal of reducing homeowner
        flood risks from future hurricanes. Most homeowners had not elevated
        their homes, although they received grants of up to $30,000 in 2006 and
        2007 to pay toward the construction costs. Seventy-nine percent of
        the homes inspected (158 of 199 properties) were not elevated. These
        noncompliant homeowners received grant funds exceeding $3.8 million.
        More than 29,000 homeowners have now received taxpayer-funded checks
        totaling $845 million to leverage the cost of elevating their properties.

            OIG recommended that HUD require the State to (1) coordinate efforts
        with HUD to address and reduce the incidence of noncompliance in the
        Road Home Elevation Incentive program, (2) ensure that monitoring of
        the elevation grants provides adequate coverage to specifically identify
        compliant and noncompliant recipients, (3) identify and advise all
        elevation grant recipients who have yet to meet the terms of their grant
        agreements of their obligation to either elevate the subject property or
        return the elevation grant funds to the State, and (4) enforce the program
        remedies for noncompliance as set out in the elevation grant agreements
        starting with recovery, where warranted, of the $3.8 million in grant funds
        from the 158 noncompliant homeowners in our sample. OIG plans to
        revisit the elevation grant program at a future date to review the level
        of the State’s success in reducing noncompliance, achieving intended
        program goals, and enforcing funds recovery. (I&E Report: IED09 002)

                                                            ppp                        (2010) The Times-Picayune Publishing
                                                                                           Co. All rights reserved. Used with
                                                                                           permission of the Times-Picayune.




      Chapter 6 - Disaster Relief Oversight
       Chapter 7
Other Significant Audits
  and Investigations/
      OIG Hotline
104
            In addition to the audits and investigations described in this chapter, the U.S. Department of Housing
        and Urban Development (HUD), Office of Inspector General (OIG), has conducted numerous outreach
        efforts (see chapter 8, page 124).



        Audit
                     Strategic Initiative 4: Contribute to improving HUD’s execution
                         and accountability of fiscal responsibilities as a relevant
                      and problem-solving advisor to the Department’s execution
          Key program results                                  Questioned costs                   Funds put to better use
                Audit                  9 audits*                         ---                            $522 million
                 Our                   Page 104          •	 Audit of HUD’s financial statements
                focus                  Page 104          •	 FHA financial statements
                                       Page 105          •	 Audit of the Government National Mortgage Association’s
                               			                          financial statements
                                Page 105                 •	 Evaluation of HUD’s implementation of the Federal
                               			                          Information Security Management Act of 2002
                                Page 105                 •	 Evaluation of Ginne Mae’s controls over information
                                                            technology

        * The total “other” audits include American Recovery and Reinvestment Act of 2009 (four audits) type audits conducted in
        other areas. The writeups for these audits are shown separately in chapter 5 of this semiannual report.


        Audit of HUD’s Financial Statements
            HUD OIG provided additional details to supplement the report on HUD’s fiscal years 2009 and 2008
        financial statements, which is included in HUD’s Fiscal Year 2009 Performance and Accountability Report.

            Based on the audit and the reports of other auditors, the financial statements were presented fairly, in
        all material respects, in conformity with accounting principles generally accepted in the United States of
        America. The report identified 11 significant weaknesses and 4 instances of noncompliance with applicable
        laws and regulations. It discussed each of these conditions in detail, provided an assessment of actions
        taken by HUD to mitigate the deficiencies noted, and made recommendations for corrective actions. (Audit
        Report: 2010-FO-0003)

        FHA Financial Statements
          Urbach Kahn and Werlin LLP, audited the fiscal years 2009 and 2008 financial statements of the Federal
        Housing Administration (FHA).

            The report included an unqualified opinion on FHA’s financial statements. It contained four significant
        deficiencies in FHA’s internal controls and one reportable instance of noncompliance with laws and
        regulations. The report contained 15 new recommendations. It discussed the issues/conditions in detail,
        provided an assessment of management’s responses to the report, and made recommendations for corrective
        actions. (Audit Report: 2010-FO-0002)


      Chapter 7 - Significant Audits and Investigations/OIG Hotline
                                                                                                                   105
Audit of the Government National Mortgage Association’s
Financial Statements
   Carmichael, Brasher, Tuvell, and Company (CBTC) audited the Government National Mortgage
Association’s (Ginnie Mae) financial statements for the fiscal years ending September 30, 2009 and 2008.

     In CBTC’s opinion, the financial statements presented fairly, in all material respects, Ginnie Mae’s
financial position as of September 30, 2009, and September 30, 2008, and the results of its operations and
its cash flows for the years then ended in conformity with accounting principles generally accepted in the
United States of America.

    The report identified one significant deficiency on internal control, which was a repeat finding from
last fiscal year and one reportable instance of noncompliance with laws, regulations, and government-wide
policies. It discussed the issues/conditions in detail, provided an assessment of management’s responses
to the report, and made recommendations for corrective actions. (Audit Report: 2010-FO-0001)

Evaluation of HUD’s Implementation of the Federal Information
Security Management Act of 2002
(Report Not Available to the Public)

    HUD OIG audited HUD’s information security program and practices in accordance with requirements
of the Federal Information Security Management Act of 2002. OIG has determined that the results of this
audit would not be appropriate for public disclosure and has, therefore, limited distribution to selected
officials. (Audit Report: 2010-DP-0802)

Evaluation of Ginne Mae’s Controls Over Information Technology
(Redacted Report Available to the Public)

    HUD OIG audited Ginnie Mae’s controls over its information technology (IT) resources. OIG assessed
whether Ginnie Mae’s management of its information systems complied with HUD IT policies and Federal
information system security requirements. The audit was performed in support of OIG’s annual financial
statement audit of Ginnie Mae and its annual evaluation of HUD’s information system security program
within the context of the Federal Information Security Management Act.

   OIG has determined that the full contents of this report would not be appropriate for public disclosure
and released a redacted version to the public. (Audit Report: 2010-DP-0001)

                                                 ppp




                                                   Chapter 7 - Significant Audits and Investigations/OIG Hotline
106
        Investigations
                     Strategic Initiative 4: Contribute to improving HUD’s execution
                         and accountability of fiscal responsibilities as a relevant
                      and problem-solving advisor to the Department’s execution

             Key program                 Cases                    $         Convictions/pleas/           Admin/civil
               results                   closed               recovered          pretrials                 actions

            Investigations                 32                   $38,642                 9                       9



            HUD field office director Michael Colon was arrested after his indictment in U.S. District Court, San
        Juan, PR, for allegedly committing theft of government funds and wire fraud and submitting false time
        and attendance records. From December 2008 to February 2010, Colon allegedly failed to work the hours
        he claimed on his time and attendance reports. HUD losses are estimated at $65,979.

                                                             ppp

            Herman Ransom, a former director for the HUD Office of Multifamily
        Housing, was convicted in U.S. District Court, Kansas City, KS, of committing
        theft of government funds and wire fraud. From September 2001 to June
        2007, Ransom played tennis or gambled at local casinos during work hours.
        HUD realized losses of $46,926.

                                             ppp




                                                                                            Copyright 2010. The Kansas City
                                                                                            Star. Kansas City, MO. Reprinted
                                                                                                             with permission.




      Chapter 7 - Significant Audits and Investigations/OIG Hotline
                                                                                                                     107
OIG Hotline
    The HUD OIG hotline is operational 5 days a week, Monday through Friday, from 10:00 a.m. to 4:30
p.m. The hotline is staffed by nine full-time OIG employees, who take allegations of waste, fraud, abuse,
or serious mismanagement in HUD or HUD-funded programs from HUD employees, contractors, and the
public. The hotline also coordinates reviews with internal audit and investigative units or HUD program
offices.

    During this reporting period, the hotline received and processed 9,324 complaints -- 75 percent (6,962)
received by telephone, 10 percent (976) by mail, and 15 percent (1,385) by e-mail. Every allegation received
by the hotline is logged into a database and tracked.

   Of the complaints received, 534 were related to the mission of OIG and addressed as hotline cases.
Hotline cases are referred to OIG’s Offices of Audit and Investigation or to HUD program offices for action
and response. The following illustration shows the distribution of hotline case referrals by percentage.


                     Chart 7.1: Hotline cases opened by program area




                                                                            Public and Indian housing, 41%
                                                                            Multifamily housing, 11%
                                                                            Community planning and
                                                                            development, 4%
                                                                            OIG audit and investigation, 30%
                                                                            Single-family housing, 4%
                                                                            Other, 10%




    The hotline closed 291 cases this reporting period. The closed hotline cases included 40 substantiated
allegations. The substantiated allegations resulted in three administrative sanctions, including action taken
against a tenant for failing to report all income and allowing unauthorized live-ins to reside in her HUD-
subsidized residence. The Department also took 28 corrective actions that resulted in $75,082 in recoveries
of losses and $363,780 in HUD funding that could be put to better use. The recoveries included repayments
of overpaid rental subsidies. Some of the funds that could be put to better use were the result of cases
in which tenants were terminated from public housing or multifamily housing programs for improperly
reporting their income or family composition to qualify for rental assistance.




                                                     Chapter 7 - Significant Audits and Investigations/OIG Hotline
108
                            Chart 7.2: Hotline dollar impact from program offices


                                           $261,864


               $300,000

               $240,000

               $180,000

               $120,000
                                                                               $101,916
                                                       $53,496                            $21,586
                 $60,000

                      $0

                                 Public and Indian housing               Multifamily housing


                                        Funds put to better use       Recoveries




                                                              ppp




      Chapter 7 - Significant Audits and Investigations/OIG Hotline
Chapter 8
Outreach
 Efforts
110
            To foster cooperative, informative, and mutually beneficial relationships with agencies and organizations
        assisting the U.S. Department of Housing and Urban Development (HUD) in accomplishing its mission,
        the Office of Inspector General (OIG) participates in special outreach efforts. The outreach efforts described
        below complement routine coordination with Federal, State, and local law enforcement agencies, various
        congressional committees or subcommittees, and other OIGs. During outreach efforts, OIG personnel
        present information about HUD OIG’s role and function, provide audit and investigative results, and discuss
        desired goals and objectives.

        Single-Family Housing Programs
             Inspector General Kenneth Donohue,
        Deputy Inspector General Michael Stevens, and
        Assistant Inspector General for Investigation
        John McCarty participated in mortgage fraud
        summits held in Miami, FL, and Phoenix,
        AZ. These regional mortgage fraud summits,
        sponsored by the U.S. Department of Justice
        Financial Fraud Enforcement Task Force, were
        held to highlight the nature of mortgage fraud
        and raise the profile of the Financial Fraud
        Enforcement Task Force, to assess mortgage
        fraud and emerging trends in different areas
        of the country, and to coordinate and motivate
        law enforcement efforts. Each summit included             IG Donohue speaks at the Financial Fraud Enforcement Task Force
        morning sessions open to the general public                                    Mortgage Fraud Summit held in Miami, FL
        and afternoon sessions for law enforcement
        personnel. Attorney General Eric Holder spoke
        at a press conference following the Phoenix, AZ,
        general public session.

                                                           ppp

            Deputy Assistant Inspector General for Investigation Ruth Ritzema provided an overview of nationwide
        fraud preventative measures as a panelist during a New York Foreclosure Summit in Manhattan, NY.
        Approximately 200 individuals representing financial institutions and State and local government agencies
        attended the Summit, which was sponsored by HUD and the U.S. Department of the Treasury.

                                                           ppp

            Special Agent in Charge (SAC) Barry McLaughlin and Federal Housing Administration (FHA), Office of
        Business Development, Account Liaison Kitty Watkins provided an overview of recent changes in the FHA
        regulations and requirements for Illinois Mortgage Fraud Working Group members meeting in Chicago,
        IL. Approximately 45 mortgage industry personnel and State and local officials attended.

                                                           ppp

           SAC Wayne North and Assistant Special Agent in Charge (ASAC) James Siwek provided an overview
        of HUD OIG’s mission and function and described investigative priorities relating to mortgage fraud,
        FHA, and public housing programs at a meeting at the office of U.S. Senator Patty Murray in Seattle, WA.
        Approximately eight congressional staff members attended.

                                                           ppp

      Chapter 8 - Outreach Efforts
                                                                                                                   111
    SAC Barry McLaughlin, Regional Inspector General for Audit (RIGA) Heath Wolfe, and Federal Bureau
of Investigation (FBI) Supervisory Special Agent Paul Holdeman provided an overview of the roles and
responsibilities of the HUD OIG Offices of Investigation and Audit and described “red flag” fraud indicators
and civil enforcement initiatives at an Illinois Mortgage Bankers Association fraud conference in Rolling
Meadows, IL. Approximately 50 individuals attended.

                                                  ppp

    SAC Rene Febles and Special Agent (SA) Martin Sullivan provided an overview of HUD OIG initiatives
and described mortgage fraud detection methods for individuals attending a HUD-sponsored Real Estate
Settlement Procedures Act training seminar in Manhattan, NY. Approximately 100 mortgage industry
personnel attended.

                                                  ppp

    SAC Ken Taylor, Jr., provided an overview of HUD OIG’s mission and function and described investigative
priorities relating to FHA-insured mortgages and grants as a panelist during a winter symposium for Property
Records Industry Association members meeting in Washington, DC. At the conclusion, a question and
answer forum was held for approximately 50 members in attendance.

                                                  ppp

   SAC Barry McLaughlin and RIGA Heath Wolfe provided an overview of the Home Equity Conversion
Mortgage (HECM) and FHA insurance programs and described fraud schemes, audit expectations, and
OIG’s affirmative civil enforcement actions for Northeast Indiana Mortgage Bankers Association members
meeting in Fort Wayne, IN. Approximately 60 individuals attended.

                                                  ppp

    SAC Michael Powell, ASAC Cortez Richardson, and SA Jerome Winkle provided an overview of HUD
OIG’s role and responsibilities relating to mortgage fraud investigations for members of a mortgage fraud
working group meeting in Augusta, GA. More than 20 mortgage industry professionals and Federal and
State banking, real estate, and law enforcement personnel attended.

                                                  ppp

    SAC Barry McLaughlin and RIGA Heath Wolfe provided an overview of the HUD HECM and FHA
insurance programs and described American Recovery and Reinvestment Act of 2009 (ARRA) reporting
requirements and fraud schemes, OIG’s affirmative civil enforcement actions, and OIG audit expectations
at a luncheon for members of the Three Rivers Association of Realtors in Joliet, IL. Approximately 75 real
estate professionals and others attended.

                                                  ppp

    RIGA Joan Hobbs and Supervisory Forensic Auditor (SFA) Tony Putzulu spoke to about 40 assistant
U.S. attorneys (AUSA) attending mortgage fraud civil remedies training in Los Angeles, CA. RIGA Hobbs
provided an overview of OIG, and SFA Putzulu gave a presentation on FHA mortgage fraud. Also attending
were the HUD OIG forensic audit staff in Los Angeles and two special agents. At the conclusion of the
training, OIG staff met with civil AUSAs from four districts in California and the Nevada district.

                                                  ppp



                                                                                    Chapter 8 - Outreach Efforts
112
            A S A C Wa l l a c e M e r r i m a n ,
        N e i g h b o r Wo r k s ® A m e r i c a C h i e f
        Operating Officer Eileen Fitzgerald,
        FBI Assistant Director Kevin Perkins,
        Assistant State Attorney April Richardson,
        and U.S. Senator Barbara Mikulski were
        guest speakers at a “Loan Modification
        Scam Alert” campaign at the Seat Pleasant
        Activities Center in Seat Pleasant,
        MD. This public education event was
        designed to help homeowners protect
        themselves against loan modification
        scams, find trusted help, and report illegal
        activities. Approximately 80 State, local,
        and national governmental agencies,
        nonprofit organizations, and financial 										  ASAC Wallace Merriman addresses community leaders.
        institution representatives attended.

                                                         ppp

            ASACs Michael Catinella and Eric Bizjak and Assistant Regional Inspector General for Audit (ARIGA)
        Ronald Farrell provided an overview of HUD OIG’s mission, goals, and priorities; explained the functions
        of the Offices of Audit and Investigation; and described current mortgage fraud trends at a meeting for
        members of the Ohio Land Title Association in Columbus, OH. Approximately 40 individuals attended.

                                                         ppp

            ASACs Ray Espinosa and Brad Geary provided an overview of deed forgery and the effects on financial
        institutions and illustrated a recent investigation for Financial Institution Group members meeting in
        Chicago, IL. Approximately 20 financial institution security and loss prevention and Federal and local law
        enforcement personnel attended.

                                                         ppp

            ASAC Lisa Gore and HUD Attorney Thomas Derryberry provided an overview of HUD and HUD OIG’s
        mission and goals and described the Real Estate Settlement Procedures Act final rule implementation, fraud
        schemes, and criminal issues and complaints at the Tennessee Land Title Association regional conference
        in Nashville, TN. Approximately 50 industry professionals attended.

                                                         ppp

           ASAC Wallace Merriman provided an overview of HUD OIG’s mission and described predatory lending,
        property flipping, equity skimming, and appraisal and HECM program fraud as a panelist during a “Law
        Enforcement Best Practices and New Scams” forum in Baltimore, MD. Approximately 80 State, local, and
        nonprofit representatives attended the forum, which was sponsored by the Federal Reserve Bank.

                                                         ppp

           ASAC Suzanne Steigerwald and SA John Raney provided an overview of HUD OIG’s mission and role
        and described reverse mortgage fraud schemes and “red flag” indicators during a training session, entitled




      Chapter 8 - Outreach Efforts
                                                                                                                   113
“Consumer University,” in Denver, CO. Approximately 50 individuals attended the training session, which
was sponsored by AARP, the Colorado Better Business Bureau, and the Colorado Attorney Generals’ Office.

                                                  ppp

    ASAC Brad Geary and Assistant U.S. Trustee Sandra Rasnak provided an overview of mortgage fraud
trends involving property flipping and deed theft schemes, explained common Federal statutes involving
mortgage fraud and the role of bankruptcy courts, and described current enforcement efforts at an annual
meeting of Wisconsin Chapter 7 Bankruptcy Trustees in Milwaukee, WI. Approximately 25 trustees attended.

                                                  ppp

    ASAC Kevin Chan, SA Michael Granatstein, and HUD FHA employee Migdalia Murati provided
an overview of the FHA program, described OIG’s authority and process for selecting and conducting
investigations, and explained the benefits of forming partnerships to address mortgage fraud at a convention
of Exit Association of Mortgage Brokers members in New Hyde Park, NY. Approximately 100 mortgage
brokers and other financial institution representatives attended.

                                                  ppp

    ASAC Michael Wixted, ARIGA Kevin Smullen, SA Brian Gosselin, and AUSA Michael Drescher provided
an overview of HUD OIG’s mission and described the FHA and HECM programs and fraud vulnerabilities
at a meeting of members of the Vermont Mortgage Bankers Association in Burlington, VT. Approximately
86 members attended.

                                                  ppp

    ASAC James Luu provided an overview of HUD OIG’s mission and role in mortgage fraud at a “Faith in
Action” town hall meeting held in Bakersfield, CA, to address foreclosure rescue scams and loan modification
fraud. Approximately 230 community members, housing counselors, and Federal and local officials attended.

                                                  ppp

    ASAC Cortez Richardson and SAs Shelly Mack, Gustaveous Madden, and Tyrone Hardy provided an
overview of HUD OIG’s mission and involvement with ARRA and described fraud vulnerabilities in the
HECM program at a Georgia Real Estate Fraud Prevention and Awareness Coalition meeting in Atlanta,
GA. At the conclusion, a question and answer forum was held for 50 mortgage industry professionals in
attendance.

                                                  ppp

    ASAC Kris Kanakares provided an overview of HUD OIG’s mission and funding provided by
ARRA; described a number of mortgage fraud schemes; and illustrated fraud prevention, detection, and
enforcement methods used to successfully prosecute mortgage fraud investigations at the 2009 Mid-America
Intergovernmental Audit Forum in Kansas City, MO. At the conclusion, a question and answer forum was
held for approximately 50 individuals in attendance.

                                                  ppp

   ASAC Edwin Bonano and SAs José Laureano and Hector Mercado provided a presentation, entitled
“FHA and HECM Mortgage Fraud: The Jurisdiction and Investigative Role of HUD OIG,” and described



                                                                                    Chapter 8 - Outreach Efforts
114
        HUD OIG’s mission and priorities, common mortgage fraud schemes and indicators, and Federal criminal
        statutes at a training seminar for Banco Santander employees in San Juan, PR. Approximately 50 mortgage
        and compliance division employees and executives attended.

                                                          ppp

            ASAC Lisa Gore, SAs Jeffrey Monnin and Keith Benderoth, and HUD Attorney Robert Kuhnle provided
        an overview of HUD and HUD OIG’s mission and goals and described the Real Estate Settlement Procedures
        Act final rule implementation, criminal issues, and common fraud schemes for Kentucky Department of
        Financial Institutions employees meeting in Louisville, KY. Approximately 20 staff members attended.

                                                          ppp

            ASAC Wallace Merriman provided an overview of HUD OIG’s mission and described predatory lending,
        property flipping, equity skimming, appraisal fraud, and potential HECM program fraud as a panelist
        during a “Law Enforcement Best Practices and New Scams” seminar sponsored by the Maryland Housing
        Counselors Network in Prince Georges County, MD. Approximately 40 individuals representing State and
        local governments and nonprofit agencies attended.

                                                          ppp

             ASACs Ray Espinosa and Brad Geary provided an overview of the emerging trends at HUD and
        described FHA and HECM loans, the Neighborhood Stabilization Program (NSP), and OIG initiatives to
        ensure the integrity of these programs at a meeting of Lifelong Learning Institute members at Northern
        Illinois University in Dekalb, IL. Approximately 15 individuals attended.

                                                          ppp

            ASAC Lisa Gore provided an overview of HUD OIG’s mission and goals, described the functions of the
        Offices of Investigation and Audit, discussed potential criminal issues and common fraud schemes associated
        with HUD programs, and participated in a panel discussion at a Property Records Industry Association
        conference in Nashville, TN. Approximately 60 mortgage industry professionals attended.

                                                          ppp

           ASAC Nadine Gurley provided an overview of HUD OIG and mortgage fraud investigations for
        members of the Alabama Association of Certified Fraud Examiners meeting in Birmingham, AL. More
        than 40 financial, insurance, and other industry professionals attended.

                                                          ppp

           SA Timothy Lishner provided an overview of HUD OIG’s mission and role and described single-family
        housing fraud schemes at a “Housing Summit” sponsored by Congresswoman Betsy Markey in Fort Collins,
        CO. Approximately 50 home buyers and mortgage industry professionals attended.

                                                          ppp

            SA José Laureano provided an overview of HUD OIG’s mission, jurisdiction, and role in FHA mortgage
        fraud investigations during a consumer financial education fair sponsored by the Puerto Rico Office of the
        Commissioner for Financial Institutions in San Juan, PR. About 25 individuals attended.

                                                          ppp


      Chapter 8 - Outreach Efforts
                                                                                                                 115
    SA James Carrieres provided an overview of HUD OIG’s mission and described successful Arizona
mortgage fraud investigations at a meeting of Keller Williams Realty staff in Tempe, AZ. Approximately
50 real estate agents attended.

                                                 ppp

    SA DeChantel Bahr provided an overview of HUD programs and described mortgage rescue fraud
schemes and the availability of foreclosure assistance for residents attending an “open house” sponsored
by the DC Metropolitan Police Department in Washington, DC. More than 250 local residents, community
leaders and organizations, Federal law enforcement representatives, and others attended.

                                                 ppp

    SA José Laureano provided a presentation, entitled “Jurisdiction and the Investigative Role of HUD
OIG in Mortgage Fraud Cases”; described HUD OIG’s mission and priorities; and illustrated common FHA
mortgage fraud indicators and schemes at a training session for First Bank employees in San Juan, PR.
Approximately 60 loan originators, compliance and collection officers, fraud investigators, and executive
staff attended.

                                                 ppp

   SA Samuel Ortiz-Diaz provided an overview of HUD OIG’s mission and priorities and described
OIG’s role in mortgage fraud investigations at a Bank Secrecy Act conference in Springfield, MA. At the
conclusion, a question and answer forum was held for approximately 35 financial institution and legal and
law enforcement personnel in attendance.

                                                 ppp

    SAs Patrick Fox and Matthew Nutt and U.S. Secret Service SA Marisella Shaw provided an overview of
current mortgage fraud schemes for State Farm Insurance personnel meeting in Livonia, MI. Approximately
50 insurance investigators and claim representatives attended.

                                                 ppp

   SA Michael Weinstein provided an overview of HUD OIG’s mission and programs and described the
value of FHA mortgage activity reports for individuals attending a Maryland Association for Bank Security
meeting in Baltimore, MD. Approximately 30 financial institution and Federal, State, and local government
representatives attended.

                                                 ppp

   SA José Laureano provided an overview of HUD OIG’s mission and role in FHA mortgage fraud and
described mortgage fraud detection and prevention strategies for members of the Puerto Rico Mortgage
Loan Officers Association meeting in San Juan, PR. More than 60 members attended.

                                                 ppp

   SA Timothy Lishner provided an overview of HUD OIG’s mission and role in FHA mortgage fraud
and described mortgage fraud detection and prevention strategies for members of the Northern Colorado
Association of Real Estate Appraisers meeting in Northglenn, CO. More than 60 members attended.

                                                 ppp


                                                                                  Chapter 8 - Outreach Efforts
116
             RIGA Heath Wolfe provided a presentation to the Mid-America Intergovernmental Audit Forum’s
        winter meeting in Kansas City, MO, entitled “Auditors Pursuing Civil Fraud Through Affirmative Civil
        Enforcement Actions.” The presentation included an overview of OIG’s mission and the Office of Audit’s
        affirmative civil enforcement initiative. Approximately 60 individuals attended

                                                         ppp

             RIGA Joan Hobbs and Assistant Inspector General for Audit (AIGA) James Heist spoke to about 40
        Pacific Island auditors at the Western Intergovernmental Audit Forum Conference in Honolulu, HI. RIGA
        Hobbs spoke on the topic of mortgage fraud, and AIGA Heist spoke on ARRA, how HUD has implemented
        it, and how HUD OIG is auditing the funds.

                                                         ppp

            RIGA Joan Hobbs and AIGA James Heist spoke to about 350 attendees at the joint conference of the
        Association of Government Accountants/Association of Military Comptrollers in Honolulu, HI. The topic
        of their presentation was the mortgage fraud crisis and what HUD and FHA are doing to help the public.

        Public Housing and Rental Assistance Programs
           SAC Phyllis Robinson and ASAC Gene Westerlind provided an overview of HUD OIG’s mission and
        authority and described OIG’s relation to HUD programs at a “HUD Strategic Planning and Regional
        Feedback” session in St. Louis, MO. At the conclusion, a question and answer forum was held for 60
        housing professionals and HUD staff in attendance.

                                                         ppp

           SAC Herschell Harvell, ASAC Michael Wilson, and SA Gary Haley provided an overview of HUD
        OIG’s mission and structure; described and illustrated tenant, landlord, and multifamily Section 8 fraud;
        explained FHA-insured mortgages; and offered information relating to NSP and ARRA at an Arkansas
        National Association of Housing and Redevelopment Officials (NAHRO) meeting in Little Rock, AR.
        Approximately 100 housing officials attended.

                                                         ppp

            SAC Kenneth Taylor, Jr., ASAC Kevin McBride, and SA Kylan Dunn provided an overview of HUD
        OIG’s mission and goals and described housing assistance program fraud and avenues available to report
        fraudulent activities during a meeting of Prince Georges County Housing Authority landlords in Largo,
        MD. Approximately 30 landlords attended.

                                                         ppp

            SAC George Dobrovic provided an overview of HUD OIG’s mission, goals, and priorities and discussed
        HUD OIG initiatives and the support available to help provide safe environments for subsidized housing
        residents at a meeting of Cuyahoga, Summit, Youngstown, and Lorain police departments and housing
        authority personnel in Cleveland, OH. Approximately 30 housing authority and law enforcement
        representatives attended.

                                                         ppp




      Chapter 8 - Outreach Efforts
                                                                                                                   117
    Michael Beard, Director, Technical Oversight and Planning Division, gave a presentation, entitled “How
to Prepare for an OIG Audit,” at the 33rd Annual Housing Choice Voucher Conference in Washington, DC.
Quadel Consulting sponsored the training event. More than 60 individuals from State and local housing
agencies attended.

                                                  ppp

   Frank Rokosz, Assistant Director, Technical Oversight and Planning Division, participated in a panel
presentation at the National Leased Housing Association’s fall seminar on Asset Management, Occupancy,
and Preservation of Section 8 Projects in Washington, DC. The panel discussed the topic, “How to Survey
an OIG Audit or a Referral to the DEC [Departmental Enforcement Center].” The panel included Henry
Czauski, Deputy Director of the Departmental Enforcement Center; Lisa Tunick, an attorney with Hessel,
Aluise, and Neun; and George Wiedenfeller, an attorney with Goulston and Storrs. More than 120 owners,
managers, and consultants attended.

                                                  ppp

   RIGA Heath Wolfe and ASAC Michael Catinella provided an overview of HUD OIG’s mission, goals,
and priorities; explained the functions of the Offices of Audit and Investigation; and described common
audit findings in nonprofit activities, the Office of Audit’s affirmative civil enforcement initiative, the
accountability and reporting requirements for capital funding through ARRA, and the Section 8 and housing
voucher programs for Michigan Housing Director’s Association members meeting on Mackinac Island,
MI. Approximately 70 individuals attended.

                                                  ppp

    ASAC Edwin Bonano provided an overview of HUD OIG’s mission and described various housing
fraud schemes at a HUD-sponsored workshop for Miami-Dade County Commissioners in Miami, FL. At
the conclusion, a question and answer forum was held for approximately 30 commissioners and Miami-
Dade County residents in attendance.

                                                  ppp

    ASAC Lou Mancini provided an overview of HUD OIG’s mission and structure; described tenant,
landlord, and multifamily Section 8 fraud indicators and presented fraud scenarios; and explained FHA-
insured mortgages and community planning and development programs, including NSP and homeless and
Emergency Shelter Grant programs at the New York State Division of Housing and Community Renewal
Section 8 conference in Syracuse, NY. Approximately 120 individuals attended.

                                                  ppp

    ASAC Gene Westerlind and SA Greg Moyer provided an overview of HUD OIG’s mission and described
various housing fraud schemes, NSP, and ARRA for Section 8 landlords meeting at the Wichita Housing
Authority in Wichita, KS. At the conclusion, a question and answer forum was held for approximately 80
landlords and housing officials in attendance.

                                                  ppp

   ARIGA Kim Randall and SAs Karen Gleich and Paul Pace provided an overview of HUD OIG’s mission
and the funding provided by ARRA; described the functions of OIG’s Offices of Audit and Investigation; and




                                                                                    Chapter 8 - Outreach Efforts
118
        illustrated fraud prevention, detection, and enforcement methods used to successfully prosecute housing
        investigations at the Kansas NAHRO conference in Lawrence, KS. Approximately 60 housing officials
        attended.

                                                         ppp

            SA Victoria Marquez and Austin Housing Authority senior rental integrity coordinator Chress Rocha
        conducted a panel discussion, entitled “Combating Tenant Fraud From a Housing Authority and HUD
        OIG’s Prospective,” at the 2009 Texas NAHRO conference in San Marcos, TX. Approximately 450 housing
        officials attended.

                                                         ppp

            SA Scott Savedow, Palm Beach County Sheriff detective Michael Leatherman, and Palm Beach County
        Housing Authority General Counsel Jennifer Cuhna moderated a discussion forum, entitled “Convictions
        for Tenant Fraud,” at the Housing and Development Law Institute general counsel forum in Tampa, FL.
        Approximately 25 general counsel representatives attended.

                                                         ppp

            SA Jeffery Monnin provided an overview of HUD OIG’s mission and goals and described public housing
        fraud schemes and the criminal referral process at the Kentucky Housing Executives Association conference
        in Lexington, KY. Approximately 40 executive directors attended.

                                                         ppp

            SA Ronnyne Bannister provided an overview of HUD OIG’s mission, priorities, and subsidized housing
        programs during a panel discussion for residents of Gateway Village Apartments, a HUD-subsidized elderly
        housing development in Capitol Heights, MD. At the conclusion, a question and answer forum was held
        for about 45 tenants in attendance.

                                                         ppp

           SA Angela Stewart provided an overview of HUD OIG’s mission and described criminal and civil fraud
        schemes and prosecutorial results involving HUD housing assistance programs at a meeting of Fort Walton
        Beach Housing Authority landlords in Fort Walton Beach, FL. Approximately 18 landlords attended.

                                                         ppp

           SA Gregory Williams provided an overview of HUD OIG’s mission, role, and priorities and described the
        process for detecting, preventing, and reporting fraud at a meeting in Gardner, MA, for staff members from
        RCAP Solutions, a nonprofit organization that administers a number of HUD-funded housing programs.
        Approximately 23 staff members attended.

                                                         ppp

            SA Stephen Tufts provided an overview of HUD OIG’s mission and role in detecting and investigating
        waste, fraud, and abuse in HUD programs for Maine Department of Health and Human Services employees
        meeting in Augusta, ME. At the conclusion, a question and answer forum was held for about 20 individuals
        in attendance.

                                                         ppp


      Chapter 8 - Outreach Efforts
                                                                                                                  119
    SA Ronnyne Bannister provided an overview of HUD OIG’s mission and priorities and described
HUD-subsidized housing and the real estate-owned program during a community meeting for residents
of Hillside and Capitol Heights, MD. At the conclusion, a question and answer forum was held for about
25 residents in attendance.

                                                 ppp

   RIGA John Buck and SAC Joseph Clarke were guest speakers at the Pennsylvania Association of Housing
and Redevelopment Agencies (PAHRA) annual conference in Harrisburg, PA. PAHRA is an affiliation of
Pennsylvania’s housing authorities, redevelopment authorities, community development agencies, and
nonprofit corporations. RIGA Buck and SAC Clarke presented an overview of HUD OIG’s mission and goals
and the functions of the Offices of Audit and Investigation. RIGA Buck presented information on recent
audits and future plans for auditing ARRA funds, concerns about the risk in ARRA programs, and information
about the region’s overall audit plans. SAC Clarke presented information on the Fraud Enforcement and
Recovery Act and potential criminal activities associated with ARRA programs and provided examples of
HUD OIG criminal cases involving government funds. Approximately 60 members attended the presentation.

Community Planning and Development
    SAC Rene Febles provided a briefing on HUD stimulus funds awarded to New York agencies and OIG’s
efforts to protect these funds at a New York State Stimulus Board meeting in Manhattan, NY. Approximately
eight board members representing the New York State Commission on Human Rights, the New York State
OIG, and the Metropolitan Transit Administration OIG attended.

                                                 ppp

   SAC Barry McLaughlin, RIGA Heath Wolfe, and ASACs Brad Geary and Ray Espinosa provided an
overview of the HUD OIG Offices of Investigation and Audit and described “red flag” fraud indicators, the
audit process, the HOME Investment Partnerships (HOME) and Supportive Housing programs, the False
Claims and Program Fraud Civil Remedies Acts, and ARRA accountability and reporting requirements for
Cook County Department of Planning and Development employees in Chicago, IL. Approximately 50
county employees attended.

                                                 ppp

    ASACs Ray Espinosa and Brad Geary provided an overview of Illinois mortgage fraud and described
NSP areas susceptible to fraud at a meeting in Chicago, IL, for Illinois NSP grantees. More than 100
individuals attended the meeting, which was hosted by the Illinois Housing Development Authority and
the Department of Human Services.

                                                 ppp

    ASAC Kris Kanakares and SA Chris Conn provided an overview of HUD OIG’s mission; described
the functions of OIG’s Offices of Audit and Investigation; and illustrated fraud prevention, detection,
and enforcement methods used to successfully prosecute community planning and development-related
investigations for Missouri’s Department of Economic Development and Business and Community Services
personnel meeting in Jefferson City, MO. Approximately 10 supervisory employees attended.

                                                 ppp




                                                                                   Chapter 8 - Outreach Efforts
120
            ASAC Lisa Gore and SAs Jeffrey Monnin and Keith Benderoth provided an overview of HUD OIG’s
        mission and goals; described the functions of the Offices of Investigation and Audit; discussed potential
        criminal issues and common fraud schemes associated with Community Development Block Grant (CDBG)
        funding; and explained HUD OIG’s oversight and responsibilities relating to grants awarded through ARRA
        at a HUD-sponsored meeting of Kentucky community planning and development grantees in Louisville,
        KY. Approximately 60 grantees attended.

                                                         ppp

           ASAC Robert Jones provided an overview of the HUD Disaster Recovery Assistance program and NSP;
        described ARRA and the Housing and Economic Recovery Act of 2008 (HERA); and illustrated OIG’s role in
        addressing fraud, waste, and abuse in HUD-funded programs at a community planning and development
        “Directors Round-Up” hosted by the HUD Office of Community Planning and Development (CPD) in
        Houston, TX. Approximately 20 individuals representing local CPD-funded entities attended.

                                                         ppp

           SA Alexander Rosania provided an overview of the HUD Homelessness Prevention and Rapid Re-
        Housing Program and described fraud vulnerabilities at a meeting with the Rhode Island Office of Housing
        and Community Development staff and other city employees in Providence, RI. At the conclusion, a question
        and answer forum was held for approximately 30 State and local employees in attendance.

                                                         ppp

            RIGA Heath Wolfe and ASAC Brad Geary made two presentations at the Cook County, IL, Community
        Development Block Grant Agreement Workshop in Chicago, IL. The presentations consisted of an overview
        of HUD OIG’s mission and goals and the functions of the Offices of Investigation and Audit. RIGA Wolfe
        and ASAC Geary also presented information on OIG’s planned oversight and priorities to address HUD’s
        funding for HERA and ARRA. There were more than 65 individuals in attendance for each presentation.

        Disaster Relief
           SAC Robert Anderson and ARIGA Tracey Carney provided an overview of HUD disaster relief grants
        during a panel discussion at the National Disaster Recovery Stakeholder Forum at the University of New
        Orleans International Conference Center in New Orleans, LA. Approximately 200 nonprofit grant recipients
        and Federal, State, and local government representatives attended.

                                                         ppp

           Acting RIGA Tracey Carney provided an overview of HUD OIG’s background, mission, goals, and audit
        process during HUD’s CDBG Disaster Recovery Training in Houston, TX. The training was sponsored
        by HUD’s Office of Block Grant Assistance, Disaster Recovery and Special Issues Division. The training
        purpose was to bring together HUD grantees and presenters to review and discuss compliance issues in
        a number of areas such as performance management, compliance systems, and fraud prevention. More
        than 110 individuals representing Federal, State, and local governments responsible for the oversight and
        administration of CDBG disaster funding attended.




      Chapter 8 - Outreach Efforts
                                                                                                                   121
American Recovery and Reinvestment Act
    SAC Barry McLaughlin and RIGA Heath Wolfe provided an overview of HUD OIG, NSP, and future
projects funded by ARRA and described HUD program regulations, reporting requirements, “red flag”
indicators, and subgrantee responsibilities at a meeting of Cook County subgrantees in Chicago, IL. More
than 50 business executives attended.

                                                  ppp

    RIGA Heath Wolfe and ASAC Brad Geary provided an overview of HUD OIG’s mission and goals,
described the functions of the Offices of Audit and Investigation, and illustrated OIG’s planned oversight
of HUD funding relating to HERA and ARRA at a Cook County CDBG Agreement workshop in Chicago,
IL. More than 120 community planning and development grantees attended.

                                                  ppp

    RIGA John Dvorak, ASAC Michael Wixted, and ARIGA Kevin Smullen met in Boston, MA, with Neil
Cohen, the Deputy Inspector General from the Massachusetts OIG, and several of his staff to make a
presentation on HUD OIG’s oversight efforts regarding ARRA. Participants were briefed on OIG’s mission,
role, and responsibilities with regard to auditing ARRA funds and detecting and investigating ARRA
fraud. The types of funds HUD would provide and the associated risks of administering these funds were
discussed, as well as OIG outreach efforts in the State. Mr. Cohen noted that his office would evaluate the
State’s use of ARRA funds. There was an exchange of ideas on how the two offices could jointly ensure that
the areas which may be at risk could be evaluated/audited to prevent duplication of effort, followed by a
commitment to continue the exchange of information on HUD programs and ARRA funding. A question
and answer session followed the presentation.

                                                  ppp

    ASAC James Luu and SA Eric Huhtala provided an overview of HUD OIG’s mission and described
ARRA and OIG’s role in addressing program fraud at a fraud awareness training session for Western Region
Inspector General Council members meeting in Sacramento, CA. Approximately 250 State, county, and
local government officials attended.

                                                  ppp

    ASAC Nadine Gurley provided an overview of HUD OIG’s mission and described OIG’s involvement
with ARRA funding at a meeting of Alabama housing authority executive directors in Birmingham, AL.
At the conclusion, a question and answer forum was held for 50 executive directors in attendance.

                                                  ppp

    SA Jessica Thompson and HUD CPD Program Manager Robert Shumeyko provided an overview of
HUD funding through ARRA and described potential risks and fraud involving the programs or grantees
at a meeting in Boston, MA, of employees from the Massachusetts OIG. At the conclusion, a question and
answer forum was held for approximately 15 investigators, analysts, and senior staff members in attendance.

                                                  ppp




                                                                                    Chapter 8 - Outreach Efforts
122
          SA Shelly Mack provided an overview of HUD OIG and its role in investigative initiatives and described
        HERA and ARRA at a meeting of Exit Realty Company employees in Calhoun, GA. Approximately 25
        employees attended.

                                                          ppp

            SAC Joseph Clarke, ASAC Cary Rubenstein, and ARIGA Osiko Tekpetey made a presentation at the
        Council of State Community Development Agencies’ annual conference in Harrisonburg, PA. They provided
        an overview of HUD OIG’s mission and goals and the functions of the Offices of Audit and Investigation.
        Their presentation focused primarily on anticipated and ongoing HUD OIG oversight of funding received
        from ARRA. The conference was attended by representatives from various State agencies nationwide.
        Approximately 60 participants attended the presentation.

                                                          ppp

            RIGA Heath Wolfe and SAC Barry McLaughlin gave a presentation to HUD’s HOME Fund Accounting
        training in Pewaukee, WI. The presentation consisted of an overview of HUD OIG’s mission and goals
        and the functions of the Offices of Investigation and Audit. RIGA Wolfe presented information on the
        HOME program, common HOME audit findings, and OIG’s affirmative civil enforcement initiatives. SAC
        McLaughlin presented information on community development grant fraud, potential criminal issues/
        activities associated with the HOME program, and OIG’s focus on ARRA funding and provided examples
        of OIG criminal cases involving government funds. There were more than 50 individuals in attendance.

                                                          ppp

            SAC Diane DeChellis and ARIGA Kevin Smullen attended the STOP Fraud Task Force meeting at the
        offices of the Massachusetts Attorney General in Boston MA. The Task Force, established in 2009 in response
        to the enactment of ARRA, includes representatives from Massachusetts State and U.S. Federal investigative,
        audit, and inspector general agencies. The discussion topics centered on the issue of what areas the Task
        Force should address going forward from the release of ARRA funding to various Massachusetts entities.
        The discussion noted outreach efforts taken by HUD OIG in New England in advance of NSP/HERA and
        ARRA and the capacity audit of the City of Brockton, MA, NSP-I program. During the capacity audit, OIG’s
        Office of Audit determined that the City of Brockton’s grantee for NSP funds, Building a Better Brockton
        (BBB), had capacity issues and that there appeared to be conflict-of-interest issues relative to many board
        members on the BBB with entities that would benefit from the NSP funds. From conditions cited in the audit
        report (2009-BO-1803), HUD cancelled the NSP-II ARRA funding, totaling more than $20 million, for the
        City. This report was recognized as an example of lessons to be learned by other HERA/ARRA grantees,
        and several Task Force members were provided copies of the published audit report. Approximately 25
        Task Force members were in attendance.

                                                          ppp

           RIGA Edgar Moore and ARIGA Jack Harrison met in New York, NY, with Ms. Rose Gill Hearn,
        Commissioner, New York City Department of Investigation; her deputy commissioner for investigations;
        and two inspectors general from her staff (Department of Housing Preservation and Development and
        New York City Housing Authority) that oversee housing-related issues to discuss the roles of each and
        opportunities to coordinate activity in light of the ARRA funds distributed by HUD.




      Chapter 8 - Outreach Efforts
                                                                                                                 123
Law Enforcement Outreach
    SAC Rene Febles provided an overview of FHA and HECM fraud schemes as a panelist during a mortgage
fraud panel in Brooklyn, NY, hosted by New York defense attorneys and moderated by U.S District Judge
Joanne Seybert. Additional panelists included AUSA Jon Green, U.S. Probation Chief Mark Gelaj, and
defense attorney Tom Rice. Approximately 70 New York defense attorneys attended.

                                                 ppp

    SAC Robert Anderson and SA Aimee Peralta provided an overview of HUD OIG’s mission and authority,
described the working relationships between HUD OIG and Federal prosecutors, and discussed public
corruption investigations relating to HUD programs at a meeting of members of the Indonesian Anti-
Corruption Task Force sponsored by the New Orleans, LA, U.S. Attorney’s Office. At the conclusion, a
question and answer forum was held for 15 Indonesian prosecutors in attendance.

                                                 ppp

    SA Heather Yannello provided an overview of HUD OIG’s investigative mission and described HUD
programs at a New York State Division of Criminal Justice training seminar in Buffalo, NY. Approximately
120 government officials attended.

                                                 ppp

    SAs Bozena Schrank and John Keaney provided an overview of HUD OIG’s mission involving FHA
mortgage fraud and described a number of fraud vulnerabilities, including loan originations, appraisals,
identity theft, straw borrowers, and foreclosure rescue schemes, for individuals attending a “Fraud
Investigations” training seminar at the Connecticut Police Academy in Meriden, CT. Approximately 45
State and local police department personnel attended.

                                                 ppp

    SAs José Laureano and Hector Mercado provided an overview of HUD OIG’s mission and described
avenues available to support each agency’s respective mission and goals during presentations for the
director of the Puerto Rico Treasury Department Tax Evasion Division and the Puerto Rico Comptroller in
San Juan, PR.

                                                 ppp

    SA Charee’ Carey and Rockland County District Attorney’s Office detective Brendan Donohue provided
a presentation, entitled “Thinking Outside of the Box,” and described white-collar crimes and HUD Section
8 fraud for Rockland County Police Academy students in Pamona, NY. Approximately 35 New York and
Connecticut law enforcement personnel attended.

                                                 ppp

    SA Michael Weinstein provided an overview of HUD OIG’s mission and programs and described available
OIG resources for individuals attending a Central Maryland Financial Crimes and Identity Theft seminar
in Baltimore, MD. Approximately 25 Federal, State, and local government representatives attended the
seminar, which was sponsored by the U.S. Postal Inspection Service.




                                                                                  Chapter 8 - Outreach Efforts
124
        Other Outreach
            ASAC Wallace Merriman provided an overview of HUD OIG’s mission and described the HUD OIG
        tools used to detect grant fraud in HUD programs at a Grant Fraud Investigations Training seminar hosted
        by the National Science Foundation OIG in Arlington, VA. Approximately 250 attorneys, auditors, and
        law enforcement personnel attended.

                                                          ppp

            ARIGA Frederick Smith gave a presentation to the Beta Alpha Psi association at the campus of Metro State
        in Denver, CO. In attendance were 16 students from Metro State and the University of Colorado Denver.
        ARIGA Smith discussed the duties and responsibilities of Federal auditors and investigators, specifically as
        they pertain to HUD programs and ARRA. He provided a synopsis of each HUD program and examples
        of typical audits conducted by OIG within these program areas and discussed the advantages of a career
        in the Federal Government and the benefits of working for HUD OIG.

                                                          ppp

            Forensic Auditor (FA) Seda Mangassarian and an FBI agent were guest speakers at a graduate class in
        forensic accounting at the University of Southern California’s Marshall School of Business in Los Angeles,
        CA. They spoke to about 30 students on the impact of forensic accounting and auditing on criminal
        investigations. FA Mangassarian discussed her varied assignments during a public corruption case that
        resulted in a trial and her testimony in court, as well as her work on mortgage fraud cases.

                                                          ppp

           Counsel to the Inspector General Bryan Howell, SAC James Todak, and RIGA Heath Wolfe made
        presentations at the Association of Certified Fraud Specialists’ 10th Annual Fraud Conference in San Diego,
        CA. RIGA Wolfe presented information on the functions of the Office of Audit and the FHA insurance
        program. SAC Todak presented an overview of OIG’s Office of Investigation’s roles and responsibilities,
        and Counsel Howell discussed OIG’s civil enforcement initiative. There were 45 individuals in attendance.

                                                          ppp

             ASAC Jeanne Daumen and ARIGA Joseph Vizer participated in the Joint Investigations and Global
        Resolutions - Parallel Proceeding Conference and the Government Fraud Task Force Meeting at the United
        States Attorneys Office in Newark, NJ. They presented information relating to HUD OIG’s mission,
        initiatives, and opportunities to participate in criminal and civil parallel proceedings.

                                                          ppp

            ASAC Jeanne Daumen and ARIGA Joseph Vizer participated in the Interagency Bankruptcy Fraud Task
        Force Meeting at the United States Attorneys Office in Newark, NJ. They presented information relating
        to HUD OIG’s Mortgage Fraud Initiative investigations and civil parallel proceedings.

                                                          ppp

           Senior Auditors Joanna Varenhorst and Larry McMillion gave a presentation to doctoral students at
        Our Lady of the Lake University in San Antonio, TX. The presentation included a brief background about
        HUD and HUD OIG and included examples of OIG activities from recent audits and media reports. The
        presentation included a short question and answer session.

                                                          ppp
      Chapter 8 - Outreach Efforts
                                                                                                                  125
    The HUD OIG office in Seattle, WA, invited members of the University of Washington’s chapter of the
Beta Alpha Psi accounting fraternity for a presentation and office tour. During the presentation, ARIGAs
Ed Schmidt and Tracey Vargas, Auditor Kela Mikkelsen, and SAC Wayne North described the mission and
work of the HUD OIG Offices of Audit and Investigation. The attendees were also briefed on the advantages
of seeking a career with HUD OIG.

                                                 ppp

    RIGA John Buck, SAC Joseph Clarke, ASAC Cary Rubenstein, and Auditor Stephen Cholewiak attended
the Pennsylvania Attorney General’s Consumer Fair in Philadelphia, PA, along with program staff from
HUD’s Philadelphia field office, as part of National Consumer Protection Week. They discussed issues such
as HUD OIG’s priority to combat mortgage fraud; its efforts to ensure that housing authorities have the
capacity to spend ARRA funding; and how taxpayers can report fraud, waste, and abuse in public housing.

                                                 ppp

    Senior Auditor Michael Zaccaria participated in Essex County’s Point in Time Survey of the Homeless
outreach in Newark, NJ, along with Newark HUD program staff. HUD staff interviewed and obtained
information from homeless individuals and made them aware of resources that were available to assist them.

                                                 ppp

    RIGA Gerald Kirkland; ARIGA Jacob Williams; and Senior Auditors Joanna Varenhorst, Lorenzo Garcia,
Larry McMillion, and Enrique Espinoza gave presentations to three accounting classes at the St. Mary’s
University Bill Greehey School of Business in San Antonio, TX. The event was a part of the University’s
annual Business Week, which honors outstanding students and professors. The presentation included a
brief background about HUD and OIG and examples of OIG activities from recent audits and media reports.
There was a short question and answer session during which audit staff discussed challenges faced by OIG
and employment opportunities.

                                                 ppp




                                                                                   Chapter 8 - Outreach Efforts
   Chapter 9
   Reviews of
Policy Directives
128
            Reviewing and making recommendations on legislation, regulations, and policy issues is a critical part
        of the Office of Inspector General’s (OIG) responsibilities under the Inspector General Act. During this
        6-month reporting period, OIG has committed approximately 540 hours to reviewing 106 issuances. The
        draft directives consisted of 4 notices of funding availability, 20 new or revised regulations, 62 mortgagee
        letters or notices, and 20 other directives. OIG provided comments on 51 percent of these directives. This
        chapter highlights some of OIG’s comments for this reporting period.

        Enacted Legislation
        Due to the collapse of the subprime mortgage market and resulting increase in foreclosures, Congress and the
        President approved the Housing and Economic Recovery Act of 2008 (HERA) and the American Recovery and
        Reinvestment Act of 2009 (ARRA). This legislation contained significant new funding and programs for the
        U.S. Department of Housing and Urban Development (HUD). Specifically, the Neighborhood Stabilization
        Program (NSP) was created under HERA and provided an initial $3.92 billion in funding to State and local
        governments for the redevelopment of abandoned and foreclosed-upon homes and residential properties.
        ARRA provided an additional $13.61 billion to existing programs, including an additional $2 billion for NSP.

        OIG, at the request of Congress, is performing audits of recipients of HERA and ARRA funding. Based on
        risks identified in HUD’s front-end risk assessments, OIG targeted program areas and will propose regulatory
        changes, as necessary, to control risks in these new program areas.

        OIG also participated in a number of meetings with HUD officials regarding these additional funds and
        the programmatic risks of the activities. OIG continues to express concerns about the capacity of many of
        the grantees. OIG has expressed its concerns in our review comments to clearance items and directly to
        HUD officials.

        The Federal Housing Commissioner continued to propose a number of risk management initiatives related to
        HUD’s single-family programs and has started the process of updating its multifamily program requirements.
        As part of the issuances reviewed, OIG provided comments on the preliminary rules. Many of the proposed
        changes required rule making. Therefore, OIG is awaiting publication of the proposed rules in the Federal
        Register and subsequent submission of the final rules in the clearance process. OIG will continue to monitor
        and review proposed changes related to the Federal Housing Administration.

        Notices and Policy Issuances
           OIG objected to two HUD-proposed notices and one policy issuance. Working cooperatively with the
        Department, OIG continues efforts to resolve its objections.

                                                          ppp




      Chapter 9 - Reviews of Policy Directives
Chapter 10
  Audit
Resolution
130
            In the audit resolution process, Office of Inspector General (OIG) and U.S. Department of Housing and
        Urban Development (HUD) management agree upon the needed actions and timeframes for resolving audit
        recommendations. Through this process, OIG hopes to achieve measurable improvements in HUD programs
        and operations. The overall responsibility for ensuring that the agreed-upon changes are implemented
        rests with HUD managers. This chapter describes significant revised management decisions and significant
        management decisions with which OIG disagrees. It also contains a status report on HUD’s implementation
        of the Federal Financial Management Improvement Act of 1996 (FFMIA). In addition to this chapter on audit
        resolution, see appendix 2, table B, “Significant Audit Reports Described in Previous Semiannual Reports
        in Which Final Action Had Not Been Completed as of March 31, 2010.”

        Audit Repor ts Issued Before Star t of Period With No
        Management Decision as of March 31, 2010
        Registered Sex Offenders’ Occupancy of HUD-Subsidized Housing
            Issued August 14, 2009. The Inspector General referred this issue to the Assistant Secretaries for Housing
        and Public Housing on December 28, 2009, because agreement could not be reached with the Deputy
        Assistant Secretaries on 13 of the 22 recommendations. The recommendations relate to OIG’s audit of HUD’s
        requirement prohibiting lifetime registered sex offenders from admission to HUD-subsidized housing. Based
        upon a statistical sample, OIG determined that HUD subsidized an estimated 2,094 to 3,046 households that
        included lifetime registered sex offenders. As a result, it did not accomplish the objective of the statute to
        prevent admission of dangerous sex offenders, and the same offenders who were deemed too dangerous
        for admission were allowed to continue living in subsidized housing. OIG recommended that HUD seek
        legislative and program rule changes to require denial of continued occupancy and termination of tenancy
        or continued subsidy, as appropriate, for all lifetime registered sex offenders residing in subsidized housing.
        OIG also recommended that if legislative changes are passed, HUD develop and implement a plan to
        detect lifetime registered sex offenders occupying subsidized housing. Additionally, OIG recommended
        that HUD require projects and housing authorities to revise their admission, screening, and recertification
        procedures and urge them to aggressively pursue termination of assistance for lifetime sex offenders to the
        extent allowed by law.

             Both Assistant Secretaries submitted new proposed management decisions on March 31, 2010. OIG agreed
        with the Assistant Secretaries on all but two recommendations, which related to the need for legislative
        changes to require denial of continued occupancy and termination of tenancy for all lifetime registered sex
        offenders residing in subsidized housing. Specifically, OIG’s audit identified tenants who were eligible
        at the time of admission but later became lifetime registered sex offenders. While Congress has banned
        lifetime registered sex offenders from being admitted to federally assisted housing, current statutes do not
        effectively empower HUD to purge all lifetime registrants who already reside there. This issue is troubling
        because HUD possesses sufficient legal authority to terminate other groups. To compensate for this gap in
        its statutory authority, HUD’s only present option is to employ a mix of regulations, policies, and procedures,
        the statutory basis and ultimate efficacy of which are disputable. A statutory fix authorizing and requiring
        termination of lifetime registrants from federally assisted housing is the surest means to enable HUD to
        protect residents from known sexual offenders. After the end of this semiannual reporting period, OIG
        referred this matter to the Deputy Secretary for a final decision. (Audit Report: 2009-KC-0001)




      Chapter 10 - Audit Resolution
                                                                                                                   131
The City of Boston’s Department of Neighborhood Development in
Boston
    Issued August 19, 2009. The OIG Office of Audit initially referred this issue to the Deputy Assistant
Secretary for Grant Programs, Office of Community Planning and Development (CPD), on December 18,
2009, because agreement could not be reached on recommendations for finding 2 in the audit report with
the CPD Director of Region 1 (Boston). The five recommendations relate to the City of Boston’s failure
to ensure that project developers that received HOME Investment Partnerships Program (HOME) funds
(from the City) followed Federal procurement regulations when they hired contractors for construction and
development work. The City’s procurement transactions were not conducted in a manner to provide open
and free competition. The City’s own written policy on bidding states that projects must be competitively
bid to achieve the lowest reasonable construction costs and to provide increased fair access to the economic
opportunities created through the project. The City’s policy further states that developers must solicit
and receive at least three bids, at least two of which are from general contractors that have not previously
contracted with the developer. Both the Federal regulations and the auditee’s written policies should serve
as valid criteria.

    In its response, the Region 1 CPD Director appeared to be in agreement that projects should be
competitively bid to achieve the lowest possible construction costs and to provide increased fair access to
economic opportunities created through the project. OIG did not agree, however, with CPD’s statement
that the City provided the necessary documentation indicating that the City followed proper bidding
policies on all projects identified in the OIG report.

    In the audit report, OIG recommended that the Boston CPD Director require the City to (1) conduct
an independent cost analysis for each of the procurements noted to ensure that nearly $5.2 million was
reasonable and properly supported and to reimburse the program any amounts not determined to be
reasonable and supported; (2) monitor the developer’s procurement process to ensure that construction
bids are formally (publicly) advertised, bids are solicited from an adequate number of contractors, and
awards are made to the lowest responsive bidder; (3) provide technical assistance to the developers as
needed; (4) review and maintain supporting documentation for each procurement including a history of
the procurement; and (5) revise its written procurement regulations to ensure compliance with Federal
regulations.

    By late March 2010, 3 months after OIG submitted the referral to the Deputy Assistant Secretary, it had
not received a response from the Deputy Assistant Secretary’s office. The management decisions for these
recommendations were pending as of March 31, 2010. (Report No. 2009-BO-1011)

HUD Lacked Adequate Controls To Ensure The Timely Commitment
and Expenditure of HOME Funds
    Issued September 28, 2009. HUD OIG audited HUD’s HOME program. OIG recommended that HUD
CPD establish and implement controls to ensure that field offices require participating jurisdictions to
close out future HOME activities within a timeframe that will permit reallocation and use of the funds for
eligible activities in time to avoid losing them to recapture by the United States Treasury under provisions
of Public Law 101-510. OIG also recommended that CPD obtain a formal legal opinion from HUD’s Office
of General Counsel regarding whether

   •	 HUD’s cumulative technique for assessing compliance with commitment deadlines is consistent
      with and an allowable alternative to the 24-month commitment required by 42 U.S.C. (United
      States Code) 12748 and



                                                                                   Chapter 10 - Audit Resolution
132
            •	 HUD’s first-in, first-out (FIFO) method for assessing compliance with HOME expenditure
               requirements is consistent with and an allowable alternative to the 8-year recapture deadline
               pursuant to Public Law 101-510, codified at 31 U.S.C. 1552.

            CPD obtained a legal opinion from the Assistant General Counsel for Community Development on
        March 5, 2010. The legal opinion supports the Department’s use of the cumulative approach and FIFO
        accounting method. Based on this legal opinion, CPD does not plan to implement OIG’s recommendation
        to discontinue use of the FIFO method to account for the commitment and expenditure of HOME funds or
        the cumulative technique for assessing deadline compliance.

            OIG disagrees with the conclusions of the CPD legal opinion. OIG continues to disagree that CPD’s use
        of the FIFO method for recognizing commitments and expenditures that participating jurisdictions make
        against their HOME appropriations or CPD’s cumulative accounting are consistent with the legislation, 42
        U.S.C. 12748, requiring recapture of funds not committed by statutory deadline dates. These methods of
        accounting also potentially violate the closure of accounts under 31 U.S.C. 1552.

            The issues related to the commitment and expenditure of funds should be reviewed by the Office of
        the Chief Financial Officer. OIG is also considering referring the matter to the Government Accountability
        Office for its review and determination.

            Another issue raised by CPD’s accounting methods is whether HUD’s FIFO accounting method
        complies with Federal accounting requirements for maintaining the U.S. Standard General Ledger and
        general appropriations law. The accounting issues require review for compliance with Federal accounting
        standards and appropriation law. (Audit Report: 2009-AT-0001)

        Significantly Revised Management Decisions
            Section 5(a)(11) of the Inspector General Act, as amended, requires that OIG report information
        concerning the reasons for any significant revised management decisions made during the reporting
        period. During the current reporting period, there were significant revised management decisions on four
        audits.

        Mays Property Management, Inc., Multifamily Management Agent -
        Little Rock, AR
           Issue Date: September 17, 2004. As part of HUD OIG’s initiative to combat equity skimming, OIG audited
        nine multifamily projects managed by Mays Property Management, Inc. (Mays). HUD either insured or
        held the mortgages on the properties. OIG’s objective was to determine whether Mays complied with
        project regulatory agreements and HUD regulations when spending project funds.

            HUD OIG found that Mays officials disbursed project operating funds for items that violated
        project regulatory agreements with HUD. They charged management agent expenses to projects, paid
        for unsupported expenditures, diverted project funds to Mays and a property owner, and overcharged
        expenses to projects. In addition, Mays split its management fee with a project owner and transferred
        project funds to other projects having cash-flow problems. As a result, Mays’ officials misspent more
        than $979,000 in project-operating funds and made unauthorized advances of more than $20,000 from five
        projects to other projects. This action had a negative financial impact on the projects.

           OIG made six recommendations to HUD. The recommendations included (1A) require Mays to
        pay back the projects nearly $492,000 for the ineligible expenditures from project operating funds, (1C)




      Chapter 10 - Audit Resolution
                                                                                                                133
require Mays to either furnish required documentation or pay back the projects more than $437,000 for the
unsupported outlays, and (1E) with HUD review and approval, require projects to pay their debt to other
projects.

    In February 2005, HUD and OIG reached agreed-upon management decisions. HUD sent a letter
to Mays requiring Mays to either provide supporting documentation or reimburse the projects. HUD
followed up on this request with a June 3, 2005, demand letter for immediate repayment of the debt owed
projects. HUD officials have been unsuccessful in collecting the misspent funds. Moreover, on March
16, 2007, Pulaski County Circuit Court, located in Arkansas, awarded a $1.39 million creditor judgment
against Mays and its owner. The judgment awarded liens to the creditor that were superior to any liens
held by HUD. As a result, HUD deems the debt as uncollectable. On March 18, 2010, HUD and OIG
agreed that HUD should submit a revised management decision indicating that HUD would write off the
nearly $929,000 debt as uncollectable because Mays would not be able to repay. HUD would also revise
the management decision by not requiring projects to pay their debt to other projects. Once agreed upon
by OIG, those actions would close recommendations 1A, 1C, and 1E. (Audit Report: 2004-FW-1009)

Capmark Finance, Inc., Underwriter for Asbury Square Apartments’
Mortgage Loan - Tulsa, OK
    Issue Date: July 2, 2007. At the request of HUD, OIG audited Capmark Finance, Inc.’s (Capmark)
underwriting and processing of the mortgage loan for Asbury Square Apartments (Asbury), located in
Tulsa, OK. OIG had previously audited Asbury’s owner/management agent. OIG’s objective was to
determine whether Capmark followed HUD requirements when underwriting and processing the Asbury
loan.

    OIG found that Capmark misrepresented Asbury’s financial and physical situation to HUD in its
underwriting narrative. Further, it did not exercise the required amount of due diligence to support its
recommendation for HUD endorsement. The Asbury mortgage loan, as recommended by Capmark,
did not provide enough funds to restore the project to a financially viable condition. While Capmark
complied with most multifamily accelerated processing (MAP) requirements when underwriting the loan,
its underwriting narrative lacked material financial information and analysis. In addition, Capmark did
not perform its property site inspection within MAP requirements. As a result, Asbury defaulted on the
loan before final closing, causing HUD a possible loss of more than $5.9 million.

   OIG recommended that the Assistant Secretary for Housing refer Capmark to the Mortgagee Review
Board for appropriate action. Further, OIG recommended that the acting Deputy Assistant Secretary for
Multifamily Housing establish a MAP Lender Review Board to address and resolve violations by Capmark.

   On March 31, 2010, HUD and OIG reached a revised management decision. HUD’s Office of General
Counsel provided an opinion that collection is not likely due to pending litigation and Capmark’s
bankruptcy in December of 2009. As a result, HUD will follow appropriate procedures to write off the
more than $5.2 million loss. (Audit Report: 2007-FW-1011)

Heartland Funding Corporation - Springfield, MO
    Issue Date: September 8, 2008. HUD OIG conducted an audit of Heartland Funding Corporation,
which disclosed that Heartland Funding violated the Real Estate Settlement Procedures Act and HUD’s
requirements when processing Federal Housing Administration (FHA) loans that involved downpayment
assistance. In addition, Heartland Funding did not follow HUD requirements when it underwrote 27 FHA
loans.



                                                                                Chapter 10 - Audit Resolution
134
           OIG recommended that HUD require Heartland Funding to (1) make principal reductions totaling
        nearly $84,000 on the 25 loans that used the improper downpayment assistance program, (2) indemnify
        HUD for 17 actively insured loans with unpaid principal balances totaling more than $1.4 million, (3)
        indemnify HUD for future losses on nine loans with unpaid principal balances totaling nearly $930,000 for
        which HUD has not yet sold the property, and (4) reimburse HUD for one loan for which HUD has sold the
        property and incurred a loss of more than $54,000.

            HUD agreed with the recommendations; however, an initial attempt by HUD to deliver the findings
        letter and indemnification agreements to Heartland Funding’s home office in Springfield, MO, on February
        12, 2009, was unsuccessful. Heartland Funding failed to notify HUD that it was no longer operating at that
        address. A second attempt to deliver the findings letter and indemnification agreements to the residential
        address of Heartland Funding’s chief executive officer was successful on March 25, 2009. On August
        18, 2009, Heartland provided a written response to HUD, in which it indicated that the planned actions
        outlined in response to our audit recommendations were inappropriate and stated that the company was
        in the process of dissolving. HUD determined that Heartland Funding was a viable company with active
        FHA approval and referred the lender to the Mortgagee Review Board for review and appropriate action.

            On March 22, 2010, HUD submitted a revised management decision proposing to write off (1) the
        nearly $84,000 in principal reductions for the 25 loans that used the improper downpayment assistance
        program, (2) the projected loss of nearly $534,000 for the 17 actively insured loans with unpaid principal
        balances totaling more than $1.4 million, (3) the projected loss of more than $351,000 for the nine loans with
        unpaid principal balances totaling nearly $930,000 for which HUD has not yet sold the property, and (4)
        the more than $54,000 for the one loan for which HUD sold the property and incurred a loss. On March 25,
        2010, OIG agreed with the revised management decision. (Audit Report No. 2008-KC-1006)

        Homes for Life Foundation, Los Angeles, CA
            Issue Date: December 18, 2007. OIG audited Homes for Life Foundation (Foundation) to determine
        whether the Foundation applied and tracked is HUD Supportive Housing Program cash match in
        accordance with applicable laws, regulations, and requirements. The audit showed that the Foundation
        did not administer its Supportive Housing Program grants in compliance with HUD requirements.
        Specifically, it could not adequately support that it met the statutory 25 percent cash match requirement
        of more than $389,000 for all 12 grants reviewed. Further, it inappropriately charged more than $5,000 in
        duplicate operational costs to both HUD and the Los Angeles County Department of Mental Health and
        more than $107,000 in unsupported duplicate salaries. OIG attributed the deficiencies to the Foundation’s
        inadequate understanding of the cash match record-keeping rules and regulations, its inadequate financial
        management system, its failure to implement a cost allocation plan that met HUD requirements to distribute
        shared costs among its multifunded projects, and the Authority’s failure to monitor the Foundation’s cash
        match operations.

            OIG recommended that HUD require the Foundation and/or the Authority to (1) provide adequate
        supporting documentation to substantiate that the cash match of more than $389,000 was met or repay
        more than $2 million from non-Federal funds for the grant funds expended, (2) implement a financial
        management system that adequately identifies the source and application of all cash match funds for
        federally sponsored activities, (3) support or repay the duplicate costs, and (4) establish and implement a
        cost allocation plan that meets HUD requirements by allocating program expenditures for its multifunded
        projects equitably. On February 26, 2008, HUD and OIG reached management decisions to implement the
        recommendations by February 22, 2009. Later, the Foundation implemented a new financial management
        system that would adequately identify the source and application of funds spent in the future and
        implemented a cost allocation plan. However, HUD and OIG were unable to reach an agreement on




      Chapter 10 - Audit Resolution
                                                                                                                   135
whether the documentation provided by the Foundation adequately supported the questioned costs
associated with the recommendations.

    The Assistant Secretary for Community Planning and Development agreed with OIG’s audit opinion
that the Foundation’s financial management system was deficient and agreed that the findings were valid.
She further agreed that the Foundation did not satisfactorily track the use of its cash-matching funds
through its accounting records down to the level of the individual projects as required by 24 CFR (Code
of Federal Regulations) 85.20(a)(2), and HUD was unable to obtain documentation to prove whether the
double billings had occurred. Despite all of this, HUD’s position was that since the Foundation has since
implemented a new financial management system, there was no evidence of fraudulent activity on the
Foundation’s part so no repayment of grant funds should be required. Instead, HUD agreed to monitor the
Foundation over the next 3 years to ensure that the new financial management system is adequate. HUD
chose not to implement the original agreed-upon management decisions to require repayment of the grant
funds. A revised management decision to monitor the Foundation over the next 3 years will not remedy
the past deficiencies. Although, the Foundation was unable to demonstrate that the grant funds were
used in accordance with the pertinent requirements or that the effectiveness of the Supportive Housing
Program’s intent was met, OIG accepted the revised management decisions and the final action target date
of April 1, 2013. (Report No. 2008-LA-1003)

Significant Management Decision With Which OIG Disagrees
   There were no reports in which OIG disagrees with the Department’s final management decision.

Federal Financial Management Improvement Act of 1996
  In fiscal year 2009, HUD did not substantially comply with FFMIA. In this regard, HUD’s financial
management systems did not substantially comply with Federal financial management system requirements.

    During fiscal year 2009, HUD made limited progress in bringing the financial management systems
into compliance with FFMIA. HUD’s financial management systems continued to not meet current
requirements. HUD’s systems were not operated in an integrated fashion and linked electronically to
efficiently and effectively provide agency-wide financial system support necessary to carry out the agency’s
mission and support the agency’s financial management needs.

    HUD’s financial systems, many of which were developed and implemented before the issue date of
current standards, were not designed to provide the range of financial and performance data currently
required. HUD is in the process of modernizing its financial management systems by developing an
integrated financial management system. The modernization development, HUD’s Integrated Financial
Improvement Project (HIFMIP), was launched in fiscal year 2003 but has been plagued by delays. Originally
planned for implementation in 2006, HIFMIP is now slated to be fully integrated in fiscal year 2015.

    FFMIA requires OIG to report in its Semiannual Reports to the Congress instances and reasons when
an agency has not met the intermediate target dates established in its mediation plan required by FFMIA.
At the end of 2009, the Department reported that 2 of its 40 financial management systems were not in
substantial compliance with FFMIA. These two systems are the HUD Procurement System and Small
Purchase System. The Department plans to acquire a new application, which will bring these systems into
compliance with FFMIA. The acquisition of the new application is anticipated to be complete by June 30,
2010. However, full funding to complete the project has not been obtained; therefore, it is unclear when the
new application will be fully implemented. Although 38 individual systems had been certified as compliant
with Federal financial management systems requirements, HUD had not performed independent reviews




                                                                                   Chapter 10 - Audit Resolution
136
        on all of its financial management systems within the 3-year period required by Office of Management and
        Budget (OMB) Circular A-127. Collectively and in the aggregate, deficiencies continued to exist.

            In addition, OIG audit reports have disclosed that security of financial information was not provided
        in accordance with OMB Circular A-130, Management of Federal Information Resources, appendix III, and
        the Federal Information Security Management Act.

                                                         ppp




      Chapter 10 - Audit Resolution
 Appendix 1
Audit Reports
   Issued
138
        Internal Reports
        19 Audit Reports
        Chief Financial Officer (1 Report)
        2010-FO-0003		         Additional Details to Supplement Our Report on HUD’s Fiscal Years 2009 and 2008 	
        			                    Financial Statements, 11/16/2009. Better use: $516,100,000.
        Community Planning and Development (2 Reports)
        2010-BO-0002		         HUD’s CPD Had Established and Implemented an Appropriate Risk Assessment	
        			                    Process, 03/18/2010.
        2010-CH-0001		         The Office of Block Grant Assistance Lacked Adequate Controls Over the Inclusion 	
        			                    of Special Conditions in NSP Grant Agreements, 03/29/2010.
        Government National Mortgage Association (2 Reports)
        2010-DP-0001		         Review of Ginnie Mae’s Controls over Its Information Technology Resources, 		
        			                    12/11/2009.
        2010-FO-0001		         Audit of Ginnie Mae’s Financial Statements for Fiscal Years 2009 and 2008, 		
        			                    11/06/2009.
        Housing (3 Reports)
        2010-FO-0002		         Audit of the FHA’s Financial Statements for Fiscal Years 2009 and 2008, 			
        			                    11/13/2009.
        2010-LA-0001		         HUD’s Performance-Based Contract Administration Contract Was Not Cost 		
        			                    Effective, 11/12/2009. Better use: $7,600,755.
        2010-PH-0001		         HUD’s Philadelphia, PA, Homeownership Center Did Not Always Ensure That 		
        			                    Required Background Investigations Were Completed for Its Contracted 			
        			                    Employees, 02/26/2010. Questioned: $5,438,372; Unsupported: $5,438,372; Better 	
        			                    use: $2,175,348.
        Lead Hazard Control (1 Report)
        2010-HA-0001		         HUD’s OHHLHC Awarded Grants to Ineligible Applicants, 01/11/2010. Better 		
        			                    use: $5,774,821.
        Public and Indian Housing (2 Reports)
        2010-BO-0001		         HUD Was Not Effective in Recovering the New London Housing Authority 		
        			                    From Troubled Status and Did Not Take the Required Regulatory or Statutory 		
        			                    Action, 02/18/2010. Questioned: $812,618; Unsupported: $162,525; Better 			
        			                    use: $14,306.
        2010-FW-0001		         HUD Did Not Maintain Documentation to Determine if Public Housing Agencies 	
        			                    Took Corrective Action on its January 7, 2008 Memorandum and Public Housing 		
        			                    Agencies Paid an Estimated $7 Million for Deceased Tenants, 11/10/2009. 		
        			                    Questioned: $7,061,404; Unsupported: $7,056,917; Better use: $6,423,628.




      Appendix 1 - Audit Reports Issued
                                                                                                                            139
Audit-Related Memorandums1
Chief Financial Officer (1 Report)
2010-LA-0802		           Evaluation of the Final Front-End Risk Assessment for the Native American 		
			                      Housing Block Grant Program, 10/26/2009.
Chief Information Officer (1 Report)
2010-DP-0802		           OIG Response to Questions From the OMB Under the Federal Information Security 	
			                      Management Act of 2002, 11/18/2009.
Housing (2 Reports)
2010-LA-0801		           HUD Needs to Make a Final Determination on Whether San Diego Square 		
			                      Subleased Property is HUD Insured Under Section 202 of the Housing Act of 1959, 	
			                      San Diego, CA, 10/01/2009. Better use: $73,621.
2010-PH-0801		           HUD’s Regulatory Agreement with the Yorkville Cooperative Does Not Protect 		
			                      HUD’s Interest, 01/12/2010. Better use: $989,521.
Office of the Secretary (1 Report)
2010-DP-0801		           Review of HUD’s Process for Monitoring Recipient Reporting for the ARRA, 		
			                      10/30/2009.
Public and Indian Housing (3 Reports)
2010-AO-0801		           HUD Needs to Ensure That the Housing Authority of New Orleans Strengthens Its 	
			                      Capacity to Adequately Administer Recovery Funding, 12/15/2009. Questioned: 		
			                      $321,462; Unsupported: $321,462.
2010-FW-0801		           HUD Guidance on American Recovery and Reinvestment Act Capital Fund 		
			                      Physical Needs Assessment, 01/15/2010.
2010-LA-0803		           Review Results for Hotline Case Number HL-09-0756 Kaibab Band of Paiute 		
			                      Indians, Pipe Spring, AZ, 01/25/2010.



                                                         ppp




1
 The memorandum format is used to communicate the results of reviews not performed in accordance with generally accepted
government auditing standards, to close out assignments with no findings and recommendations, to respond to requests for
information, to report on the results of a survey, or to report the results of civil actions or settlements.


                                                                                        Appendix 1 - Audit Reports Issued
140
        External Reports
        63 Audit Reports
        Community Planning and Development (19 Reports)
        2010-AO-1001		         Mississippi Development Authority Did Not Always Ensure Compliance under Its 	
        			                    Public Housing Program, Jackson, MS, 12/15/2009.
        2010-AO-1002		         State of Louisiana Did Not Always Ensure Compliance Under Its Recovery 		
        			                    Workforce Training Program, Baton Rouge, LA, 01/04/2010. Questioned: $147,681; 	
        			                    Unsupported: $145,392.
        2010-AT-1002		         Broward County Needs To Strengthen Controls Over Its NSP, Fort Lauderdale, FL, 	
        			                    03/31/2010.
        2010-BO-1002		         The City of Holyoke, Office of Community Development, Needs to Improve Its 		
        			                    Administration of HOME- and CDBG-Funded Housing Programs, Holyoke, MA, 	
        			                    11/23/2009. Questioned: $1,595,491; Better use: $2,277,385.
        2010-BO-1004		         The City of Waterbury’s Subrecipient, Waterbury Development Corporation, 		
        			                    Needs to Improve Its Capacity to Effectively Administer Its Neighborhood 		
        			                    Stabilization Program, Waterbury, CT, 01/20/2010. Questioned: $8,900; Better use: 	
        			                    $15,700.
        2010-CH-1002		         The City of Saginaw Lacked Adequate Controls over Its CDBG-Funded Demolition 	
        			                    Activities, Saginaw, MI, 11/03/2009. Questioned: $268,369; Unsupported: $188,225.
        2010-KC-1001		         The State of Iowa Misspent CDBG Disaster Assistance Funds and Failed To Check 	
        			                    for Duplicate Benefits, Des Moines, IA, 03/10/2010. Questioned: $10,532,871; 		
        			                    Unsupported: $10,532,871.
        2010-KC-1003		         The City of East St. Louis Did Not Properly Allocate Salary and Building Expenses 	
        			                    or Properly Document Its Process to Secure a Consulting Services Contract, East St. 	
        			                    Louis, IL, 03/26/2010. Questioned: $1,025,798; Unsupported: $1,025,798.
        2010-LA-1001		         City of Los Angeles Housing Department Did Not Ensure That the NoHo 			
        			                    Commons Housing Development Met HOME Program Requirements, Los 		
        			                    Angeles, CA, 10/28/2009.
        2010-LA-1003		         City of Los Angeles’ Community Development Department Projects Did Not 		
        			                    Comply with CDBG Program Requirements, Los Angeles, CA, 12/04/2009. 		
        			                    Questioned: $935,000; Unsupported: $935,000.
        2010-LA-1004		         Although the County of Riverside Had Sufficient Overall Capacity, It Lacked 		
        			                    Necessary Controls To Administer Its NSP, Riverside, CA, 12/29/2009.
        2010-LA-1006		         City of Fresno, NSP, Fresno, CA, 02/03/2010.
        2010-LA-1007		         The County of San Bernardino Had Questionable Capacity To Administer Its 		
        			                    Allocation of NSP Funds, San Bernardino, CA, 02/11/2010.
        2010-LA-1008		         The City of Los Angeles Generally Had Sufficient Capacity and Adequate 			
        			                    Internal Controls To Administer Its NSP Funds, Los Angeles, CA, 03/17/2010.
        2010-NY-1001		         Lower Manhattan Development Corporation Generally Administered CDBG 		
        			                    Disaster Recovery Assistance Funds in Accordance with Regulations, New 		
        			                    York, NY, 10/06/2009.




      Appendix 1 - Audit Reports Issued
                                                                                                             141
2010-NY-1005		   The City of Paterson Did Not Always Administer Its CDBG Program in 			
			              Accordance with HUD Requirements, Paterson, NJ, 12/18/2009. Questioned: 		
			              $4,347,948; Unsupported: $3,707,142; Better use: $2,093,480.
2010-NY-1007		   The City of Jersey City Needs To Strengthen Its Controls To Ensure That It Will Be 	
			              Able To Effectively Administer CDBG-R Funds, Jersey City, NJ, 02/02/2010. 		
			              Questioned: $298,901; Unsupported: $237,183.
2010-NY-1008		   The Lower Manhattan Development Corporation Generally Administered CDBG 	
			              Disaster Recovery Assistance Funds in Compliance With Regulations, New York, 		
			              NY, 03/22/2010.
2010-PH-1001		   The City of Altoona Made Unsupported CDBG Payments, Altoona, PA, 			
			              10/02/2009. Questioned: $914,335; Unsupported: $914,335; Better use: $458,700.
Housing (12 Reports)
2010-AT-1001		   Mortgage Counseling Services, Inc., Did Not Follow HUD Requirements in 		
			              Originating and Closing Loans and Implementing Its Quality Control Program, 		
			              College Park, GA, 01/13/2010. Better use: $469,057.
2010-CH-1004		   Leader Financial Services Did Not Perform an Adequate Due Diligence Review of 	
			              Purchased Loan Components of FHA-Insured Loans, Parma, OH, 12/15/2009.
2010-DE-1001		   Kier Paid or Recorded Ineligible Costs and Did Not Properly Compute Subsidies, 	
			              Denver, CO, 12/18/2009. Questioned: $84,510; Better use: $2,050,000.
2010-LA-1009		   DHI Mortgage Company, LTD’s Scottsdale, AZ, Branches Did Not Follow FHA-		
			              Insured Loan Underwriting Requirements, 03/19/2010. Questioned: $265,420; 		
			              Better use: $1,501,765.
2010-NY-1002		   Jersey Mortgage Company Did Not Always Comply with HUD/FHA Loan 		
			              Underwriting Requirements, Cranford, NJ, 10/09/2009. Questioned: $96,359; 		
			              Better use: $1,281,314.
2010-NY-1003		   The South Bronx Community Management Co., Inc., Had Weaknesses in Its 		
			              Administration of the Project Maria Isabel, Bronx, NY, 11/04/2009. Better use: $2,005.
2010-NY-1004		   Ark Mortgage, Incorporated, Did Not Always Comply with HUD/FHA Loan 		
			              Origination Requirements, North Brunswick, NJ, 11/24/2009. Questioned: $79,860; 	
			              Unsupported: $79,860; Better use: $672,158.
2010-NY-1006		   SFDS Development Corporation Had Weaknesses in Its Financial, Procurement 		
			              and Administrative Controls, New York, NY, 12/22/2009. Questioned: $676,049; 		
			              Unsupported: $498,643; Better use: $20,386.
2010-NY-1009		   Somerset Investors Corporation Did Not Always Comply With HUD/FHA Loan 		
			              Underwriting Requirements, Melville, NY, 03/26/2010. Better use: $2,799,832.
2010-PH-1003		   The Yorkville Cooperative Did Not Administer Its Section 221(d)(3) Property and 	
			              Housing Assistance Contract According to Its Regulatory Agreement and HUD 		
			              Requirements, Fairfax, VA, 11/25/2009. Questioned: $324,935; Unsupported: 		
			              $66,850; Better use: $81,257.
2010-PH-1004		   Residential Home Funding Corporation Did Not Always Comply With HUD 		
			              Requirements in Originating FHA-Insured Single-Family Loans, Gaithersburg, 		
			              MD, 01/21/2010. Better use: $997,291.
2010-PH-1005		   Infinity Home Mortgage Company, Inc., Did Not Implement a Quality Control 		
			              Plan in Accordance With HUD Requirements, Cherry Hill, NJ, 03/31/2010.



                                                                         Appendix 1 - Audit Reports Issued
142
        Public and Indian Housing (11 Reports)
        2010-BO-1001		           The State of Connecticut Department of Social Services’ Section 8 Housing Units 		
        			                      Did Not Always Meet HUD’s Housing Quality Standards, Hartford, CT, 			
        			                      11/02/2009. Questioned: $62,459; Better use: $22,002,284.
        2010-BO-1003		           The State of Massachusetts, Department of Housing and Community 			
        			                      Development, Properly Administered Its Section 8 Project-Based Voucher Program, 	
        			                      Boston, MA, 12/17/2009.
        2010-CH-1001		           The Lake Metropolitan Housing Authority Did Not Always Ensure That Section 		
        			                      8 Units Met HUD’s Housing Quality Standards, Painesville, OH, 10/28/2009. 		
        			                      Questioned: $89,713; Better use: $903,984.
        2010-CH-1003		           The Grand Rapids Housing Commission Needs to Improve Its Administration of 	
        			                      Its Section 8 Project-Based Voucher Program, Grand Rapids, MI, 11/24/2009. 		
        			                      Questioned: $3,152,357; Unsupported: $3,050,078; Better use: $140,766.
        2010-DE-1002		           Fort Belknap Indian Community Did Not Properly Administer Its Indian Housing 	
        			                      Block Grant Funds, Harlem, MT, 03/07/2010. Questioned: $514,898; Better use: 		
        			                      $1,043,553.
        2010-FW-1001		           Dallas Housing Authority Demonstrated Capacity to Administer Its Recovery 		
        			                      Act Capital Fund Formula Grant, Dallas, TX, 12/18/2009. Questioned: $27,425; 		
        			                      Unsupported: $27,425; Better use: $1,174,243.
        2010-FW-1002		           The Housing Authority of the Sac and Fox Nation of Oklahoma Improperly 		
        			                      Spent More Than $800,000 in Contracts and Did Not Always Operate in 			
        			                      Accordance with HUD Rules and Regulations or Its Own Policies, Shawnee, OK, 		
        			                      01/20/2010. Questioned: $809,547; Unsupported: $803,272; Better use: $269,604.
        2010-KC-1002		           The Kansas City Housing Authority Did Not Violate HUD’s Waiting List Rules 		
        			                      When It Issued Section 8 Vouchers to Delaware Highlands Assisted Living Tenants, 	
        			                      Kansas City, KS, 03/12/2010.
        2010-LA-1002		           Guam Housing and Urban Renewal Authority, Capital Fund Recovery Act Grant, 	
        			                      Sinajana, GU, 12/02/2009.
        2010-LA-1005		           The Department of Hawaiian Home Lands Generally Had Capacity To Manage; 		
        			                      However, It Needs To Improve Controls Over Its Administration of Recovery Act 	
        			                      Funds, Kapolei, HI, 01/19/2010.
        2010-PH-1002		           The Philadelphia Housing Authority Needs to Improve Its Controls over Housing 	
        			                      Assistance Payments, Philadelphia, PA, 10/06/2009. Questioned: $204,838; 		
        			                      Unsupported: $154,736; Better use: $2,336,377.

        Audit-Related Memorandums1
        Community Planning and Development (14 Reports)
        2010-AT-1801		           Miami-Dade County Needs to Strengthen Controls over Its NSP, Miami, FL, 		
        			                      11/20/2009.
        2010-AT-1802		           The City of Atlanta Needs To Improve Certain Aspects of Its NSP To Meet the 		
        			                      Program’s 18-Month Obligation Deadline, Atlanta, GA, 12/14/2009.


        1
         The memorandum format is used to communicate the results of reviews not performed in accordance with generally accepted
        government auditing standards, to close out assignments with no findings and recommendations, to respond to requests for
        information, to report on the results of a survey, or to report the results of civil actions or settlements.


      Appendix 1 - Audit Reports Issued
                                                                                                            143
2010-AT-1803		    Hillsborough County has the Capacity To Administer its NSP and To Accurately 		
			               Enter Commitments for its HOME Investment Partnerships Program, Hillsborough 	
			               County, FL, 12/18/2009. Better use: $61,256.
2010-BO-1801		    The State of Vermont’s Agency of Commerce and Community Development Had 	
			               Sufficient Capacity To Effectively Administer Its NSP, Montpelier, VT, 12/07/2009.
2010-BO-1802		    The State of Maine’s Department of Economic and Community Development, 		
			               Office of Community Development, Has Sufficient Capacity To Effectively 		
			               Administer Its NSP, Augusta, ME, 12/16/2009.
2010-BO-1804		    The City of Meriden Had Sufficient Capacity To Effectively Administer Its NSP, 		
			               Meriden, CT, 01/27/2010.
2010-CH-1801		    Wayne County Needs To Improve Its Capacity to Effectively and Efficiently 		
			               Administer Its NSP, Wayne County, MI, 01/12/2010.
2010-CH-1802		   The City of East Cleveland Had Sufficient Capacity To Effectively and Efficiently		
		               Administer Its Recovery Act Block Grant Program, East Cleveland, OH, 			
			              01/12/2010.
2010-CH-1803		    The State of Indiana’s Administrator Awarded NSP Funds for an Inappropriate 		
			               Project, Indianapolis, IN, 02/25/2010. Better use: $4,500,000.
2010-CH-1804		    The City of Saginaw Needs To Improve Its Capacity To Effectively and Efficiently 	
			               Administer Its CDBG Program Under the ARRA, Saginaw, MI, 03/31/2010. Better 	
			               use: $335,750.
2010-FW-1801		    The State of Arkansas Has the Capacity to Manage Recovery Act Funding, Little 		
			               Rock, AR, 12/15/2009.
2010-FW-1802		    The City of San Antonio Demonstrated Capacity To Administer Its Recovery Act 		
			               Grant, San Antonio, TX, 12/29/2009.
2010-FW-1803		    The City of Grand Prairie Maintains Capacity To Adequately Administer Recovery 	
			               Funding But Needs To Make Program Improvements, Grand Prairie, TX, 			
			               01/06/2010. Questioned: $5,309.
2010-PH-1802		    District of Columbia - HOME Funds Provided to Developer H.R. Crawford for 		
			               Parkside Terrace Apartments, Washington, DC, 02/25/2010.
Housing (1 Report)
2010-LA-1802		    Review of Lutheran Gardens Corporation Trust Fund Account, Compton, CA, 		
			               12/18/2009. Better use: $87,076.
Lead Hazard Control (1 Report)
2010-NY-1801		    The City of Utica Has the Capacity to Administer Lead-Based Paint Funds 		
			               Provided Under the ARRA, Utica, NY, 12/22/2009.
Public and Indian Housing (5 Reports)
2010-AT-1804		    The Chattanooga Housing Authority Demonstrated Capacity To Administer Its 		
			               Recovery Act Funds, Chattanooga, TN, 01/26/2010.
2010-LA-1801		    HUD Should Provide Additional Monitoring of the Navajo Housing Authority’s 		
			               Implementation of Recovery Act-Funded Projects, Window Rock, AZ, 10/09/2009.
2010-NY-1802		    Control Weaknesses at the Syracuse Housing Authority May Affect Its Capacity 		
			               to Administer American Recovery and Reinvestment Act Funds, Syracuse, NY, 		
			               01/14/2010. Better use: $1,390,588.



                                                                        Appendix 1 - Audit Reports Issued
144
        2010-NY-1803		         The New York City Housing Authority Had the Capacity to Administer Capital 		
        			                    Funds Provided Under the American Recovery and Reinvestment Act, New York, 	
        			                    NY, 03/12/2010.
        2010-PH-1801		         Audit of the Scranton Housing Authority, Scranton, PA, 12/17/2009. Questioned: 	
        			                    $2,204,000; Unsupported: $2,204,000.

                                                         ppp




      Appendix 1 - Audit Reports Issued
Appendix 2
  Tables
146
                                                  Table A
                               Audit reports issued before the start of the period
                                with no management decision at March 31, 2010
                      *Significant audit reports described in previous semiannual reports

                      Report number                  Reason for lack of           Issue date
                         and title                  management decision

          * 2009-KC-0001 HUD Subsidized an         See chapter 10, page 130.     08/14/2009
          Estimated 2,094 to 3,046 Households
          That Included Lifetime Registered Sex
          Offenders

          * 2009-BO-1011 The City of Boston’s      See chapter 10, page 131.     08/19/2009
          Department of Neighborhood
          Development in Boston, Massachusetts,
          Did Not Administer Its HOME Program
          in Compliance with HUD Requirements

          * 2009-AT-0001 HUD Lacked Adequate       See chapter 10, page 131.     09/28/2009
          Controls to Ensure the Timely
          Commitment and Expenditure of HOME
          funds




      Appendix 2 - Tables
                                                                                                          147
                                       Table B
         Significant audit reports on which final action had not been completed
                         within 12 months after the date of the
                               Inspector General’s report

  Report                     Report title                   Issue       Decision        Final
  number                                                     date        date           action

2002-AT-1002   Housing Authority of the City of Tupelo,   07/03/2002   10/31/2002    07/01/2015
               Housing Programs Operations, Tupelo,
               MS
               	
2002-KC-0002   Nationwide Survey of HUD’s Office          07/31/2002   11/22/2002       Note 1
               of Housing Section 232 Nursing Home
               Program

2004-DP-0002   Application Control Review of the Tenant   02/25/2004   07/14/2004       Note 1
               Rental Assistance Certification System

2004-PH-1008   Safe Haven Outreach Ministry, 	            06/03/2004   08/31/2004       Note 1
               Incorporated, Washington, DC

2004-PH-1012   Mortgage America Bankers, LLC,             09/10/2004   01/06/2005    04/30/2010
               Nonsupervised Loan Correspondent,
               Kensington, MD

2004-FW-1009   Mays Property Management,Inc.,             09/17/2004   02/23/2005    12/31/2010
               Multifamily Management Agent, Little
               Rock, AR

2005-AT-1004   Housing Authority of the City of Durham,   11/19/2004   03/15/2005    03/15/2015
               NC

2005-CH-1002 Washington Mutual Bank, Underwriting    11/29/2004        01/28/2005       Note 2
             of FHA-Insured Loans, Downers Grove, IL

2005-NY-1005   The Housing Authority of the City          05/26/2005   09/23/2005     10/11/2011
               of Newark Bond Financing Activities
               and Section 8 Housing Choice Voucher
               Administrative Fee Reserves, Newark, NJ

2005-AT-1013   Corporacion Para el Fomento Economico      09/15/2005   01/11/2006       Note 1
               de la Ciudad Capital Did Not Administer
               Its Independent Capital Fund in
               Accordance with HUD Requirements, San
               Juan, PR

2006-CH-0001 Real Estate Assessment Center’s Physical     11/30/2005   01/10/2006     12/31/2011
             Condition Assessment Was Compromised




                                                                                    Appendix 2 - Tables
148
            Report                        Report title                  Issue        Decision      Final
            number                                                       date         date         action

         2006-AT-1004       The Housing Authority of the City of       01/13/2006   04/25/2006   06/30/2010
                            Prichard Did Not Ensure Section 8 Subsidy
                            Payments Were for Eligible Units, Tenants,
                            and Landlords, Prichard, AL
                            	
         2006-NY-1003       The Housing Authority of the City of       02/14/2006   08/17/2006   09/13/2012
                            Newark’s Controls Over Bond Financing
                            Activities, Obtaining Supporting
                            Documentation, and Legal Settlements
                            Require Improvement, Newark, NJ

         2006-CH-1007 Huntington National Bank, Supervised            03/15/2006    09/18/2006     Note 2
                      Lender, Generally Complied with
                      Requirements Regarding Submission
                      of Late Requests for Endorsement and
                      Underwriting of Loans, Columbus, OH

         2006-NY-0001       HUD’s Controls over the Reporting,       06/08/2006     01/08/2007     Note 2
                            Oversight, and Monitoring of the Housing
                            Counseling Assistance Program Were Not
                            Adequate

         2006-BO-1009       The Rhode Island Housing and Mortgage     07/06/2006    10/24/2006   11/01/2010
                            Finance Corporation Incorrectly Made
                            More Than $1.8 Million in Section 8
                            Subsidy Payments and Released More
                            Than $900,000 from Restricted Residual
                            Receipts Accounts, Providence, RI

         2006-BO-0001       HUD Incorrectly Approved $42 Million in   07/11/2006    10/13/2006   10/01/2013
                            Operating Subsidies for Phase-Down for
                            Demolition Add-On Funding

         2006-SE-0002       The Office of Single Family Housing       08/16/2006    03/30/2007     Note 1
                            Expanded Late Endorsement Eligibility
                            Without Studying Associated Risks

         2006-KC-1013       The Columbus Housing Authority         08/30/2006       10/17/2006   11/30/2012
                            Improperly Expended and Encumbered Its
                            Public Housing Funds, Columbus, NE

         2006-DP-0802       Assessment of HUD’s Compliance with       09/21/2006    11/24/2006     Note 2
                            OMB Memorandum M-06-16, “Protection
                            of Sensitive Agency Information”

         2007-LA-0001       Tax Credit Project Owners Are Allowed     11/08/2006    07/05/2007   10/01/2010
                            to Charge Higher Rents for Tenant-Based
                            Section 8 Voucher Households than Non-
                            Voucher Households


      Appendix 2 - Tables
                                                                                                           149
  Report                     Report title                    Issue       Decision        Final
  number                                                      date        date           action

2007-DP-0003   Review of HUD’s Procurement Systems         01/25/2007   05/25/2007    09/30/2010
               	
2007-KC-0002   HUD Can Improve Its Use of Residual         01/29/2007   01/29/2007     01/31/2011
               Receipts to Reduce Housing Assistance
               Payments

2007-AT-1007   The Municipality of Toa Baja Needs          04/11/2007   07/16/2007       Note 2
               to Improve Its CDBG Program
               Administration, Toa Baja, PR

2007-KC-0003   HUD Did Not Recapture Excess Funds          04/30/2007   08/27/2007       Note 2
               from Assigned Bond-Financed Projects

2007-BO-0002   HUD Did Not Process Multifamily             05/21/2007   09/07/2007    06/30/2010
               Accelerated Processing Applications
               within Established Processing Goals and
               the Multifamily Accelerated Processing
               Guide Is Outdated

2007-LA-1011   Suburban Mortgage Company Did Not        05/29/2007      12/31/2007       Note 1
               Comply with HUD Requirements in the
               Origination of FHA-Insured Single-Family
               Mortgages, Phoenix, AZ

2007-SE-0001   HUD’s Oversight of the Section 8 Project-   06/07/2007   10/05/2007       Note 1
               Based Contract

2007-FW-1011   Capmark Finance, Inc. Misrepresented        07/02/2007   10/23/2007     11/30/2010
               Asbury Square Apartments’ Financial and
               Physical Condition When Underwriting
               the $9.098 Million Loan, Tulsa, OK

2007-BO-1006   Multifamily Project Deficiencies Resulted   07/25/2007   11/20/2007    07/10/2010
               in More Than $730,000 in Cost Exceptions
               for Moosup Gardens Apartments,
               Moosup, CT

2007-LA-1014   The Housing Authority of the County of      07/27/2007   11/23/2007     11/24/2017
               San Mateo Did Not Use HUD Program
               Funds in Accordance with HUD
               Requirements, San Mateo, CA

2007-AT-1010   The Cathedral Foundation of Jacksonville    08/14/2007   12/03/2007    04/01/2010
               Used More Than $2.65 Million in Project
               Funds for Questioned Costs, Jacksonville,
               FL




                                                                                     Appendix 2 - Tables
150
            Report                         Report title                  Issue       Decision      Final
            number                                                        date        date         action

         2007-PH-0002       HUD’s Oversight of Contractors’            08/17/2007   12/12/2007     Note 1
                            Marketing of Its Real Estate-Owned
                            Properties
                            	
         2007-DP-0006       Review of HUD’s Personal Identity          08/28/2007   12/20/2007     Note 2
                            Verification and Privacy Program

         2007-AT-0001       HUD Needs to Improve Controls Over Its     09/19/2007   09/19/2007     Note 2
                            Contract Administration Processes

         2007-KC-0801       Lenders Submitted Title II Manufactured    09/24/2007   03/11/2008   09/30/2010
                            Housing Loans for Endorsement without
                            the Required Foundation Certifications

         2007-AT-1011       The Wilmington Housing Authority           09/26/2007   01/24/2008   01/01/2011
                            Did Not Follow HUD Requirements for
                            Its Nonprofit Development Activities,
                            Wilmington, NC

         2007-CH-1017 The City of Cincinnati Lacked Adequate           09/30/2007   01/28/2008   09/30/2011
                      Controls over Its HOME Investment
                      Partnerships Program, Cincinnati, OH

         2007-CH-1018 The City of Milwaukee Needs to Improve 09/30/2007             03/20/2008     Note 2
                      Existing Controls over Its HOME Program
                      Regarding Housing Conditions and
                      Contracting, Milwaukee, WI

         2008-LA-0001       The Los Angeles Multifamily Hub Did Not 11/05/2007      03/03/2008     Note 1
                            Properly Monitor Its Performance-Based
                            Contract Administrator, Los Angeles
                            LOMOD

         2008-AT-1002       The Municipality of Canovanas Needs        11/15/2007   03/07/2008     Note 2
                            to Improve Administration of Its CDBG
                            Program, Canovanas, PR

         2008-LA-1003       Home for Life Foundation Did Not        12/18/2007      02/26/2008   04/01/2013
                            Properly Administer Its Supportive
                            Housing Program Grants, Los Angeles, CA

         2008-NY-0001       HUD’s Monitoring Controls and              12/31/2007   03/27/2008     Note 2
                            Procedures Regarding the CDBG Program
                            Were Not Adequate

         2008-FW-1005       The Housing Authority of the City of       01/07/2008   04/24/2008   07/31/2010
                            McKinney Inappropriately Advanced
                            Funds and Transferred Real Estate to Its
                            Not-for-Profit Affiliate, McKinney, TX


      Appendix 2 - Tables
                                                                                                           151
  Report                     Report title                    Issue       Decision        Final
  number                                                      date        date           action

2008-AT-1004   The City of West Palm Beach Did Not         01/09/2008   05/05/2008    05/01/2012
               Properly Administer Its CDBG Program,
               West Palm Beach, FL
               	
2008-AT-1005   The City of Fort Lauderdale Did Not         01/11/2008   05/05/2008    05/01/2012
               Properly Administer Its CDBG Program,
               Fort Lauderdale, FL

2008-KC-0001   HUD’s Quality Assurance Division            01/14/2008   06/05/2008       Note 2
               Did Not Always Resolve Materially
               Deficient or Potentially Fraudulent Loans
               Consistently

2008-NY-1003   The City of New York’s Department of        01/23/2008   05/21/2008       Note 2
               Housing Preservation and Development
               Had Administrative Weaknesses in Its
               HOME Program, New York, NY

2008-AO-1002 State of Louisiana, Road Home Program,        01/30/2008   05/12/2008       Note 1
             Funded 418 Grants Coded Ineligible or
             Lacking an Eligibility Determination,
             Baton Rouge, LA

2008-BO-1004   Multifamily Project Deficiencies Resulted   02/04/2008   05/21/2008    07/10/2010
               in More Than $1.1 Million in Cost
               Exceptions for Mohegan Commons,
               Norwich, CT

2008-KC-0002   HUD Did Not Ensure That Housing             03/24/2008   07/22/2008     10/01/2011
               Authorities Properly Administered the
               Community Service and Self-Sufficiency
               Requirement

2008-AO-0801 Review of Duplication of Participants         03/28/2008   08/01/2008       Note 2
             Benefits under HUD’s Katrina Disaster
             Housing Assistance Program and Disaster
             Voucher Program

2008-CH-1006 The Indianapolis Housing Agency Did           04/15/2008   08/12/2008    04/01/2010
             Not Effectively Operate Its Section 8
             Housing Choice Voucher Program,
             Indianapolis, IN

2008-AT-0002   The Miami Dade Housing Agency Did           04/24/2008   08/22/2008    06/30/2010
               Not Maintain Adequate Controls over Its
               Capital Fund Program




                                                                                     Appendix 2 - Tables
152
            Report                        Report title                  Issue       Decision      Final
            number                                                       date        date         action

         2008-SE-1004       A Plus Mortgage, Inc., Overcharged        05/07/2008   09/24/2008     Note 2
                            Borrowers and Allowed Independent
                            Contractors and Unapproved Branches to
                            Originate Loans, Tukwila, WA

         2008-AT-0003       HUD Lacked Adequate Controls over the     05/14/2008   09/10/2008   10/01/2011
                            Physical Condition of Section 8 Voucher
                            Program Housing Stock

         2008-BO-0002       Maintenance of Effort Requirements Are    05/21/2008   10/02/2008     Note 1
                            Needed to Ensure Intended Use of CDBG
                            Program Funds

         2008-CH-1010 The City of Cincinnati Lacked Adequate          06/11/2008   10/09/2008   07/13/2011
                      Controls over Its System Reporting and
                      Rental Rehabilitation Projects for Its
                      HOME Investment Partnerships Program,
                      Cincinnati, OH

         2008-DP-0004       Review of Selected FHA Major              06/12/2008   10/08/2008     Note 2
                            Applications’ Information Security
                            Controls

         2008-LA-1012       The Housing Authority of the City of      07/01/2008   10/14/2008   12/31/2013
                            Calexico Did Not Comply with Public
                            Housing Program Rules and Regulations,
                            Calexico, CA

         2008-FW-0001       HUD’s CDBG Set-Aside for Colonias Was     07/29/2008   11/24/2008   04/01/2010
                            Not Used for Its Intended Purposes

         2008-AO-1005 State of Louisiana, Road Home Program,          08/07/2008   01/13/2009     Note 2
                      Did Not Ensure That All Additional
                      Compensation Grant Applicants Were
                      Eligible, Baton Rouge, LA

         2008-LA-0003       Implementation Weaknesses Existed in      09/04/2008   12/19/2008     Note 2
                            All Major Phases of the FHA Appraiser
                            Review Process
                            	
         2008-AT-0004       The Miami-Dade Housing Agency Did         09/17/2008   09/17/2008   06/30/2010
                            Not Maintain Adequate Controls over
                            Capital Fund Program Drawdowns,
                            Miami, FL




      Appendix 2 - Tables
                                                                                                          153
  Report                     Report title                   Issue       Decision        Final
  number                                                     date        date           action

2008-LA-1016   The City of Los Angeles Housing         09/18/2008      12/02/2008    04/16/2010
               Department Did Not Comply with HOME
               Affordability Monitoring and Inspection
               Requirements for Its HOME-Assisted
               Rental Housing, Los Angeles, CA

2008-DE-1003   The State of Colorado Did Not Comply       09/23/2008   01/14/2009     09/30/2011
               with CDBG Program Requirements,
               Denver, CO

2008-CH-1014 The City of Cincinnati Did Not        09/26/2008          01/22/2009    08/31/2010
             Adequately Manage Its HOME Investment
             Partnerships Program, Cincinnati, OH

2009-NY-0001   HUD Did Not Adequately Monitor             10/16/2008   03/06/2009       Note 2
               Its Performance-Based Contract
               Administrator, New York State Housing
               Trust Fund Corporation

2009-CH-1001 New Phoenix Assistance Center                10/24/2008   02/20/2009       Note 2
             Substantially Failed to Manage Its
             Supportive Housing Program Grant,
             Chicago, IL

2009-BO-1002   Orchard Court Multifamily Project Was      11/06/2008   01/16/2009     02/25/2011
               Not Properly Managed in Accordance
               with HUD Regulations, Bath, ME

2009-FO-0002   Audit of the FHA’s Financial Statements    11/07/2008   03/13/2009    08/31/2010
               for Fiscal Years 2008 and 2007

2009-KC-1001   CitiMortgage Did Not Follow HUD            11/13/2008   03/13/2009       Note 2
               Requirements When Underwriting 20
               Loans and Performing Its Quality Control
               Program, St. Louis, MO

2009-FO-0003   Additional Details to Supplement Our       11/14/2008   03/19/2009     12/31/2011
               Report on HUD’s Fiscal Years 2008 and
               2007 Financial Statements

2009-DP-0001   Review of Single-Family Partial Claims     11/20/2008   01/26/2009       Note 2
               Collection Process
               	
2009-FW-1002   The Owner of Ebony Lake Healthcare         11/25/2008   03/25/2009    04/15/2010
               Center Violated Its Regulatory Agreement
               with HUD, Brownsville, TX




                                                                                    Appendix 2 - Tables
154
            Report                       Report title                 Issue       Decision      Final
            number                                                     date        date         action

         2009-NY-1002       The New York City Housing Authority     11/25/2008   04/09/2009   04/09/2010
                            Had Administration Weaknesses in Its
                            Capital Fund Program, New York, NY

         2009-NY-1003       Lower Manhattan Development             12/04/2008   05/06/2009   01/12/2011
                            Corporation CDBG Disaster Recovery
                            Assistance Funds, New York, NY

         2009-KC-1003       CTX Mortgage Did Not Follow HUD’s       12/17/2008   04/16/2009     Note 2
                            Requirements When Underwriting 12
                            FHA Loans and Developing Its Quality
                            Control Plan, Overland Park, KS

         2009-BO-1004       The City of Hartford Did Not Always     01/05/2009   04/29/2009   04/09/2010
                            Comply with Its Annual Contributions
                            Contracts and HUD Regulations in
                            Administering Its Housing Choice
                            Voucher Program, Hartford, CT

         2009-DP-0003       Review of the Centralized HUD Account   01/09/2009   04/30/2009   04/29/2010
                            Management Process

         2009-CH-1002 The Indianapolis Housing Agency Failed        01/23/2009   05/08/2009   05/22/2010
                      to Operate Its Housing Choice Voucher
                      Program According to HUD’s and Its
                      Requirements, Indianapolis, IN

         2009-NY-1006       The City of Rome Did Not Always         01/26/2009   05/27/2009   05/31/2010
                            Administer Its CDBG Program in
                            Accordance with HUD Requirements,
                            Rome, NY

         2009-CH-1003 The Portage Metropolitan Housing          01/28/2009       06/08/2009   04/27/2010
                      Authority Improperly Operated Its Section
                      8 Housing Choice Voucher Program,
                      Ravenna, OH

         2009-AO-0002 HUD’s Receivership Did Not Ensure That        01/29/2009   08/21/2009   08/21/2010
                      the Housing Authority of New Orleans
                      Properly Accounted for Its Fungibility
                      Funding, Monitored and Paid Two of
                      Its Contractors, and Paid Its Accounts
                      Payable Disbursements

         2009-SE-0002       NAHASDA Program Income from 1937        02/06/2009   09/29/2009   09/28/2010
                            Act Properties
                            	




      Appendix 2 - Tables
                                                                                                         155
  Report                    Report title                   Issue       Decision        Final
  number                                                    date        date           action

2009-FW-1005   Allied Home Mortgage Capital              02/10/2009   06/10/2009    10/18/2010
               Corporation Did Not Fully Follow HUD’s
               Branch Office Requirements, Houston, TX

2009-DE-1001   The Adams County Office of Community      02/11/2009   04/29/2009    04/29/2010
               and Development Did Not Comply with
               HOME Investment Partnerships Program
               Regulations, Denver, CO

2009-NY-1008   The City of Newburgh Did Not Always       02/24/2009   06/11/2009     06/11/2010
               Administer Its CDBG Program in
               Accordance with HUD Requirements,
               Newburgh, NY

2009-KC-1005   The East St. Louis Housing Authority’s    03/02/2009   06/25/2009    06/25/2010
               Section 8 Voucher Program Units Did Not
               Always Meet HUD’s Housing Quality
               Standards, East St. Louis, IL

2009-FW-1007   The Owners of Stonebrook Apartments       03/25/2009   06/12/2009    06/09/2010
               Phase I and Phase II Violated Their
               Regulatory Agreements with HUD,
               Baytown, TX

2009-AT-1004   The City of Durham Did Not Adequately     03/31/2009   06/09/2009    04/30/2010
               Administer Its CDBG Program, Durham,
               NC




                                                                                   Appendix 2 - Tables
156
                            Significant audit reports issued within the past 12 months
                               that were described in previous semiannual reports
                                    on which final action had not been completed
                                                as of March 31, 2010

            Report                        Report title                 Issue       Decision      Final
            number                                                      date        date         action

         2009-AO-0003 HUD Could Not Demonstrate That Its             04/08/2009   08/21/2009   11/30/2010
                      Receivership Improved the Housing
                      Authority of New Orleans’ Performance
                      	
         2009-BO-1006 Quincy Housing Authority Housing               04/09/2009   07/30/2009   08/01/2010
                      Choice Voucher Program Needs to
                      Improve Controls over Its Interprogram
                      Fund Transactions, Procurement, and
                      Travel, Quincy, MA

         2009-SE-1002       The John C. Cannon Retirement and        04/15/2009   08/13/2009   08/13/2010
                            Assisted Living Residence Violated Its
                            Regulatory Agreement, Seattle, WA

         2009-FO-0005       Mortgage-Backed Securities Program       04/30/2009   10/05/2009     Note 2
                            Document Review

         2009-AO-1001 State of Louisiana, Road Home Program,         05/05/2009   09/16/2009   04/30/2010
                      Did Not Ensure That Road Home
                      Employees Were Eligible to Receive
                      Additional Compensation Grants, Baton
                      Rouge, LA

         2009-AO-1002 State of Louisiana, Road Home                  05/05/2009   09/16/2009   04/30/2010
                      Program, Did Not Ensure That Multiple
                      Disbursements to a Single Damaged
                      Residence Address Were Eligible, Baton
                      Rouge, LA

         2009-CH-1008 The City of East Cleveland Did Not    05/11/2009            09/08/2009   09/08/2011
                      Adequately Manage Its HOME Investment
                      Partnerships and CDBG Programs, East
                      Cleveland, OH

         2009-NY-1010       The Union County Consortium Had          05/15/2009   08/24/2009   05/31/2010
                            Administrative Weaknesses in Its CDBG
                            Program, Elizabeth, NJ

         2009-CH-1009 The Chicago Housing Authority Needs        05/19/2009       09/15/2009   05/15/2010
                      to Improve Its Controls over Its Section 8
                      Housing Assistance Payments, Chicago, IL




      Appendix 2 - Tables
                                                                                                          157
  Report                     Report title                   Issue       Decision        Final
  number                                                     date        date           action

2009-CH-1010 The Cincinnati Metropolitan Housing          05/19/2009   09/11/2009    06/30/2010
             Authority Needs to Improve Its Controls
             over Section 8 Housing Assistance
             Payments, Cincinnati, OH
             	
2009-NY-1012 The City of Rome Did Not Administer          05/20/2009   09/23/2009    09/30/2010
             Its Economic Development Activity in
             Accordance with HUD Requirements,
             Rome, NY

2009-FW-0801   Tenant Confirmation for Disaster Housing   05/28/2009   09/25/2009     10/01/2011
               Assistance Program for March and April
               2009

2009-DP-0004   FY 2008 Review of Information Systems      05/29/2009   09/25/2009    10/31/2010
               Controls in Support of the Financial
               Statements Audit

2009-AT-1007   The Chattanooga Housing Authority          06/11/2009   09/04/2009    12/31/2020
               Mismanaged Its Finances, Chattanooga,
               TN

2009-DP-0005   Review of Implementation of Security       06/11/2009   11/17/2009    12/31/2014
               Controls over HUD’s Business Partners

2009-AT-1008   Miami-Dade County Did Not Properly         06/19/2009   09/25/2009    05/17/2010
               Administer Its CDBG Program, Miami, FL

2009-PH-0801   Corrective Action Verification Review,     06/19/2009   07/09/2009    07/09/2010
               Upfront Grant for Ridgecrest Heights
               Apartments, CEMI-Ridgecrest, Inc.,
               Washington, DC, Audit Memorandum 98-
               AO-219-1804

2009-FW-0001   HUD’s Disaster Recovery Grant Reporting 06/25/2009      10/23/2009     03/25/2011
               System Can Collect the Basic Information
               Needed to Monitor the Neighborhood
               Stabilization Program

2009-FW-1010   Harry Mortgage Company Overstated the 06/26/2009        10/19/2009    10/16/2010
               Financial Wherewithal of the Owner and
               General Contractor and Overestimated the
               Qualifications of the General Contractor
               When Underwriting the Cypress Ridge
               Apartments’ $5.87 Million Loan under
               the Multifamily Accelerated Processing
               Program, Oklahoma City, OK




                                                                                    Appendix 2 - Tables
158
            Report                        Report title                  Issue        Decision      Final
            number                                                       date         date         action

         2009-LA-1011       City of Los Angeles Housing Department 07/01/2009       10/21/2009   09/01/2011
                            Did Not Ensure That the Buckingham
                            Place Project Met HOME Program
                            Requirements, Los Angeles, CA
                            	
         2009-FW-1012       Financial Freedom Senior Funding           07/14/2009   11/20/2009   07/14/2010
                            Corporation Did Not Fully Follow HUD’s
                            Reverse Mortgage Requirements for Loans
                            in the San Antonio, Texas Area, Irvine, CA

         2009-AT-1009       The Housing Authority of the City of     07/20/2009     11/16/2009   06/30/2011
                            Newnan Inappropriately Encumbered
                            Assets and Advanced Funds to Support Its
                            Nonprofit Organization, Newnan, GA

         2009-KC-1008       Grace Hill Used Neighborhood Initiative   07/24/2009    10/13/2009   09/01/2010
                            Grant Funds to Pay Unsupported Payroll
                            Expenses and Duplicated Computer
                            Support Costs, St. Louis, MO

         2009-NY-0802       Significant Flaws Identified at the       07/24/2009    09/29/2009   04/30/2010
                            Lackawanna Municipal Housing
                            Authority may affect its Capacity to
                            Administer American Recovery and
                            Reinvestment Act Funds

         2009-CH-1801 The City of Cincinnati Lacked Sufficient  07/29/2009          11/24/2009   04/30/2010
                      Capacity to Effectively and Efficiently
                      Administer Its Neighborhood Stabilization
                      Program, Cincinnati, OH

         2009-FW-1014       Cypress Ridge Apartments Owner’s        07/30/2009      10/30/2009   09/30/2010
                            Agent Received and Paid More Than
                            $742,000 Contrary to HUD and Regulatory
                            Requirements, Oklahoma City, OK

         2009-PH-1011       The Wilmington Housing Authority Did      07/30/2009    10/01/2009   04/30/2010
                            Not Ensure That Its Section 8 Housing
                            Choice Voucher Program Units Met
                            Housing Quality Standards, Wilmington,
                            DE

         2009-CH-1011       The Housing Authority of the City of      07/31/2009    11/24/2009   01/01/2030
                            Terre Haute Failed to Follow Federal
                            Requirements and Its Employment
                            Contract Regarding Nonprofit
                            Development Activities, Terre Haute, IN




      Appendix 2 - Tables
                                                                                                          159
  Report                     Report title                   Issue       Decision        Final
  number                                                     date        date           action

2009-NY-1014   The Lackawanna Municipal Housing           07/31/2009   11/06/2009    07/31/2010
               Authority Needs to Improve Controls
               and Operational Procedures regarding Its
               Capital Fund Program, Lackawanna, NY
               	
2009-BO-1010   The City of New London Housing             08/07/2009   12/04/2009    12/01/2010
               Authority Lacks the Capacity to Properly
               Administer its Capital Fund Program and
               Recovery Act Funds, New London, CT

2009-CH-1012 The Lake Metropolitan Housing Authority 08/14/2009        11/24/2009    05/31/2010
             Needs to Improve Its Controls over
             Housing Assistance and Utility Allowance
             Payments, Painesville, OH

2009-KC-0001   HUD Subsidized an Estimated 2,094 to       08/14/2009   12/12/2009       Note 3
               3,046 Households That Included Lifetime
               Registered Sex Offenders

2009-FW-1015   The Housing Authority of Travis County    08/17/2009    12/03/2009    10/15/2010
               Could Not Adequately Account For or
               Support Its Use of Federal Program Funds,
               Austin, TX

2009-FW-1801   Travis County Housing Authority            08/17/2009   10/27/2009    10/15/2010
               Lacks Capacity to Administer American
               Recovery and Reinvestment Act of 2009
               Public Housing Capital Funds, Austin, TX

2009-AT-1011   The City of Miami Did Not Properly         08/18/2009   12/15/2009    06/30/2010
               Administer Its CDBG Program, Miami, FL

2009-BO-1011   The City of Boston’s Department of         08/19/2009   01/20/2010       Note 3
               Neighborhood Development in Boston,
               MA, Did Not Administer Its HOME
               Program in Compliance with HUD
               Requirements

2009-CH-0002 The Office of Affordable Housing       08/28/2009         12/26/2009     03/31/2011
             Programs’ Oversight of HOME Investment
             Partnerships Program Income Was
             Inadequate

2009-LA-1018   DHI Mortgage Company, LTD’s Scottsdale 09/10/2009       01/08/2010    09/10/2010
               and Tucson, AZ, Branches Did Not Always
               Follow FHA-Insured Loan Underwriting
               and Quality Control Requirements




                                                                                    Appendix 2 - Tables
160
            Report                        Report title                  Issue       Decision      Final
            number                                                       date        date         action

         2009-LA-1019 The Owner of Park Lee Apartments                09/15/2009   01/13/2010   07/13/2011
                      Violated Its Regulatory Agreement with
                      HUD, Phoenix, AZ
                      	
         2009-CH-1013 The Housing Authority of the City of            09/17/2009   01/14/2010   01/07/2011
                      Milwaukee Did Not Adequately Maintain
                      a Separate Identity for Commingled
                      Funds, Milwaukee, WI

         2009-CH-1802 Cook County Needs to Improve Its          09/17/2009         01/15/2010   10/31/2010
                      Capacity to Effectively and Efficiently
                      Administer Its Neighborhood Stabilization
                      Program, Chicago, IL

         2009-DE-1005       Adams County Did Not Have Adequate        09/17/2009   01/15/2010   01/07/2011
                            Controls over Its Block Grant Funds,
                            Westminster, CO

         2009-SE-1803       Capacity Review of the Warm Springs       09/21/2009   01/13/2010   05/17/2010
                            Housing Authority, Warm Springs, OR

         2009-AO-1003 Louisiana Land Trust, As the State of           09/23/2009   01/26/2010   04/30/2010
                      Louisiana’s Subrecipient, Did Not Always
                      Ensure That Properties Were Properly
                      Maintained, Baton Rouge, LA

         2009-BO-1802       The City of Boston’s Department of      09/23/2009     12/17/2009   05/14/2010
                            Neighborhood Development Can Develop
                            the Capacity to Administer Its Housing
                            and Economic Recovery Act and American
                            Recovery and Reinvestment Act Programs,
                            Boston, MA

         2009-DE-1801       Adams County, Colorado Had Weaknesses 09/24/2009       01/14/2010   01/11/2011
                            That Could Significantly Affect Its
                            Capacity to Administer Its Recovery Act
                            Funding, Commerce City, CO

         2009-LA-1020       The Housing Authority of the City of      09/24/2009   12/29/2009   12/29/2010
                            Richmond Did Not Follow Procurement
                            Requirements and Had Internal Control
                            Weaknesses, Richmond, CA

         2009-AT-1012       The Municipality of Río Grande Needs      09/25/2009   01/22/2010   01/27/2011
                            to Improve Administration of Its CDBG
                            Program and Its Recovery Act Funds, Rio
                            Grande, PR




      Appendix 2 - Tables
                                                                                                          161
  Report                     Report title                   Issue       Decision        Final
  number                                                     date        date           action

2009-CH-1015 The Public Housing Agency of the City    09/25/2009       02/24/2010    10/01/2010
             of Saint Paul Needs to Improve Its
             Administration of Its Section 8 Project-
             Based Voucher Program, Saint Paul, MN
             	
2009-AT-0001 HUD Lacked Adequate Controls to Ensure 09/28/2009         03/03/2010       Note 3
             the Timely Commitment and Expenditure
             of HOME funds

2009-AT-1013   The City of Atlanta Entered Incorrect      09/28/2009   11/05/2009     03/25/2011
               Commitments into HUD’s Integrated
               Disbursement and Information System for
               its HOME Program, Atlanta, GA

2009-AT-1014   The Housing Authority of the City          09/29/2009   12/01/2009    12/01/2010
               of Winston-Salem Needs to Improve
               Financial Controls, Winston-Salem, NC

2009-CH-1017 The Housing Authority of the City of         09/29/2009   01/22/2010    12/30/2010
             Terre Haute Failed to Follow Federal
             Requirements Regarding Its Turnkey III
             Homeownership Program Units’ Sales
             proceeds, Terre Haute, IN

2009-CH-1018 The Chicago Housing Authority Needs to 09/29/2009         01/25/2010    06/30/2010
             Improve Its Controls over the Enforcement
             of Housing Quality Standards, Chicago, IL

2009-DP-0006   Review of HUD’s Web Application            09/29/2009   12/17/2009     09/30/2011
               Systems

2009-AT-1015   The Puerto Rico Public Housing             09/30/2009   01/27/2010     04/15/2011
               Administration Mismanaged Its
               Capital Fund Financing Program and
               Inappropriately Obligated $32 Million in
               Recovery Act Funds, San Juan, PR

2009-CH-0003 HUD’s Oversight of FHA Lenders         09/30/2009         03/02/2010    09/30/2010
             Underwriting of Home Equity Conversion
             Mortgages Was Generally Adequate

2009-CH-1019 The Michigan State Housing Development 09/30/2009         01/27/2010    02/01/2012
             Authority Failed to Operate Its Section 8
             Project-Based Voucher Program According
             to HUD’s and Its Requirements, Lansing,
             MI




                                                                                    Appendix 2 - Tables
162
            Report                       Report title                     Issue        Decision        Final
            number                                                         date         date           action

         2009-CH-1020 The City of Flint Lacked Adequate        09/30/2009             01/27/2010    10/01/2010
                      Controls over Its Commitment and
                      Disbursement of HOME Investment
                      Partnerships Program Funds, Flint, MI
                      	
         2009-DP-0007 Review of Selected Controls within the   09/30/2009             03/26/2010    08/01/2010
                      Disaster Recovery Grant Reporting System

         2009-DP-0008       Review of Recovery Act Management and      09/30/2009     01/12/2010    08/31/2010
                            Reporting System

         2009-FW-1016       The Texas Department of Housing and        09/30/2009     01/26/2010       Note 2
                            Community Affair’s Disaster Recovery
                            Action Plan Needs Improvement, Austin,
                            TX

         2009-SE-0004       Controls over FHA’s Single-Family Lender 09/30/2009       01/27/2010    09/30/2010
                            Approval Process Need Improvement




         Audits Excluded:                                            Notes:

         77 audits under repayment plans                             1 Management did not meet the target date.
                                                                     Target date is over 1 year old.
         28  audits under debt claims collection
         processing, formal judicial review,                         2 Management did not meet the target date.
         investigation, or legislative solution                      Target date is under 1 year old.

                                                                     3 No management decision




      Appendix 2 - Tables
                                                                                                                                163
                                                    Table C
                        Inspector General-issued reports with questioned and
                               unsupported costs at March 31, 2010
                                             (thousands)

                          Audit reports                                 Number of           Questioned    Unsupported
                                                                       audit reports          costs          costs

  A1 For which no management decision had been                                41               150,459        78,177
     made by the commencement of the reporting
	                                                                    			 			 			
     period
	                                                                    			 			 			
  A2 For which litigation, legislation, or investigation               6  7,520 4,727
     was pending at the commencement of the
	                                                                    			 			 			
     reporting period
	                                                                    			 			 			
  A3 For which additional costs were added to                          -  2,962 129
     reports in beginning inventory
	                                                                    			 			 			
  A4 For which costs were added to noncost reports                     0   0  0
    B1 Which were issued during the reporting period                          29                42,307        37,550
    B2 Which were reopened during the reporting                               0                    0            0
       period
                                                                     			 		                               		
                                               Subtotals (A+B)        76  203,248                          120,583
	
    C For which a management decision was made                               561               152,264        77,975
      during the reporting period
	                                                                    			 			 			
	      (1) Dollar value of disallowed costs:          		             			 		       		
          	    - Due HUD                                              152  7,727    2,313
        	      - Due program participants                             44  135,404  69,003
	
       (2) Dollar value of costs not disallowed                               93                 9,133        6,659
  D For which management decision had been                                    5                  7,247        4,599
    made not to determine costs until completion of
	                                                                    		                   			 			
    litigation, legislation, or investigation
	                                                                    	                    	           	
  E For which no management decision had been                           15                   43,737      38,009
    made by the end of the reporting period                            <30>4                <26,705>4   <23,604>4
	
                                                                     		                   		              		
                                                                     	                    	               	



1
  28 audit reports also contain recommendations with funds to be put to better use.
2
  4 audit reports also contain recommendations with funds due program participants.
3
  8 audit reports also contain recommendations with funds agreed to by management.
4
  The figures in brackets represent data at the recommendation level as compared to the report level. 	
See explanations of tables C and D.




                                                                                                          Appendix 2 - Tables
164
                                                         Table D
                            Inspector General-issued reports with recommendations
                               that funds be put to better use at March 31, 2010
                                                   (thousands)

                                     Audit reports                                       Number of                Questioned
                                                                                        audit reports               costs

            A1 For which no management decision had been made                                  26                  302,776
               by the commencement of the reporting period
        	                                                                          			                       				
          A2 For which litigation, legislation, or investigation                     1                         2,957
             was pending at the commencement of the reporting
        	                                                                          			                       				
             period
        	                                                                          			                       				
          A3 For which additional costs were added to reports in                     -                         10
             beginning inventory
        	                                                                          			                       				
          A4 For which costs were added to noncost reports                           0                         0
            B1 Which were issued during the reporting period                                   34                   588,118
            B2 Which were reopened during the reporting period                                  0                     0
                                                            Subtotals (A+B)                    61                  893,861
        	 C For which a management decision was made during     431                                                272,270
            the reporting period
        	                                                     			                                            				
        	   (1) Dollar value of disallowed costs: 		        	 			                                            				
            	       - Due HUD                                    82                                            47,994
              	     - Due program participants                  35                                            222,821
        	
            (2) Dollar value of costs not disallowed            23                                                   1,455
          D For which management decision had been made                                         1                    2,957
            not to determine costs until completion of litigation,
        	                                                                          		                        			
            legislation, or investigation
        	                                                                          	                         	
          E For which no management decision had been made                            17                        618,634
            by the end of the reporting period                                       <23>4                     <102,095>4
        	
                                                                                   		                        			
                                                                                   	




        1
          28 audit reports also contain recommendations with questioned costs.
        2
          1 audit report also contains recommendations with funds due program participants.
        3
          1 audit report also contains recommendations with funds agreed to by management.
        4
          The figures in brackets represent data at the recommendation level as compared to the report level. 	
        See explanations of tables C and D.




      Appendix 2 - Tables
                                                                                                                   165
Explanations of Tables C and D
    The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report
cost data on management decisions and final actions on audit reports. The current method of reporting at
the “report” level rather than at the individual audit “recommendation” level results in misleading reporting
of cost data. Under the Act, an audit “report” does not have a management decision or final action until all
questioned cost items or other recommendations have a management decision or final action. Under these
circumstances, the use of the “report” based rather than the “recommendation” based method of reporting
distorts the actual agency efforts to resolve and complete action on audit recommendations. For example,
certain cost items or recommendations could have a management decision and repayment (final action) in
a short period of time. Other cost items or nonmonetary recommendation issues in the same audit report
may be more complex, requiring a longer period of time for management’s decision or final action. Although
management may have taken timely action on all but one of many recommendations in an audit report, the
current “all or nothing” reporting format does not recognize of their efforts.

    The closing inventory for items with no management decision in tables C and D (line E) reflects figures
at the report level as well as the recommendation level.

                                                   ppp




                                                                                             Appendix 2 - Tables
Appendix 3
  Index
168
          State                  Page numbers

        Alabama			               67, 114, 121
        Arizona			               10, 31, 77, 101, 110, 115
        Arkansas			              79, 116, 132
        California			            14, 15, 38, 40, 41, 42, 43, 46, 49, 51, 53, 62, 63, 68, 82, 83, 84, 111, 113, 121, 		
        				                     124, 134
        Colorado			              17, 18, 19, 33, 49, 113, 114, 115, 124
        Connecticut			           27, 29, 56, 57, 64, 80, 99, 123
        Delaware			              53
        District of Columbia		   63, 111, 115, 117
        Florida				              14, 15, 16, 17, 20, 21, 34, 36, 38, 43, 44, 66, 68, 80, 81, 84, 99, 110, 117, 118
        Georgia			               11, 17, 81, 111, 113, 122
        Guam				                 76
        Hawaii				               36, 77
        Idaho				                43
        Illinois				             20, 21, 22, 41, 42, 46, 55, 61, 66, 101, 110, 111, 112, 114, 119, 120, 121
        Indiana			               21, 36, 38, 64, 111
        Iowa				                 90
        Kansas				               34, 45, 53, 106, 117, 118
        Kentucky			              45, 114, 118, 120
        Louisiana			             16, 35, 44, 45, 54, 66, 75, 90, 93, 94, 95, 96, 97, 98, 99, 100, 120, 123
        Maine				                82, 118
        Maryland			              10, 42, 56, 112, 114, 115, 116, 118, 119, 123
        Massachusetts			         39, 40, 46, 55, 62, 115, 118, 121, 122
        Michigan			              18, 19, 27, 37, 62, 66, 78, 82, 115, 117
        Minnesota			             53
        Mississippi			           40, 46, 91, 93, 94, 96, 97, 98
        Missouri			              17, 34, 36, 45, 53, 113, 116, 119, 133
        Montana			               30, 35
        Nebraska			              40
        Nevada			                39
        New Hampshire		          66




      Appendix 3 - Index
                                                                                                                169
 State             Page numbers

New Jersey			      10, 11, 14, 16, 17, 19, 35, 38, 41, 43, 44, 54, 56, 61, 66, 67, 78
New York			        9, 18, 19, 23, 34, 37, 39, 40, 41, 45, 50, 51, 54, 55, 56, 67, 68, 69, 74, 76, 85, 91, 		
				               101, 110, 111, 113, 117, 119, 122, 123
North Carolina		   35, 84
North Dakota			    37
Ohio				           12, 22, 28, 39, 56, 58, 67, 79, 84, 86, 112, 116
Oklahoma			        29, 133
Pennsylvania			    9, 28, 29, 61
Puerto Rico			     44, 45, 46, 106, 114, 115, 123
Rhode Island			    120
South Dakota			    34
Tennessee			       36, 76, 112, 114
Texas				          14, 15, 18, 20, 35, 36, 41, 67, 75, 78, 79, 99, 101, 118, 120, 124, 125
Utah				           20, 42, 46
Vermont			         82, 113                  
Virginia			        18, 50, 124
Washington			      43, 110, 125
Wisconsin			       38, 113, 122


                                          ppp




                                                                                           Appendix 3 - Index
     HUD OIG
Operations Telephone
       Listing
172
        Office of Audit
        Headquarters Office of Audit, Washington, DC					     202-708-0364
        Region 1			                  Boston, MA						         617-994-8380			
        				                         Hartford, CT						       860-240-4800		
        Region2			                   New York, NY						       212-264-4174			
        				                         Albany, NY						         518-464-4200			
        				                         Buffalo, NY						        716-551-5755			
        				                         Newark, NJ						         973-622-7900
        Region 3			                  Philadelphia, PA					    215-656-0500			
        				                         Baltimore, MD						      410-962-2520			
        				                         Pittsburgh, PA						     412-644-6372			
        				                         Richmond, VA						       804-771-2100
        Region 4			                  Atlanta, GA						        404-331-3369			
        				                         Miami, FL						          305-536-5387			
        				                         Greensboro, NC					      336-547-4001			
        				                         Jacksonville, FL					    904-232-1226			
        				                         Knoxville, TN						      865-545-4369			
        				                         San Juan, PR						       787-766-5202
        Region 5			                  Chicago, IL						        312-353-7832			
        				                         Columbus, OH					        614-469-5745			
        				                         Detroit, MI						        313-226-6190
        Region 6			                  Fort Worth, TX					      817-978-9309			
        				                         Houston, TX						        713-718-3199			
        				                         Oklahoma City, OK					   405-609-8606			
        				                         San Antonio, TX					     210-475-6898
        Regions 7/8/10		             Kansas City, KS					     913-551-5870			
        				                         St. Louis, MO						      314-539-6339			
        				                         Denver, CO						         303-672-5452 			
        				                         Seattle, WA						        206-220-5360
        Regions 9			                 Los Angeles, CA					     213-894-8016			
        				                         Phoenix, AZ						        602-379-7250			
        				                         San Francisco, CA					   415-489-6400		
        Region 11			                 New Orleans, LA					     504-671-3715			
        				                         Jackson, MS						        601-965-4700


                                               ppp




      HUD OIG Operations Telephone Directory
                                                                                             173
Office of Investigation
Headquarters Office of Investigation, Washington, DC				       202-708-0390
Region 1				               Boston, MA					                     617-994-8450			
					                      Hartford, CT					                   860-240-4800			
					                      Manchester, NH				                  603-666-7988
Region 2				               New York, NY					                   212-264-8062			
					                      Buffalo, NY					                    716-551-5755		
Region 3				               Philadelphia, PA				                215-656-0500			
					                      Newark, NJ					                     973-776-7347 			
					                      Pittsburgh, PA					                 412-644-6598		
Region 4				               Atlanta, GA					                    404-331-3359			
					                      Birmingham, AL				                  205-731-2630			
					                      Columbia, SC					                   803-451-4320			
					                      Knoxville, TN					                  865-545-4369			
					                      Louisville, KY					                 502-618-8127			
					                      Memphis, TN					                    901-229-6997			
					                      Nashville, TN					                  615-426-6171
Region 5				               Chicago, IL					                    312-353-4196			
					                      Indianapolis, IN				                317-226-5427			
					                      Minneapolis/St. Paul, MN			         612-370-3000
Region 6				               Arlington, TX					                  817-978-5440			
					                      Houston, TX					                    713-718-3196			
					                      Little Rock, AR				                 501-353-8115			
					                      Oklahoma City, OK				               405-609-8601			
					                      San Antonio, TX				                 210-475-6819
Regions 7/8				            Kansas City, KS				                 913-551-5866			
					                      Denver, CO					                     303-672-5350			
					                      Salt Lake City, UT				              801-524-6090			
					                      St. Louis, MO					                  314-539-6559
Regions 9				              Los Angeles, CA				                 213-894-0219			
					                      Las Vegas, NV					                  702-336-2144			
					                      Phoenix, AZ					                    602-379-7255
Region 10				              Seattle, WA					                    206-220-5380			
					                      Billings, MT					                   406-247-4080			
					                      Sacramento, MT				                  916-930-5691			
					                      San Francisco, CA				               415-489-6683
Region 11				              New Orleans, LA				                 504-671-3701			
					                      Hattiesburg, MS				                 601-299-4279			
					                      Jackson, MS					                    601-965-5772
Region 13				              Baltimore, MD					                  410-962-4502			
					                      Greensboro, NC				                  336-547-4000			
					                      Richmond, VA					                   804-771-2100




                                                    HUD OIG Operations Telephone Directory
174
        Region 14				                          Tampa, FL					         813-228-2026			
        					                                  Jacksonville, FL				   904-208-6126			
        					                                  Miami, FL					         305-536-3087			
        					                                  San Juan, PR					      787-766-5868
        Region 15				                          Detroit, MI					       313-226-6280			
        					                                  Cleveland, OH				      216-522-4421			
        					                                  Columbus, OH				       614-469-6677			
        					
                                                     ppp

        						




      HUD OIG Operations Telephone Directory
   Report fraud, waste, and mismanagement in HUD
              programs and operations by

        Calling the OIG hotline: 1-800-347-3735

         Faxing the OIG hotline: 202-708-4829

          Sending written information to:
   Department of Housing and Urban Development
          Inspector General Hotline (GFI)
                 451 7th Street, SW
               Washington, DC 20410

    E-mailing the OIG hotline: hotline@hudoig.gov

Internet:http://www.hud.gov/complaints/fraud_waste.cfm

            All information is confidential,
           and you may remain anonymous.
Semiannual Report to Congress
October 1, 2009, through March 31, 2010

www.hud.gov/offices/oig

No. 63	 HUD-OIG-2010-001
